<html>
<title> - CHALLENGES AND SUCCESSES OF CONSERVATION PROGRAMS IN 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
       CHALLENGES AND SUCCESSES OF CONSERVATION PROGRAMS IN 2020

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 1, 2020

                               __________

                           Serial No. 116-37
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      




          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                         
                             ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-616 PDF            WASHINGTON : 2020 
                          


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JOSH HARDER, California              RALPH LEE ABRAHAM, Louisiana
KIM SCHRIER, Washington              TRENT KELLY, Mississippi
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California            CHRIS JACOBS, New York
ANN KIRKPATRICK, Arizona             TROY BALDERSON, Ohio
CYNTHIA AXNE, Iowa
XOCHITL TORRES SMALL, New Mexico

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi
                                     TROY BALDERSON, Ohio

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     4
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    14
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     3

                               Witnesses

Norton, Kevin D., Acting Chief, Natural Resources Conservation 
  Service, U.S. Department of Agriculture, Washington, D.C.......     5
    Prepared statement...........................................     7
    Submitted questions..........................................    57
Palmer, Tim, President, National Association of Conservation 
  Districts, Truro, IA...........................................    20
    Prepared statement...........................................    22
Patterson, Steve, Senior Vice President, Marketing, 
  Communications, and Government Affairs, Southern States 
  Cooperative, Henrico, VA.......................................    25
    Prepared statement...........................................    27
Waldrop, Ph.D., Karen A., Chief Conservation Officer, Ducks 
  Unlimited, Memphis, TN.........................................    29
    Prepared statement...........................................    31
Coppess, J.D., Jonathan W., Assistant Professor of Law and 
  Policy, Department of Agricultural and Consumer Economics, 
  University of Illinois, Urbana, IL.............................    34
    Prepared statement...........................................    37
    Submitted questions..........................................    73


       CHALLENGES AND SUCCESSES OF CONSERVATION PROGRAMS IN 2020

                              ----------                              


                       THURSDAY, OCTOBER 1, 2020

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
the Capitol Visitor Center Auditorium, Room CVC-200, Hon. 
Abigail Davis Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, Pingree, Axne, 
Peterson (ex officio), LaMalfa, Allen, and Balderson.
    Staff present: Prescott Martin III, Felix Muniz, Jr., Josh 
Maxwell, Ricki Schroeder, Patricia Straughn, John Konya, Dana 
Sandman, and Justina Graff.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing of the Subcommittee on Conservation 
and Forestry entitled, Challenges and Successes of Conservation 
Programs in 2020, will come to order. Welcome, and thank you 
for joining today's hearing with Mr. Kevin Norton, Acting Chief 
of the Natural Resources Conservation Service; Mr. Tim Palmer, 
President of the National Association of Conservation 
Districts; Mr. Steve Patterson, Senior Vice President of 
Corporate Marketing, Communications, and Government Affairs for 
Southern States Cooperative; Dr. Karen Waldrop, Chief 
Conservation Officer for Ducks Unlimited; and Mr. Jonathan 
Coppess, Assistant Professor at the Department of Agricultural 
and Consumer Economics at the University of Illinois. After 
brief remarks, the hearing will begin and will be open to 
questions. Members will be recognized in order of seniority, 
alternating between Majority and Minority Members. When you are 
recognized, you will be asked to unmute your microphone, and 
you will have 5 minutes to ask your questions or make a 
comment. In order to get to as many questions as possible, the 
timer will stay consistently visible on your screen.
    Good morning, and welcome to today's hearing on the 
challenges and successes of conservation programs in 2020. I 
hesitate to say this, but in these unprecedented times, it goes 
without saying that the way NRCS operates and serves 
stakeholders and landowners across the country looks very 
different these days. And perhaps more importantly, the 
realities facing farmers and producers as a result of the 
COVID-19 pandemic and subsequent economic downturn are about as 
different today as one could imagine, compared to when the 2018 
Farm Bill was passed.
    We are here today to examine the ways NRCS is adjusting to 
the new normal of serving customers and administering programs 
amid the pandemic. How producers and farmers are utilizing 
conservation during these duel crises, what challenges NRCS is 
experiencing, what successes the agency has had that we can 
build upon, and what role conservation could play in the 
upcoming, hopefully, economic recovery, and whether there are 
additional flexibilities that farmers and producers may need 
within the existing conservation programs to ensure that they 
are able to continue the important work of conservation during 
these uncertain times.
    Since the 1930s, NRCS has worked to provide producers with 
technical support and financial assistance to achieve the 
benefits of a healthy and productive landscape. In 2019 alone, 
NRCS and its partners worked with more than 500,000 producers 
on over 43 million acres to build conservation plans and 
implement practices that increase production, reduce input 
costs, conserve natural resources, and protect wildlife 
habitat. Together, these actions not only have a positive 
impact on farms, but also on their neighbors, their watersheds, 
and the entire U.S. population.
    In my home State of Virginia, NRCS works with 47 Soil and 
Water Conservation Districts and partners at the state and 
local levels to make sure Virginia's farmers and landowners 
have the assistance and resources they need to protect soil and 
water quality across our Commonwealth. Yet in central Virginia 
and across the country, the process of administering and 
delivering successful and meaningful conservation programs has 
grown increasingly complex over the years. For one, the forces 
acting on our soil and water and air are themselves becoming 
more extreme, and we see more frequent and intense impacts as a 
result of climate change, frequent storms, flooding across the 
Midwest, hurricanes in the Southeast, historic wildfires in 
West, and adding to this complex environment is the COVID-19 
public health crisis. In addition to its human toll, it has 
rippled through the agricultural sector as well.
    For these reasons, it is imperative that we take a hard 
look at the way we deliver our conservation programs so that we 
can make sure we are able to accomplish their important goals 
in light of the challenges that exist. We know that NRCS 
programs not only help producers adapt to climactic conditions, 
to protect food and fiber production, but can even help reverse 
the effects of climate change. We also know that conservation 
programs can assist communities in recovering from the economic 
shocks like the ones presented by COVID-19 by generating 
significant economic activity and supporting a variety of jobs 
in rural communities.
    It is worth noting that conservation spending, including 
implementation of practices, direct payments to farmers, 
administrative costs, results in an injection of dollars into 
local economies. For example, from 2014 to 2017, $2.6 billion 
was invested in the Conservation Technical Assistance Program. 
This investment generated an average of $4 billion in economic 
activity and supported 12,100 jobs each year.
    Throughout this hearing, I am eager to hear from our 
experts on conservation program delivery, especially in light 
of this rapidly evolving landscape. I am also interested in 
hearing how conservation can contribute to the well-being of 
farm operations and aid in COVID recovery. I also specifically 
would love to hear from our witnesses, their perspectives on 
the ability of NRCS field staff to service producers as the 
environmental landscape evolves, including updated staffing 
needs of the Department, efforts to attract qualified staff, 
and what personnel resources are required to optimize the 
ability of these critical programs to accomplish their next 
goals.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Good morning and welcome to today's hearing on the Challenges and 
Successes of Conservation Programs in 2020.
    I hesitate to say, ``in these unprecedented times,'' but it goes 
without saying that the ways NRCS operates and serves stakeholders and 
landowners across the country look different these days. Perhaps more 
importantly, the realities facing farmers and producers as a result of 
the COVID-19 pandemic and subsequent economic downturn are about as 
different today as one could imagine as compared to when the 2018 Farm 
Bill was passed. We're here today to examine the ways NRCS is adjusting 
to the new normal of serving customers and administering programs amid 
the pandemic, how producers and farmers are utilizing conservation 
during these dual crises, what challenges NRCS is experiencing, what 
successes the agency has had that we can build upon, what role 
conservation could play in the coming economic recovery, and whether 
there are additional flexibilities that farmers and producers may need 
within existing conservation programs to ensure that they are able to 
continue the important work of conservation during these uncertain 
times.
    Since the 1930s, NRCS has worked to provide producers with 
technical support and financial assistance to achieve the benefits of a 
healthy and productive landscape. In 2019 alone, NRCS and its partners 
worked with more than 500,000 producers on over 43 million acres to 
build conservation plans and implement practices that increase 
production, reduce input costs, conserve natural resources, and protect 
wildlife habitat. Together these actions not only have a positive 
impact on farms, but also on their neighbors, their watersheds, and the 
entire U.S. population.
    In my home state of Virginia, NRCS works with 47 Soil and Water 
Conservation Districts and partners at the state and local levels to 
make sure Virginia's farmers and landowners have the assistance and 
resources they need to protect soil and water quality across our state.
    Yet, in central Virginia and across the country, the process of 
administering and delivering successful and meaningful conservation 
programs has grown increasingly complex over the years. For one, the 
forces acting on our soil and water and air are themselves becoming 
more extreme. We are seeing more frequent and intense impacts as a 
result of climate change--including frequent storms and flooding across 
the Midwest, hurricanes in the Southeast, and historic wildfires in the 
West. Adding to this complex environment is the COVID-19 public health 
crisis which, in addition to its human toll, has rippled throughout the 
agricultural sector as well.
    For these reasons, it's imperative that we take a hard look at the 
ways we deliver our conservation programs, so that we can make sure 
we're still able to accomplish their important goals in light of the 
challenges that exist. We know that NRCS programs not only help 
producers adapt to climatic conditions to protect food and fiber 
production but can even help reverse the effects of climate change. We 
also know that conservation programs can assist communities in 
recovering from economic shocks like the one presented by COVID-19 by 
generating significant economic activity and supporting a variety of 
jobs in rural communities. It's worth noting that conservation 
spending, including implementation of practices, direct payments to 
farmers, and administrative costs, results in an injection of dollars 
into local economies. For example, from 2014 to 2017, $2.6 billion was 
invested in the Conservation Technical Assistance Program. This 
investment generated an average of $4 billion in economic activity and 
supported 12,100 jobs each year.
    Throughout this hearing today, I am eager to hear from our experts 
on conservation program delivery especially in light of this rapidly 
evolving landscape. I am also interested in hearing how conservation 
can contribute to the well-being of farm operations and aid in the 
COVID recovery.
    I also specifically want to hear our witness' perspectives on the 
ability of NRCS field staff to service producers as the environmental 
landscape evolves, including updated staffing needs of the Department, 
efforts to attract qualified staff, and what personnel resources are 
required to optimize the ability of these critical programs to 
accomplish their important goals.
    With that, I look to the Ranking Member, Mr. LaMalfa of California, 
for his comments.

    The Chair. With that, I look to the Ranking Member, Mr. 
LaMalfa of California, for his comments.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Good morning, and thank you, Chair Spanberger, 
for holding today's hearing to review the successes and 
challenges of the conservation programs in 2020.
    Of course, in January of this year, our Subcommittee heard 
from NRCS Chief Lohr and FSA Administrator Fordyce regarding 
the implementation of the conservation programs included in the 
2018 Farm Bill. Since that time, our country has been through--
and I don't have to tell you here today--an extended period 
with the COVID situation. While much was shut down, of course, 
farmers and ranchers continued to make sure that Americans 
still had access to the safest, most abundant, and most 
affordable food supply in the world. The season does not wait 
for the virus. You have to get it done.
    NRCS field offices also continue to work to serve their 
customers. Although there are some restrictions, NRCS employees 
have adapted and continued to administer these critical 
conservation programs.
    Almost 2 years ago, Congress passed the 2018 Farm Bill that 
protected mandatory funding in the conservation title. It 
increased funding for EQIP, which is known as the Environmental 
Quality Incentives Program, and ACEP, the Agriculture 
Conservation Easement Program, and provided a separate funding 
allocation for RCPP, the Regional Conservation Partnership 
Program. The 2014 Farm Bill made significant reforms like 
consolidating over 20 conservation programs into 13. The 2018 
Farm Bill built upon these successes by streamlining program 
administration to provide for better delivery.
    These changes were designed to improve access to 
conservation programs all across the country, and I am proud of 
the results so far we have seen, specifically in my home State 
of California. For example, the California Rice Commission was 
recently awarded nearly $5.5 million in RCPP funding to 
maximize water bird habitat on rice lands in California.
    So, I would like to congratulate Chief Kevin Norton on his 
role as Acting Chief of Natural Resources Conservation Service. 
I welcome him here today. Of course, he has a long history of 
service at NRCS, including as Louisiana State Conservationist, 
as a detailee to the Senate and House Agriculture Committees 
during the 2014 and 2018 Farm Bill, and most recently as 
Associate Chief of NRCS. Thanks for being here, sir.
    I also would like to thank our second panel of witnesses as 
they come up a bit later for being here. With the input and 
expertise of stakeholders like you, we have been able to 
improve conservation programs over the years so that they work 
better for our farmers and ranchers. I look forward to a 
productive discussion with both panels of witnesses to hear 
about their successes and challenges of the programs in 2020. I 
thank Chair Spanberger, and I will yield back.
    The Chair. The Chair would request that other Members 
submit their opening statements for the record so witnesses may 
begin their testimony and to ensure that there is ample time 
for questions.
    I would like to begin by first welcoming our first witness. 
Thank you for being here today, Chief Norton.
    Mr. Kevin Norton serves as Acting Chief for NRCS. He began 
his career with NRCS in 1981 as a ranger conservationist in 
Oklahoma, and has since served in a number of other roles 
within the agency, including as the NRCS State Conservationist 
for Louisiana, and most recently as the NRCS Associate Chief.
    We will now proceed to hearing your testimony. I thank you 
for being here today, sir. You will have 5 minutes, and when 1 
minute is left, the light will turn yellow, signaling that your 
time is close to expiring.
    Mr. Norton, please begin when you are ready.

 STATEMENT OF KEVIN D. NORTON, ACTING CHIEF, NATURAL RESOURCES 
             CONSERVATION SERVICE, WASHINGTON, D.C.

    Mr. Norton. Thank you, and good morning, Chair Spanberger, 
Ranking Member LaMalfa, Chairman Peterson, and Members of the 
Subcommittee that are joining us via the teleconferencing 
functionalities. Thank you for this opportunity. It is really a 
privilege to be before you today to discuss the challenges and 
successes of the Natural Resources Conservation Service and the 
delivery of our programs this past year.
    As you have said, it has been an unprecedented year with 
external influences applying unusual pressures on our staff, 
adjusting to some degree, and then the way we have operated at 
the field level. Our discussion today will highlight the 
resiliency and dedication of the NRCS team and our partners as 
we ensure service delivery to our customers.
    But, I want to start first by thanking and expressing a 
great appreciation to the farmers, ranchers, and foresters 
throughout this country who adopt voluntary conservation, a lot 
of times without cost-share or with cost-share financial 
assistance that you all provide to us through the farm bill, as 
they work to meet their needs and the needs of agriculture, 
forestry, and natural resources and provide a multitude of 
services to our great nation. As you said, Mr. LaMalfa, 
agriculture never stopped. We had to be there for them.
    It is noteworthy during this challenging year that we did 
complete 115,000 conservation plans with producers. We 
installed conservation measures on over 1 million acres of 
conservation practices, and this would not have happened 
without the dedicated staff, the work of our partners coming 
together and contributing to the collective efforts to service 
our customers and the natural resources.
    In identifying some challenges, I will share a few things 
with you. The pandemic obviously was the most important 
challenge impacting our agency today. However, at no time did 
the NRCS cease operations at any location in the United States. 
We were available by varying means to continue the field work. 
We abided by the protocols of social distancing and those kinds 
of things, and we were able to continue delivering the field 
work, applying the conservation measures on the field, and then 
also working to put that funding that you all provided to us 
into contracts via some very innovative-type things. And we 
have done that through opening our services by phone, 
connecting folks from the office call to their home phone, 
email, fax, and more importantly, bringing web services 
available for them to access our customers. We have extended 
the field office, our servicing points, to our employees' homes 
and into the homes of our customers, and with great success.
    By the time the year is--and I will tell you, when this all 
started, we really did have some concerns about our ability to 
continue to deliver these programs with all of the things that 
were happening, and the varying degree of local regulation, 
local influences on how we could move about and do things. The 
Department gave us latitude to still get into the field, to be 
there, and to be available, and by the time we closed out the 
year yesterday, we saw very little impact on the work that we 
needed to do throughout the year. So, it was quite a success.
    As you indicated, we talked a little bit at the last 
hearing, Chief Lohr talked about our staffing. Our collective 
efforts of priority hiring, using direct hire authority, it had 
a positive impact. I am pleased to report today while we are 
not yet at the goal that we had set for ourselves of 10,445 
positions by mid-year, we have had 2,900 new people join our 
agency. We have had attrition through separation, retirements, 
and those kinds of things, but we are very close to 9,400 
people, and that is at least 700 more than any time, any number 
that we have had in the past 2 years. We are on a positive 
trajectory. We are making inroads. We are beginning to see the 
staffing improve. The focus of all of these efforts are the 
field servicing points, those state offices down to the field 
offices where we interact and connect with our customers.
    Throughout this year, there have been many challenges, but 
there have been many successes. We talk about the impacts on 
the livestock industry with the pandemic and production supply 
problems. We have created a new CART system for our unified 
streamlined application evaluation process, and many 
achievements about conservation implementation where we are on 
pace with all the work that we had this last year.
    I will close with my comments and say when I reflect back 
on 2020 and the challenges that were laid out before us, it is 
only because of the resiliency of the entire NRCS team from the 
field level through to our national office, the adjustments 
that we made in being more flexible about our service and that 
NRCS and our partners that are helping us service the 
customers--that we have been able to achieve the 
accomplishments that we had this past year. We responded with 
all of this going on. We continued our response to the 
wildfires, the hurricanes, and the floods, the major impacts 
that happened. That work will continue. We don't solve those 
issues and address them overnight. We are still gathering 
information. We have completed delivery of our conservation 
programs, numerous initiatives. We established and stood up the 
Office of Urban Agriculture that was provided instruction in 
the farm bill, and we are continuing to lean forward in 
addressing emerging natural resource issues and needs.
    With that, I want to thank you for your continued support, 
your confidence, the authorities that you have given us through 
the farm bill and the financial assistance programs to continue 
to work with customers and address the natural resource issues 
of our nation.
    Thank you very much.
    [The prepared statement of Mr. Norton follows:]

Prepared Statement of Kevin D. Norton, Acting Chief, Natural Resources 
 Conservation Service, U.S. Department of Agriculture, Washington, D.C.
Introduction
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss the challenges and successes of the Natural Resources 
Conservation Service (NRCS) conservation programs. This has been an 
unprecedented year with external influences applying unusual pressures 
on our staffs and adjusting, to some degree, the way we operate at the 
field level. The information I will share with you today will show the 
resiliency and dedication of the entire NRCS team, from field 
technicians and District Conservationists all the way through our state 
and national leadership teams, to ensure services are delivered to our 
customers. I appreciate the ongoing support and leadership this 
Subcommittee has provided for voluntary, private lands conservation and 
the improvement of our soil, water, and other invaluable natural 
resources as embodied in the 2018 Farm Bill and within our other 
authorities.
    COVID-19 did have an impact on our operations. Our staffing levels 
have been impacted due to diminished ability to on-board employees and 
difficulty in completing relocations. We are working with the Farm 
Production and Conservation (FPAC) Business Center's hiring team and 
continue making strides to bring people on board. For example, the FPAC 
Business Center addressed issues we were having with fingerprinting 
requirements. They made adjustments that resulted in improved on-
boarding timeframes. Even with these difficulties, our efforts are 
having a positive impact. In the fourth quarter of FY 2020, we brought 
on board 639 employees. The total of new FY 2020 on-boarded employees 
to fill vacancies is 2,943, which is higher than those on-boarded to 
fill vacancies in FY 2019 by 1,331. This includes both permanent and 
nonpermanent on-board employees. This demonstrates that NRCS has 
overcome the impediments to on-boarding created by COVID-19.
    We also had to rethink our methods for training our staff and 
partners who help us deliver our programs. We have evaluated our 
training needs and identified those that can be offered virtually and 
those that must remain in-person trainings. Some of the in-person 
trainings had to be postponed until sometime in FY 2021.
    Although we are at varying phases of reopening, our field staff 
have continued servicing our customers. From the early stages of the 
pandemic, we instructed staff to continue servicing producers in the 
field while following social distancing requirements. Consequently, 
programs like the Environmental Quality Incentives Program and the 
Conservation Stewardship Program have seen little impact. A few 
challenges we experienced included:

  1.  Some impact in our easement programs due to courthouse closings 
            impeding records search requirements.

  2.  A delay in installing Soil Climate Analysis Network stations for 
            American Indian Tribes due to travel restrictions on 
            reservation lands. We'll be working with Tribes to get 
            these installed as soon as possible.

  3.  Collecting field data needed for our National Resources 
            Inventory. COVID-19 has made collecting field data 
            problematic. But we are working through these challenges to 
            maintain the accuracy and consistency of the data.

    NRCS does not have specific COVID authority, but we did see a need 
and moved to help producers who were adversely impacted by market chain 
disruptions and closed outlets. NRCS worked with the USDA-Animal and 
Plant Health Inspection Service researchers to offer assistance to 
impacted producers. We reached out to state producer organizations, 
national associations, and state agencies in calibrating our response 
to the needs of producers. For dairies who dumped excess milk, NRCS 
developed excess milk disposal guidance that outlined various 
approaches on how to safely dispose of milk. For livestock producers 
who had to depopulate inventory, NRCS developed guidance for disposal 
and offered assistance through the Environmental Quality Incentives 
Program (EQIP). Additionally, NRCS developed guidance for producers who 
were changing from a production diet to a maintenance diet. Through 
EQIP, over $500,000 were obligated in eight states to help producers 
deal with facility closure impacts on their operations.
    Though we had challenges, when I reflect back on FY 2020 I see 
significant results. The 2018 Farm Bill included numerous references 
for agency outcomes reporting related to our conservation programs and 
to streamlining programs. In response, NRCS embarked on a historic 
change to amalgamate numerous business practices into one program-
neutral conservation planning process through an information technology 
application known as Conservation Assessment and Ranking Tool (CART). 
CART established a common quantitative framework for all of 
conservation planning and program delivery activities. This IT 
application was deployed in FY 2020 and will revolutionize the way NRCS 
adopts and deploys technology to its 2,400+ field offices and enhance 
our ability to report our outcomes.
    We also, in 2018, established an Outcomes Team that is working 
closely with our Conservation Effects Assessment Project modelers and 
other staff to develop outcomes related materials to be shared in an 
interactive environment with the public. This year, we instituted a 
monthly webinar series that has shared outcomes information on various 
topics, including results from various Working Lands for Wildlife 
initiatives, measuring and understanding the effects of conservation 
within watersheds, results from tillage management and structural 
conservation practices effects and trends, and data available in the 
Natural Resources Inventory. The meetings are well attended and will be 
continuing throughout the year.
    You also asked that we provide more useful data to the public that 
resulted from various Conservation Innovation Grants (CIGs) that were 
awarded either nationally or at the state level. Work on this database 
is on-going and we anticipate releasing information later in FY 2021.
    Another significant achievement was the update of our conservation 
practice standards. We evaluated and updated our conservation practice 
standards within 2 years of farm bill enactment. These reviews 
incorporated public feedback along the entire process, including 
initial feedback on practices needing to be updated followed by 
specific feedback requests for each specific practice, and, once 
updates were incorporated, the public had an opportunity to provide 
feedback on the accepted updates. We released 47 conservation practice 
standard updates; 25 standards were updated and are being prepared for 
release; 23 standards have been reviewed and are ready for public 
review with a Federal Register posting; and 14 are still under internal 
review.
    Further, we established the Office of Urban Agriculture and 
Innovative Production through collaboration with all USDA agencies 
whose missions included urban agriculture. Through this office we 
entered into grant agreements with those seeking to improve 
opportunities for urban agriculturalists. Interest was tremendous. 
Under the farm bill authorities, we received more than 500 proposals 
for the $4 million funding provided for this purpose. Additionally, we 
are working with the Farm Service Agency to initiate the process of 
establishing five of the required ten pilot urban county committees; 
and are working through the process to establish the Secretary's Urban 
Agriculture Advisory Committee.
    Opportunities continue to grow with the Joint Chiefs' Restoration 
Initiative where we are working in concert with the USDA Forest Service 
(USFS) to address resource concerns where private lands join National 
Forest System lands. This initiative exemplifies the USDA shared 
stewardship model of bringing together Federal, state, and local 
governments with Tribes, community groups, and private landowners to 
achieve landscape-scale conservation outcomes across different land 
ownerships. Over the last 7 years, USDA (NRCS and USFS) has invested 
more than $225 million in 85 projects across 40 states and Puerto Rico. 
A record 34 proposals were submitted in FY 2020. Community interest has 
also expanded as people become more aware of this collaborative means 
to fund conservation work addressing wildfire risk reduction, water 
quality and supply protection, and at-risk wildlife habitat 
improvements.
    Another highlight is our strategic effort to increase the adoption 
of soil health management systems across the landscape. Every state now 
has a Soil Health Strategy focused on the goal of getting soil health 
management systems implemented. national and state strategic efforts 
include enhanced outreach and training across the agriculture community 
and within our staffs so they can provide better assistance to our 
customers. The agency launched a soil health management systems Key 
Performance Indicator in 2020 that will track cropland with multiple 
conservation practices installed representing a soil health management 
system. In FY 2019, a baseline of 209,000 acres was established.
    We responded to emergencies, including wildfire, hurricane, and 
flooding disasters. Our efforts in this area seem to be growing. In FY 
2020, we provided $12 million for flooding in Michigan and $7 million 
for tropical storm Cristobal. We are currently evaluating funding needs 
for other natural disasters. For Hurricane Isaias, we are evaluating 
damages in the southeastern states to determine if there is a need for 
Emergency Watershed Protection (EWP) Program-Recovery disaster 
assistance. For Hurricane Laura, we received an EWP assistance request 
from the Orange County, Texas, Drainage District and anticipate another 
request will come from Shelby County. For western wildfires, NRCS 
offices throughout the region are working with local communities to 
assess damages as conditions allow. We are also monitoring Hurricane 
Sally in the Gulf Coast to determine whether any assistance is needed 
for impacted states.
    Other accomplishments in FY 2020 include:

  <bullet> Interim Final Rules for all major farm bill programs were 
        published, public comments were evaluated, and final rules for 
        each program have been developed and are in various stages of 
        clearance;

  <bullet> We provided transparency and more clarity to the 
        conservation compliance provisions with our recently published 
        final rule following public comment evaluation on the interim 
        final rule that was published in December of 2018;

  <bullet> Our Plant Materials Centers are developing vegetative 
        solutions to protect coastal and estuarine areas that are 
        feeling the effects of rising sea levels and increased storm 
        intensity;

  <bullet> We have offered funding opportunities in the amount of $345 
        million for those who want to partner with us to address 
        natural resource concerns through the Regional Conservation 
        Partnership Program (RCPP), as well as funding opportunities 
        for feral swine eradication projects ($11.9 million), CIGs ($37 
        million awarded in FY 2020 and $40 million subsequently 
        announced as available for projects to be selected in FY 2021, 
        both on-farm and classic), Wetland Mitigation Banking Program 
        ($5 million), as well as offering opportunities through the 
        Working Lands for Wildlife Initiatives[;]

  <bullet> Entered into agreements with other Federal Agencies where it 
        benefitted the agriculture community and our other customers, 
        including with the Federal Emergency Management Agency and the 
        U.S. Army Corps of Engineers[; and]

  <bullet> NRCS has addressed water quality throughout the history of 
        the agency, but the 2018 Farm Bill made source water protection 
        and collaboration with partners in the drinking water sector an 
        explicit priority of NRCS conservation programs. NRCS State 
        Conservationists, in collaboration with partners, have 
        identified high priority areas for source water protection in 
        each state, and at least 10% of most farm bill conservation 
        program funding is dedicated to protecting source water.

    Although we do not yet have final FY 2020 enrollment information, 
we have provided preliminary information so you can see the volume of 
work our staff completed during this complicated year:
    Environmental Quality Incentives Program (EQIP): Over 30,000 
contracts providing nearly $1.1 billion on 9.6 million acres.
    Conservation Stewardship Program (CSP): In addition to the new 
enrollments described below, NRCS also renewed almost 1,000 contracts 
on 2.5 million acres.

          CSP Classic: Over 4,248 contracts providing over $260 million 
        on 5.3 million acres
          CSP Grassland Conservation Initiative: more than 5,000 
        contracts on nearly 400,000 acres providing $35 million.

    Regional Conservation Partnership Program (RCPP): More than 1,300 
contracts on 430,000 acres.
    An additional highlight for FY 2020 the U.S. Fish and Wildlife 
Service decided not to list:

  <bullet> the bi-state population of greater sage-grouse, (CA and NV) 
        in part due to over 17,000 acres conserved through NRCS 
        programs; and

  <bullet> the arctic grayling Upper Missouri River population (MT and 
        WY). Critical conservation measures implemented by partners, 
        including NRCS clients, addressed threats and increased the 
        number of breeding fish.
    Other notable results of conservation programs include delistings 
of stream segments, which have been associated with National Water 
Quality Initiatives watersheds, as reported by the EPA this year. These 
include Bayou Grand Marais in Louisiana (total dissolved solids) and 
Rio Grande de Anasco (dissolved oxygen and turbidity) in Puerto Rico.
    Though we made significant accomplishments in FY 2020, including 
CART described above which will improve the agency's ability to assess 
performance and report outcomes, there is more to be done. NRCS will 
soon be rolling out:

  <bullet> the opportunity for producers to enter into incentive 
        contracts under EQIP[;]

  <bullet> the soil remediation provision in the farm bill will begin 
        implementation in October 2020;

  <bullet> the Comprehensive Conservation Plans in the CSP as well as 
        the Conservation Planning Assessment in EQIP; and

  <bullet> developing capability for applications and contracts with 
        individual producers through RCPP.
Conclusion
    I am excited about the authorities, responsibilities, and 
opportunities you provided NRCS for delivering private lands 
conservation programs to the farms, ranches and forestland of our great 
country. We embrace the work with passion and will continue striving to 
deliver these programs to the benefit of our nation's natural 
resources. I thank you for letting me share our progress and successes 
with assisting private landowners, producers, and others with 
implementing the agencies program authorities.

    The Chair. Thank you very much for your testimony, Chief 
Lohr--excuse me, Chief Norton. Old habits die hard. I 
apologize.
    At this time, Members will be recognized for questions in 
order of seniority, alternating between Majority and Minority 
Members. You will be recognized for 5 minutes each in order to 
allow us to get to as many questions as possible. Please keep 
your microphones muted until you are recognized in order to 
minimize background noise. When 1 minute is left, the light 
will turn yellow, signaling time is close to expiring.
    I will first recognize myself for 5 minutes.
    Chief Norton, I want to first congratulate and thank you 
for all of the work that your agency has done. Those staffing 
numbers, I know, in prior months, on this Committee, we had 
concerns about staffing levels within NRCS, and certainly, 
hiring during a global pandemic is an impressive feat. I am 
pleased to hear that you all are on a positive trajectory.
    I would like to get the conversation started within a focus 
of conservation more broadly. It is essential to helping 
farmers build resiliency, boost their bottom line, improve 
production, stimulate local economies. We know these things to 
be true, but certainly during the COVID-19 crisis, farmers are 
facing such significant challenges.
    What do you see the role for conservation programs as part 
of how farmers can respond to and recover from the COVID-19 
crisis? Are there any particular opportunities that 
conservation programs could present as farmers are continuing 
to plan for the future amid our current reality?
    Mr. Norton. Thank you for that question.
    I really believe and think that we have demonstrated that 
we will be able to continue delivery of all of our conservation 
portfolio even through things like that. We have no idea, as we 
look across the country, of when all of our offices will be 
back to full open status. But I see the needs of those 
producers out there have not changed. They are making 
applications for the program. It is about them achieving 
resource sustainability, doing adjustments to their operation, 
and us being able to continue to do that, because that is their 
livelihood. In many cases, it is their generational farm. And I 
see not a lot of difference, from our perspective, other than 
the way we service people. And it has changed. We were very 
much a face-to-face engaging agency, and it is remarkable how 
successful we have been in using the technologies around us to 
engage with those producers so that they can have those 
contracts, they can get those conservation plans, and they can 
get the conservation work implemented.
    I see continuing this path and continuing to innovate 
around the way we engage and have opportunities for them, but 
we want to be there for them for the conservation work they 
need to do on their operations.
    The Chair. And you talked about the adjustments that NRCS 
has made, and certainly the adjustments that our producers are 
making. Are there additional flexibilities that we, Members of 
Congress on this Subcommittee, flexibilities that we should 
consider for conservation programs that would help maintain 
farmer engagement and help reduce uncertainty during this 
challenging time?
    Mr. Norton. We believe that, at this point, in this last 
farm bill, you provided us a tremendous amount of flexibility. 
We need to continue that. The idea that conservation--well, 
just looking at the Chair and the Ranking Member, the 
conservation needs of your states couldn't be any different. 
Water quality is water quality, but how you deal with that in 
Virginia versus California, tremendously different. Having 
those flexibilities so that we can shape that conservation 
program delivery to what is needed is the thing that we need to 
continue. We do not need to be unduly influenced of setting 
priorities at one level that doesn't really work across the 
landscape. And the authorities that you have given us, the 
flexibility allows us with our State Conservationists and the 
state technical committee, the partners there within the state, 
to really address those conservation issues as they reside 
locally within that state.
    I think it is a continuation of that locally-led effort 
that is local even at the county level, but at the state level, 
gives us the flexibility to deliver the programs that best 
address the issues and the needs there in the state.
    The Chair. Well, I thank you for the kind words about the 
2018 Farm Bill, and I give full credit to my colleagues up 
here, because that predates me. Thank you to the Chairman, 
Ranking Member Conaway, and Ranking Member LaMalfa for your 
good work on that.
    To just close out in the last remaining seconds that I 
have, I was wondering if you could just speak to very, very 
broadly, if you were making a pitch to some of our colleagues 
who do not serve on the Agriculture Committee who may not have 
exposure to these programs about what they could mean in 
agricultural communities across the country as we are 
rebuilding our economy out of COVID, how do you see these 
programs really being part of that continued economic 
engagement and part of the hard work of recovering our economy?
    Mr. Norton. Yes. We are a nation that produces. We feed our 
people. We feed the world. And we do it in a very sustainable 
fashion. I grew up in Oklahoma. I grew up with stories of the 
Dust Bowl, worst environmental catastrophe we ever had. We are 
producing agriculture efficiently, effectively, and with good 
environmental practices, stewardship. And those things 
continue. It keeps moving, as has been discussed earlier in 
your statements. Things move. We need to help. We need to be 
there with these programs, these dollars, to help our 
conservation, our farmers, our ranchers, our forestland owners, 
those people on the ground. We need to help them move 
conservation and adapt and adjust, because what we do is about 
environmental sustainability, economic sustainability, but 
sustainability of society. And we have to help them move, and 
we have to help them continue to be productive because the 
benefits to them applying proper conservation extends way 
beyond the farm. It expands to the watershed that they are 
operating in, the community that they live in, as you shared 
about the rolling out of the money and how it feeds across. But 
it also is the health and the well-being of our nation. The 
security of our nation is vested in the conservation work we 
do. We cannot feed this world on depleted natural resources, 
and we have a solid resource base. We need to continue to 
sustain that and work in partnership with the people on the 
ground that have stewardship of those resources to be 
successful.
    The Chair. Thank you very much.
    I now recognize the gentleman from California for 5 
minutes.
    Mr. LaMalfa. Thank you.
    We have heard from the Secretary numerous times that 
improving and having great customer service is a priority for 
the Department, and so we are wondering in your department how 
you have a workforce analysis that was done for NRCS, and the 
technical capacity is something that is being looked at. How is 
that going versus the capacity versus the need, going forward? 
And then, do you have the people you need to deliver these 
conservation programs at the same time that you are working on 
the technical capacity that agriculture needs these days?
    Mr. Norton. That is a very good question.
    As we shared, and as you all discussed in the last hearing, 
we are not at a staffing level that we need to be by any of 
those tools that we are using, the optimal productive office 
and the cycle time study. We do have the authority and the 
opportunity to grow to 11,011 people. Whether that is enough 
when we get there--we need to get there first. We know we are 
understaffed, but we are gaining staff.
    Mr. LaMalfa. Eleven thousand?
    Mr. Norton. Eleven thousand eleven, yes.
    Mr. LaMalfa. Precisely 11,011.
    Mr. Norton. Well, that is what the models kick out, so we 
just go with it.
    Mr. LaMalfa. Well, it is precise.
    Mr. Norton. But we are on our trajectory to get there. 
Actually, COVID probably slowed us down.
    Mr. LaMalfa. No doubt.
    Mr. Norton. The challenge of getting people hired; but sir, 
I think we are on the right path. We have made gains this year. 
We have improvement we can still do that we are getting a lot 
of support from the Farm Production and Conservation Business 
Center.
    You all have given us a lot of resources with the farm 
bill, both financial and technical assistance resources. The 
technical assistance is what we staff with, what we work with 
partners to get the delivery out on to the ground. We are 
investing those strategically and as efficiently as possible 
while we are still trying to get the financial assistance 
dollars out.
    Right now, I think we are on our way, yes, sir.
    Mr. LaMalfa. Yes. Well, you are having successes out there, 
even with the difficulty of what we are going through this 
year.
    When I talked with the California Rice people here and 
ongoing, and they want me to let you know, as I am, that they 
are very thankful for the help with NRCS for funding, et 
cetera, for the salmon rearing project they have going on a 
couple hundred acres of riceland adjacent to the Sacramento 
River. This is where small salmon are introduced into the area 
and feed up on all those great nutrients that are in the rice 
fields, and you get nice big fat salmon coming out of there and 
helping to get the population up in the Sacramento River 
system, like everybody wants to. So, that has been a very 
exciting partnership and avenue to see how that will go. They 
will be looking for expansion of that and I think there are 
more growers ready to line up and be part of that. So, that is 
a big thumbs up on that.
    I am going to wear our Chair out on this forestry question 
here. Obviously it is a huge issue in the West, and in 
California, there are more fires than you can count right now 
in my home state, and even in my district. What is NRCS's work 
to help with landowners reduce fire risk? Again, we are having 
difficulty with forester capacity, boots-on-the-ground, so to 
speak, and some states have fewer than others. What can NRCS do 
to help address this issue, increasing the latitude a little 
bit of your scope there to be helpful in that department, since 
it really does seem to be an emergency? And then have that 
affect possible funding for landowners to put the practices in 
place that would help for reducing wildfire risk on their lands 
and in maybe surrounding government lands, too?
    Mr. Norton. Thank you. Again, back to the farm bill and our 
authorities, beginning in 2014, we began to get more 
flexibility when working on forestland. A lot of the 
limitations were taken off. We do work with private forestland. 
That is where we are focused, all of our work on private 
forestland. We have a lot more flexibility in working with 
those folks that have forestland.
    Mr. LaMalfa. Are there any barriers we need to help you 
with, that you know of? Anything law-wise or rule-wise that is 
getting in the way from going farther?
    Mr. Norton. I think we are in a good place. It is about 
local priorities. We are working with the Forest Service on 
this fire shed, wildfire risk reduction coming into partnership 
with them. We saw a success in one of the fires a couple of 
years ago, 2018, where they used the properties that we had 
actually done, the forest stewardship on. That was a place that 
they went to put the preventive measures to stop the fire from 
spreading.
    We have plenty of authority. It certainly is a matter of 
locally the priorities around funding and whether we are 
working on forestland, rice production, those kinds of things, 
but we have a lot of tools to work with those folks and 
continue to work on forest stewardship level, forest health 
activities that would create the opportunity for less, the 
fires are going to happen whenever the conditions are right, 
but have a better chance of addressing the fire because you are 
working with a healthy forest and a diverse vegetation.
    Mr. LaMalfa. It comes back to do you have the personnel and 
the funding to get after all these, right?
    Mr. Norton. Yes, sir, and to your point, in this whole 
effort of hiring, we are looking at picking up additional 
forestry staff for our people. That is, again, about the State 
Conservationists making a decision on what they need. But we 
engage directly with state and private forestry interests for 
technical service assistance and have agreements that are 
complementing our service and filling gaps where we are absent. 
We do have other avenues that we work with other partners to 
get forestry assistance where we don't have the trained staff.
    Mr. LaMalfa. Great. Thank you, Chief Norton.
    I better yield back. Thank you, ma'am.
    The Chair. I now recognize the Chairman of the full 
Agriculture Committee, Chairman Peterson, for 5 minutes.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. I thank the gentlelady. I will be brief, and 
I am going to have to bug out because I have other commitments 
I have to take care of.
    I don't know. I haven't really thought this through, but 
the last month or so, I have been confronted by people that 
have complained that they are having difficulty getting into 
the CSP program. Some complaints about the nature of the 
program not fitting their situation. And also, it seems like 
some people are saying that there are not resources to do or 
for them to be able to--they won't even take their application, 
it sounded like. So, is that going on? This is kind of 
anecdotal, but I mean, are you hearing those kinds of things, 
and is it something that is on your radar screen and you are 
doing anything about?
    Mr. Norton. Sir, I can't speak specifically to that, but I 
can speak to one thing you said. If we have offices not taking 
an application, I need to know where they are at and who is not 
doing it. All of our programs are open to accept applications 
on a continuous basis. We do evaluation cycles, so if they are 
putting in an application after the evaluation cycle, they will 
have to wait until the next time. But we are limited to an 
appropriation amount relative to the number of contracts we can 
get to. The eligibility criteria did not adjust significantly, 
so it may be a factor of demand and just the amount of 
resources we have, and that they are----
    Mr. Peterson. So, that is kind of a state-by-state thing, 
isn't it?
    Mr. Norton. Yes.
    Mr. Peterson. The state makes priorities. It sounded like 
some of these folks were discouraging them from applying 
because they didn't think they would be successful, so I don't 
know.
    Mr. Norton. Just let me know, sir, because we should not--
--
    Mr. Peterson. In the future when I hear that, I am going to 
pin them down and find out where they applied and what the 
situation is.
    You revised the CSP two or three times, and the last time, 
it was a couple of years ago, you came up with a new process, 
as I understand it. And do you think that has improved the 
situation since that has been put in place, or do you have any 
feedback on that?
    Mr. Norton. Yes. We had the conservation measurement tool 
that was developed out of the 2008 Farm Bill, then we had the 
Conservation Activity Evaluation Tool (CAET) that came out of 
the 2014 Farm Bill. Now we have transitioned to the 
Conservation Assessment Ranking Tool, CART, that was 
demonstrated to you. That has become, in this effort of 
streamlining, reducing confusion, not having completely 
different approaches when somebody begins to work with us. This 
is a streamlined process so that they are all evaluated in a 
very common flow, and if CSP is the best place for them, we 
take them that way. If it is EQIP, they can go without having 
to come in and file a completely different application.
    We are doing that, but still the priorities around CSP have 
not changed significantly. We are using a different tool, but 
the program has taken it to the same, hopefully, end goal that 
is authorized. Some of this may be--well, one, again, is back 
to our folks discouraging people. We shouldn't be doing that. 
We should take the application. We should go in to the CART 
tool. We should work with them about their goals, their 
objectives, what their issues are, what they plan to do, and 
give them honest feedback about where they are at. And then 
from that, they can make further decisions about whether they 
want to continue to make some adjustments so they are better 
eligible for CSP in the future, or whether they want to go to 
EQIP for a while and then come back and be very competitive to 
CSP.
    That is the functionality we have so that we can help 
people move forward in the right path. It has been a struggle 
for our field offices. It is a big change, but we got there. At 
the end of the day, we got it done.
    Mr. Peterson. Do you survey people that have been through 
the process, producers that have gone in and applied for CSP 
and been successful or unsuccessful? Are any of those surveyed? 
Is there any feedback given to you?
    Mr. Norton. I don't have any right now. We are in the 
process of a broader customer service survey effort. It has not 
concluded yet. We don't expect a report until November. We are 
looking at those kinds of things. We do work through this with 
the state technical committee, which is a very broad 
representation of organizations. We welcome feedback and 
discussion at the state level on those things, but I have no 
personal feedback. It is really all anecdotal, just as you 
described.
    Mr. Peterson. Thank you very much, and I apologize having 
to bug out, but I appreciate you being here today.
    I yield back.
    The Chair. I now recognize the gentleman from Ohio for 5 
minutes.
    Mr. Balderson. Thank you, Madam Chair. Thank you, Mr. 
Norton, for being here today, this morning, I should say.
    I will just ask one brief question of the Ranking Member as 
my big top question about the employee issue. But in your 
testimony, you tell us how 2021 will be an improvement compared 
to 2020. Have you crafted a plan to start the year strong?
    Mr. Norton. I am sorry, could you repeat that?
    Mr. Balderson. Have you crafted the year for 2021 strong 
and speaking optimistically? I mean, what can you expect to see 
this time next year?
    Mr. Norton. I believe we have. Certainly, our objective had 
been to have everything ready to deploy today. We are still 
getting some software developed and things like that, but we 
have a strong position to start where our folks can begin to 
engage in program delivery earlier than they typically do.
    We are going in strong. We believe that all of the things 
that we have gone through this year have done nothing but make 
us better and stronger as we address 2021, and we don't have as 
much learning around our software, our tools, our evaluation 
process. The programs are now fairly stable, and we want them 
to stay stable through the balance of the farm bill.
    Sir, I believe we have not yet got all the people we need 
in Ohio or in any other location around the country, but we are 
on the upward trajectory with that. I feel pretty good. We are 
maintaining a lot of the initiatives that we had in place. I 
know for Ohio, Lake Erie is a focal point. We are not pulling 
back at all from that effort. Our State Conservationist is 
there working with the state and folks, and we are leaning into 
that effort.
    I feel like we are going in strong. I am pretty optimistic 
about this year.
    Mr. Balderson. Okay. Well, thank you very much, and Madam 
Chair, I yield back my remaining time.
    The Chair. Thank you very much.
    I now recognize the gentlewoman from Maine for 5 minutes.
    Ms. Pingree. Thank you, Madam Chair. Here is hoping the 
sound works today, you can hear me.
    The Chair. We can hear you.
    Ms. Pingree. Great.
    Thank you, Chief Norton, for being with us today, and to 
the Committee for holding this hearing.
    I want to raise an issue I have heard about in Maine 
regarding the RCPP Program. This year's effort supports new 
implementation of guidance on forest eligibility that appears 
to significantly restrict the type of forestlands that can 
qualify for the program. As you can imagine, this has generated 
a great deal of confusion and concern among more applicants and 
existing RCPP projects, including a project that we have in the 
Sebago Lake Watershed in my district, which is the watershed 
that provides drinking water for our largest city. I am 
concerned that the new restrictions could limit easement 
enrollments and restoration activities performed on small, 
family-owned forests, which are a substantial share of the 
forestland in Maine.
    Could you explain to me how the Department is interpreting 
non-industrial private forestland?
    Mr. Norton. Yes, thank you. There has been a lot of 
engagement with us this past 2 weeks around the impacts of the 
sentence that we tacked on to the definition of non-industrial 
private forestland, more around the commercial side of things.
    In the farm bill, you all did very well in defining non-
industrial private forestland, so we have that definition. In 
2019, when we did the APF for RCPP, we received feedback that 
we needed to be more clear about what was not non-industrial 
private forestland, and so that is where we got ourselves a 
little jammed up here was trying to really say all of this 
forestland is private, what is non-industrial and what is 
industrial. And what we have determined that we are going to do 
is we are going to pull back that sentence. We will reissue the 
APF and we will extend the period of application. At this 
point, we are believing November 30th, but that is our plan at 
this point. The one thing that we are still struggling with is 
the discussion about how do you define industrial private 
forestland, because the whole conservation title is really 
built about serving family forests, not the vertical corporate 
forest interest or their subsidiaries, or these larger 150, 
200,000 acre operations that are pulled together by multiple 
investments and those kinds of things. We don't really know how 
we really need to describe that and make sure that the face of 
RCPP are the things that you all have wanted us to do with the 
farm bill as we understand them, and we don't move off into 
these, $300 million for conservation going off target to the 
more non-title XII type farm bill interests.
    Any feedback that you all could give us along that line 
would be helpful, but we are trying to find a way to be sure 
that we stay true to the target audience of the conservation 
title, which is America's agriculture producers and smaller 
forestland owners around family interests. They can be 
corporations. We are not trying to stop any of that, but not do 
the larger business interest type things.
    Ms. Pingree. Great. That is very helpful, and I certainly 
can supply more info about the situation in Maine, because we 
are clear about more industrial forest, the paper company-owned 
lands. There are a variety of things that are very different 
than small family holdings that are managed for commercial use 
to keep the forest healthy, but certainly not big multi-
national corporations and finding that balance. We will follow 
up and send you a little more information.
    I am about out of time, but let me ask you just quickly: 
The 2018 Farm Bill had some new On-Farm Conservation Innovation 
Trials to test some of the innovative approaches to 
conservation on agricultural land, and I am interested in the 
part focused specifically on soil health. The agency just 
announced a new round of awards earlier this week, and we may 
run out of time, but could you give me a little bit of a status 
update and how you plan to use the information collected 
through that program and for those trials?
    Mr. Norton. Yes, $25 million total in that authority of on-
farm trials. We did our first grants last year. The agreements 
were done by the end of the year, so this is their first year 
of implementation. We have no results yet coming back on any of 
those. We just announced our new suite, really, a lot of 
interest, good response. We have about $10 million that is 
focused on the soil health issue where we--two things: The 
first is on-farm demonstration trials is for it to be 
demonstration. People in the field can see it. Their neighbors, 
they can actually show, tell, and from a farmer's perspective, 
rancher's perspective, they can share what they have learned, 
their journey through this effort. But then we are gathering 
data and we have currently awarded a small contract to build an 
interactive website that will actually make this available and 
serve up in a very user-friendly fashion for the broader 
agriculture population to look at what is going on in all of 
our Conservation Innovation Grants and these on-farm trials, 
and try to map their paths to success if they want to go down 
that journey.
    Ms. Pingree. Great. That is wonderful to hear, and I yield 
back my time. Thank you, Madam Chair.
    The Chair. Thank you.
    Before we close out the first panel--again, Chief Norton, I 
thank you for being here--I am going to yield an additional 5 
minutes to Ranking Member LaMalfa for any additional questions 
he may have.
    Mr. LaMalfa. Thank you again. I will try and make it snappy 
here.
    I just wanted to follow up on EQIP and the success we have 
had in that. In the 2018 Farm Bill, it created a new authority 
known as Conservation Innovation Incentive Payments. It 
simplified part of the streamlining that we have seen that came 
with the bill. It is intended to target natural resource 
concerns in specific regions of a state. We have had a lot of 
inquiries from constituents on how this is important, how they 
can provide input on the resource concerns and the practices 
that should be applied and would be most helpful. Nobody knows 
better than the people that live on and run those lands, 
whether it is farming or forests or firefighting, et cetera.
    So, on this, can you provide any ideas or guidance on how 
to best provide for the locally-led input for these practices 
on the particular resource concerns? Because again, it would 
probably be very valuable input on having an effective program.
    Mr. Norton. Yes, yes. The process, as rightfully it should 
have been described, is a state-led process. Individual 
producers, if they have things that they would like to see as 
priorities, should communicate directly with the State 
Conservationist. They should infuse those into the system. They 
can go to their local district conservationist or they can send 
a letter directly to the State Conservationist and say I would 
like to see these priorities for incentive contracts. If they 
are members of producer organizations or interests that are 
reflected on the state technical committee, they need to engage 
there. It could be a state forestry association, it could be 
California Rice. All of those folks have seats at the state 
technical committee. We are requiring our State 
Conservationists to review and seek input from their state 
technical committee, which is that very large swath that 
includes universities, non-governmental organizations, state 
agencies, and local conservation districts, gather it up there 
and set their priorities.
    So, there is an opportunity there for those to be infused 
in it. Now is the time. Do not wait. Now is the time. You can 
always share information with us about better ways to do 
conservation. So, now is the time to do it. We do plan, our 
work right now is to have that component of EQIP operational in 
the first quarter of calendar year 2021.
    Mr. LaMalfa. Okay.
    Mr. Norton. We will have it running this fiscal year, but 
we are not going to be able to get it out as an advertised 
enrollment option here in the first quarter.
    Mr. LaMalfa. We can expect then that D.C. is going to be 
pretty deferential to the state level once they have had this 
back and forth, this input with each other at the state level? 
D.C. is more likely to bless what the state says and not----
    Mr. Norton. Yes, sir.
    Mr. LaMalfa. Yes.
    Mr. Norton. We are going to put out parameters and we are 
working on that policy. We expect the final rule to be out in 
the next several weeks, and it will be clear about the 
regulation around this incentive payment option. We will have 
some parameters. Yes, there is a range of things that could 
happen, and then they can pick the practices and then they will 
also be a part of constructing the payment rate that would be 
associated with that practice, and whether it is a 5 year 
payment, 10 year payment, or some increment in between.
    We talk about forest stewardship, which is important to 
you. You can enroll a piece of ground, a forest piece of ground 
in this program and only do certain practices like once every 3 
years. You wouldn't make a payment every year, but you could do 
a long-term contract with the authority and actually have a 
schedule so that if they need to do something once every 3 
years, a prescribed burn or something like that, it can be in 
the contract as an incentive payment. But we can also do annual 
payments for other things.
    Mr. LaMalfa. Yes, whatever makes sense in the situation.
    Mr. Norton. Right.
    Mr. LaMalfa. All right. Thank you for that, Chief Norton, 
and I will yield back. Thank you, Madam Chair.
    The Chair. Thank you so much.
    Well, Chief Norton, thank you so much for being here today. 
Thank you for spending the morning with us, answering our 
questions, and again, we appreciate all your work as you 
continue to settle into the job, particularly during this 
challenging time. Thank you for your time, and we look forward 
to continued conversations with you.
    Mr. Norton. Thank you very much.
    The Chair. Thank you.
    I would now like to welcome our second panel of witnesses. 
Thank you for being here today.
    I recognize the gentlewoman from Iowa, Representative Axne, 
to introduce our first witness, Mr. Palmer.
    Mrs. Axne. Thank you, Chair Spanberger. It is my honor and 
privilege, of course, to introduce Tim Palmer, a constituent of 
mine from Madison County, and President of the National 
Association of Conservation Districts.
    Tim operates a 1,200 acre row crop and cow/calf operation, 
and he served on the Madison County Soil and Water Conservation 
District Board since 2003. In addition, he was appointed to the 
Iowa State Soil and Water Conservation Committee from 2012 to 
2014, and Tim has been a vocal leader for Iowa producers and 
has extensive knowledge of conservation practices.
    Tim, I believe the last time I saw you was an event with 
Under Secretary Northey last August in Des Moines, if I am 
correct. It is great to see you now before the Committee, and I 
so look forward to our discussion. Thank you so much for 
joining us. We appreciate it.
    Mr. Palmer. Thank you so much for the warm welcome.
    The Chair. Our second witness I have the honor of 
introducing, Mr. Steve Patterson.
    I am happy to welcome Mr. Patterson because he is a 
constituent of Virginia's 7th District. Mr. Patterson has 
served as a Senior Vice President of Marketing Communications 
and Government Affairs at Southern States Cooperative since 
2001. His experience includes 35 years in business and 
agronomy, and he has earned numerous certifications in 
agriculture, including certified crop advisor and professional 
agronomist, as well as nutrient management consultant. Mr. 
Patterson, thank you for joining us here today. We are pleased 
to have you.
    Our third witness is Dr. Karen Waldrop. Dr. Karen Waldrop 
serves as Chief Conservation Officer for Ducks Unlimited, 
Incorporated, and operates as a strategic leader and member of 
DU's executive leadership team. Dr. Waldrop received her Ph.D. 
in wildlife biology and forest resources, from Clemson 
University, and both her M.S. in wildlife biology and forest 
resources and B.S. in forest resources from the University of 
Georgia. Prior to joining DU, Dr. Waldrop served as the Deputy 
Commissioner for the Kentucky Department of Fish and Wildlife 
Resources.
    Our fourth witness is Mr. Jonathan Coppess. Mr. Coppess is 
on the faculty at the University of Illinois at Urbana-
Champaign, and the Director of the Gardener Agriculture Policy 
Program, and the author of, A Legislative and Political History 
of the Farm Bill. His previous roles have included Chief 
Counsel for the Senate Committee on Agriculture, and 
Administrator of the Farm Service Agency at USDA. Mr. Coppess 
grew up on his family farm in western Ohio and holds a J.D. 
from the George Washington University Law School.
    We will now proceed to hearing your testimony. Each witness 
will have 5 minutes, and when 1 minute is left, the light will 
turn yellow, signaling time is close to expiring. You should be 
able to see that time keeper on your screen before you.
    Mr. Palmer, please begin when you are ready.

  STATEMENT OF TIM PALMER, PRESIDENT, NATIONAL ASSOCIATION OF 
               CONSERVATION DISTRICTS, TRURO, IA

    Mr. Palmer. Chair Spanberger and Members of the 
Subcommittee, thank you for the opportunity to testify today. 
My name is Tim Palmer, and with my family, we operate a farm 
near Truro, Iowa, south central Iowa. We produce corn, 
soybeans, oats, hay, and beef cattle. Conservation has been a 
core tenet of our farming operation since its founding.
    I currently serve as the President of the National 
Association of Conservation Districts. NACD represents 
America's 3,000 conservation districts. Conservation districts 
are local units of government established under state law to 
carry out natural resource management programs at the local 
level.
    While I would like to keep my oral comments today 
specifically to the challenges and successes of conservation 
programs in 2020, I would note the importance to conservation, 
of the conservation delivery system, and NACD's role in it.
    As a farmer, I like to think of myself as an eternal 
optimist. I am going to begin my testimony with the successes 
of conservation in 2020. Although the pandemic has posed 
challenges to conservation delivery, the adoption of 
conservation practices provides opportunities to strengthen 
both our natural resources and our local economies. 
Implementing conservation practices makes operations more 
resilient, whether facing weather extremes or economic 
challenges.
    In 2017, NACD and Datu Research released a set of case 
studies detailing the budget data on producers' adoption of 
soil health practices, such as cover crops and no-till. These 
showed that although planting costs increased by up to $38 per 
acre, yearly net income increased to $110 per acre, and 
efficiency is an important buttress against external shock to a 
farm operation, whether it is from weather events and from 
economic factors.
    One important effect of conservation that is rarely 
discussed is the effect on local economies. Conservation has a 
positive impact on local communities. Conservation practices 
require technical assistance equipment, and technical 
assistance inputs to implement, and become a driver of economic 
health. And when once installed, these practices ease the 
burden on local infrastructure, such as bridges and culverts, 
assisting local governments responsible for these structures.
    It is clear to me that conservation has a crucial role to 
play, not only for the benefits to the environment, but as an 
engine as we look to recover and rebuild our economy.
    Now, for the challenges.
    NRCS staffing continues to be a challenge. Conservation 
delivery relies on adequate field staff. Demand for technical 
assistance has remained constant or increased, while staffing 
levels have declined. I hope Congress will continue to support 
the USDA in streamlining the process of hiring new employees. 
Congress should encourage even greater direct hiring authority 
for NRCS field staff.
    One tool that has allowed conservation districts to help 
meet landowners' needs is NACD's Technical Assistance Grant 
Program. Since 2018, NACD has worked in partnership with NRCS 
to administer grants to conservation districts and other local 
conservation entities. These funds are matched by state and 
local contributions. By empowering local decision-makers to 
prioritize funding where they need it, NACD's Technical 
Assistance Grant Program has helped temporarily improve 
staffing where it is needed the most.
    The current COVID-19 pandemic has presented a new set of 
challenges for conservation delivery. NRCS and conservation 
districts have instituted face-to-face work that, while 
important, have disrupted operations. Conservation districts 
are also concerned about the impact of state and local budget 
cuts. We worry that the pandemic-caused revenue shortfalls and 
associated budget cuts for state and local governments will 
trickle down to districts that receiving funding from our state 
and our county. Any cut in district staff will have a direct 
effect on the delivery of farm bill conservation programs.
    I appreciate the invitation to speak before the 
Subcommittee this morning on a topic that is so close to my 
heart, and I look forward to answering any questions that you 
might have.
    [The prepared statement of Mr. Palmer follows:]

 Prepared Statement of Tim Palmer, President, National Association of 
                   Conservation Districts, Truro, IA
    Good morning, Chair Spanberger, Ranking Member LaMalfa, and Members 
of the Subcommittee. Thank you for the opportunity to testify on the 
challenges and successes of conservation programs in 2020. My name is 
Tim Palmer, and with my family, we operate a farm near Truro, Iowa. We 
produce corn, soy, oats, hay and beef cattle.
    Our farm was founded in 1958 by my father, and I joined the 
operation in 1974 after high school. Conservation has been a core tenet 
of our farming operation since its founding. In the 1960s, my father 
began by adding ponds, managing livestock water, and using terraces to 
control runoff. Now, our current conservation practices include 
terraces, waterways, filter strips and ponds, as well as rotational 
grazing for the cattle herd. On our operation, we have used the 
Conservation Reserve Program (CRP) and the Environmental Quality 
Incentives Program (EQIP). Currently, my farm is enrolled in EQIP to 
improve habitat for pollinators.
    In 2003, my interest in conservation led me to serve on my local 
conservation district board--the Madison County Soil and Water 
Conservation District (SWCD). Like many others, I had almost no concept 
of my local conservation history. I ran for my district board to learn 
more about NRCS and state conservation programs. Learning from the 
long-time local board members about the county's conservation history 
and how the conservation partnerships within the state work was an 
invaluable education. I became involved with my state association of 
conservation districts, Conservation Districts of Iowa, serving in 
several leadership capacities, including state association president, 
and learning more about the national association in the process.
    I currently serve as the President of the National Association of 
Conservation Districts (NACD). NACD is the nonprofit organization that 
represents America's 3,000 conservation districts, their state and 
territory associations, and the more than 17,000 men and women who 
serve on their governing boards. Conservation districts are local units 
of government established under state law to carry out natural resource 
management programs at the local level. Conservation districts work 
with millions of cooperating landowners and operators to help them 
manage and protect land and water resources on all private lands, and 
many public lands, in the United States. I first joined the NACD Board 
of Directors in 2009, and I have served as an Executive Board Member, 
First Vice-President, and I began my presidency term in February 2019.
Conservation District History
    Conservation districts were created as a result of the Dust Bowl, 
shortly after the Soil Conservation Service (SCS), now called the 
Natural Resources Conservation Service (NRCS). This was a time before 
the major conservation programs we know today were established. The SCS 
was charged with demonstrating soil conservation practices for farmers 
whose topsoil was literally blowing away.
    When the SCS was created, President Franklin Roosevelt understood 
that these new Federal employees would need local partners to be 
successful. In 1936, President Roosevelt recommended the Standard State 
Soil Conservation Districts Act be signed into law by all state 
governors. This act gave states a step-by-step guide to create 
conservation districts and listed their powers and responsibilities. 
Less than a week after receiving the draft language, Arkansas became 
the first state to enact legislation regarding conservation districts. 
The first conservation district, Brown Creek SWCD, was established in 
North Carolina on August 4, 1937. By July 1, 1945, all 48 states had 
passed district-enabling acts. There are now nearly 3,000 conservation 
districts across the country, including conservation districts in all 
U.S. territories and a number of Tribal conservation districts, all 
governed by a local board of supervisors.
    Just as the SCS has evolved into the NRCS we know today, 
conservation districts have grown and evolved as well. Originally 
created to be the local partner for conservation, districts now have 
the formal role of convening and managing Local Work Groups. These 
groups bring together local stakeholders to set priorities for 
conservation programs within the conservation district based on input 
from the citizenry. When we discuss locally-led conservation, it is 
this Local Work Group process that brings the local voice to 
conservation programs. Input from Local Work Groups directly impacts 
the criteria used to rank conservation program applications and, 
ultimately, which applications are funded.
    Although created because of the Dust Bowl, conservation districts, 
as well as USDA, now have a much broader focus than just soil erosion. 
Conservation districts address water quality, water quantity, wildlife 
habitat, forestry and other resource concerns. Conservation districts 
work with NRCS and other Federal agencies such as the Environmental 
Protection Agency (EPA); state agencies; and local governments and 
partners. Conservation districts are uniquely able to bring all of 
these partners together to address a range of resource concerns on both 
private and public lands.
Conservation Delivery in Action
    It is important for the Committee to understand how important 
technical assistance is to the successful implementation of 
conservation planning and farm bill conservation programs. You cannot 
simply cut a check and say `go forth and do good;' landowners need the 
technical expertise to implement these conservation systems. Often, 
landowners need the technical assistance as much as or more than the 
financial assistance provided by farm bill conservation programs. The 
conservation delivery partnership between conservation districts, state 
conservation agencies and NRCS, which has existed for decades and is 
trusted by landowners across the country, is the gold standard. 
Conservation districts and NRCS work together closely to provide 
conservation planning and technical assistance, implement conservation 
programs, and address local natural resource concerns.
    Conservation districts and NRCS are usually co-located in county 
offices, and through cooperative agreements, many conservation 
districts assist in implementing NRCS programs. Conservation districts 
work with landowners to address resource concerns, help landowners 
apply to conservation programs, and implement practices on cooperators' 
land. Even though they have separate employers, conservation district 
and NRCS employees work hand-in-hand to deliver the customer service 
our farmers and ranchers need and deserve. To the clients who come into 
the offices, there is often no distinction between the different staff 
that assist them.
    This exceptional technical assistance requires extensive training, 
and many conservation districts have skilled staff who have completed 
the same training as NRCS employees. In fact, NACD has a cooperative 
agreement with NRCS to send conservation district employees to NRCS's 
Conservation Planning Boot Camp in Lincoln, Nebraska. As part of this 
agreement, NACD is able to fund travel and expenses for conservation 
district employees to attend the 3 week long training course, and NRCS 
holds space open specifically for conservation district employees. 
Conservation district employees are also able to take the many courses 
available to NRCS employees conducted on the state level, as well as 
available online courses.
Challenges to Conservation Delivery
    Successful conservation delivery relies on adequate field staff to 
work with landowners and implement programs. Currently, NRCS is about 
2,000 employees short of their employment cap, based on the agency's 
own workload analysis of the technical support needed to fulfill 
program requirements. Although over 1,000 new staff members have been 
hired, the agency is just keeping up with attrition. Those 2,000 
unfilled positions are a hiring backlog that has persisted for several 
years. NRCS simply cannot hire fast enough to meet their own needs. The 
current staff are insufficient to meet the demand for conservation 
planning and implementation of farm bill conservation programs at 
Congressionally authorized funding levels.
    Conservation districts have stepped up to help fill this gap. 
Conservation district staff have always been involved in implementing 
Federal conservation programs. However, conservation district staff are 
taking on a greater share of conservation delivery across the country. 
Although we would much rather see NRCS fully staffed, America's 
conservation districts are ready and willing to continue assisting in 
meeting the needs at hand.
    One tool that has allowed conservation districts to rise to meet 
landowners' needs is NACD's Technical Assistance Grant Program. Since 
2018, NACD has worked in partnership with NRCS to administer between 
$9-$15 million per year to conservation districts, state and territory 
associations, and other local conservation entities like resource 
conservation and development councils (RC&Ds). These funds are matched 
by over $3-$5 million during each of these 3 years through state and 
local contributions. This funding is used to hire staff in the highest 
workload priority areas to help deliver EQIP and the Conservation 
Stewardship Program (CSP), as well as provide Conservation Technical 
Assistance (CTA) to landowners. As of the end of June 2020, NACD and 
NRCS's funds have provided nearly 300 full and part-time positions 
across the country, and those grant-created positions have worked more 
than 640,000 hours during a period of just over 2 years. These 
technical assistance staffers are tasked to improve customer service 
and reduce workload pressure. Their efforts have assisted with more 
than 14,000 conservation plans and 30,000 EQIP contracts and have 
delivered conservation systems on more than 1.5 million acres of 
American working lands.
    Thomas Jefferson SWCD is Virginia's first awardee from NACD's 
Technical Assistance Grant Program and is a prime example of what these 
funds are meant to address. The SWCD was awarded funding in June and 
has already started their work to place staff in the Louisa and 
Charlottesville SWCD offices to increase technical assistance and 
general outreach to the small farms in the area. Their goal is to 
increase participation in CSP for the conservation district's entire 
service area.
    One of the hallmarks of this program is that each conservation 
district is able to use the funds to address their most pressing 
issues. The Glenn County Resource Conservation District in California 
has used the funds to hire engineers to design EQIP practices. Yet, the 
Sonoma Resource Conservation District, also in California, has taken a 
different approach, hiring foresters to work with landowners on 
management concerns. By empowering local decisionmakers to prioritize 
funding where they need it, NACD's technical assistance grant program 
has helped to temporarily improve staffing where it's needed most.
    Staffing at NRCS is an issue in which this Subcommittee has taken 
an interest in the past. Demand for technical assistance has remained 
constant or increased while staffing levels have declined. I hope 
Congress will continue to support USDA in streamlining the process of 
hiring new employees. Congress should encourage even greater direct 
hiring authority for NRCS field staff.
    The current COVID-19 pandemic has also presented a new set of 
challenges for conservation delivery. County service centers have 
remained available to customers, although they have adopted procedures 
to assure safety for customers as well as employees. This means 
customers need to make an appointment, and there are limitations on how 
many employees or customers can be in an office at the same time. 
Although meetings with producers in the field are still allowed, there 
are also restrictions in place on how many people can ride in a single 
vehicle and where they can sit. Staff have been conducting much more 
business by phone and online than they have in the past, and I'd say 
that overall, conservation district staff are rising to the challenge 
this new situation has posed quite admirably. However, these 
restrictions have proven disruptive to normal operations in many county 
service centers.
    Another concern for conservation districts stemming from the 
pandemic is the impact of state and local budget cuts. Already, a 
number of conservation districts have needed to furlough staff members 
because of budget considerations. Conservation districts are concerned 
that revenue shortfalls and associated budget cuts for state and local 
governments will trickle down to conservation districts that receive 
funding from their state and/or county. For many conservation 
districts, this non-Federal funding is used to pay for a district 
manager and to ensure that someone is answering the phones and 
responding to customers. Cuts to district funding at the state and 
local level hit at the heart of district operations and may impact 
capacity for Federal conservation delivery as well.
    Financial aid for state and local governments has been considered 
as Congress continues to debate additional COVID-19 relief legislation. 
There are many places where state and local governments will consider 
budget cuts without additional aid; please know that conservation 
districts are one of these places. Additional state and local 
government funding is needed to ensure that conservation districts can 
continue to deliver conservation over the next few years.
Current Opportunities
    Although the COVID-19 pandemic has posed many challenges to 
conservation delivery, the adoption of conservation practices provides 
opportunities to strengthen both our natural resources and our local 
economies. Implementing conservation practices makes operations more 
resilient, whether facing weather extremes or economic challenges, like 
many farmers and ranchers are currently facing.
    In 2017, NACD and Datu Research, LLC released a set of 3 year case 
studies on four corn and soybean farms in the Upper Mississippi River 
Basin, detailing year-by-year budget data on their adoption of cover 
crops or no-till.[\1\] These farmers shared decisions they made and 
why; how adoption affected income and yields; and what they learned. 
Each case study uses budget analysis to measure yearly changes in 
income that the farmer attributes to adoption, compared to the pre-
adoption baseline.
---------------------------------------------------------------------------
    \1\ https://www.nacdnet.org/soil-health-research/.
---------------------------------------------------------------------------
    The major takeaways were that although planting costs increased by 
up to $38 per acre:

  <bullet> Fertilizer costs decreased by up to $50 per acre;

  <bullet> Erosion repair costs decreased by up to $16 per acre;

  <bullet> Yields increased by up to $76 per acre; and altogether[; 
        and]

  <bullet> Yearly net income increased by up to $110 per acre.

    That increased income and efficiency is an important buttress 
against an external shock to farm and ranching operations, whether 
that's from weather events, like the derecho we experienced in Iowa 
this year, the catastrophic wildfires many states continue to 
experience in the West, or from the economic fallout of trade wars or a 
pandemic. NACD is currently working to expand these soil health case 
studies to include other regions and cropping systems across the 
country.
    The economics of conservation are particularly important, because 
producers need to be profitable to invest in conservation. Even with 
Federal cost-share, conservation practices require a financial 
investment by the producer themselves. When a producer is struggling 
just to pay the costs of production, conservation will certainly be cut 
from the budget.
    Conservation also has a positive economic impact on the local 
communities where it is underway. Conservation practices require 
technical assistance, equipment and inputs to implement. Local 
advisors, like engineers, agronomists and wildlife specialists, are 
employed to aid conservation adoption. Many practices require 
specialized equipment to plant crops or maintain structures like small 
watershed dams. Some practices require inputs as well, such as seed or 
plantings. All these necessities become a driver of economic 
development, helping to bolster both the land and the local economy. 
And once installed, these practices ease the burden on local 
infrastructure, such as bridges and culverts, assisting the local 
governments responsible for these structures. It is clear to me that 
conservation has a crucial role to play, not only for benefits to the 
environment, but as an engine as we look to recover and rebuild our 
economy.
    I appreciate the invitation to speak before the Subcommittee this 
morning on a topic that is so close to my heart and look forward to 
answering any questions you might have.

    The Chair. Thank you very much, Mr. Palmer.
    And Mr. Patterson, please begin whenever you are ready.
    Mr. Patterson. Can you hear me okay?
    The Chair. Yes, we can.

STATEMENT OF STEVE PATTERSON, SENIOR VICE PRESIDENT, MARKETING, 
                COMMUNICATIONS, AND GOVERNMENT 
       AFFAIRS, SOUTHERN STATES COOPERATIVE, HENRICO, VA

    Mr. Patterson. Okay. Thank you. Thank you, Chair 
Spanberger, and thanks to all the Members of the Subcommittee 
on this very important subject. I appreciate the opportunity to 
share some of the things we are doing in Virginia to help with 
conservation and water quality issues across the Commonwealth, 
some of which are successes and some of which are challenges.
    My name is Steve Patterson. I serve as the Senior VP of 
Marketing, Communications, and Government Affairs at Southern 
States, which is a 97 year old farmer-owned cooperative based 
in Richmond, Virginia, and reside in the 7th Congressional 
District as was mentioned earlier. I am a 35 year veteran, 
graduate of the University of Kentucky in agronomy, which is 
the study of the science and economics of food and fiber 
production. Earlier in my career, I was a regional agronomist 
and during that tenure, I had the opportunity to earn the 
qualifications of certified crop advisor, certified 
professional agronomist, and nutrient management specialist in 
Virginia and Maryland. It was one of the hardest exams I have 
ever taken, by the way, but it was very good.
    I share that information because I want you to know that I, 
and Southern States, understand and care about the nature of 
nutrients and the nature both on growing crops and for 
affecting water quality via leaching and/or runoff in these 
types of things. It is very important that we understand those 
things, because it affects our streams, rivers, bays, 
estuaries.
    I also had the opportunity to be part of the launch of 
precision ag technology on the East Coast, which allows for 
much more precise applications of nutrients in farmers' fields, 
based on an intense soil testing methodology and variable rate 
equipment technology. This allows for prescriptive rates of 
nutrients to be applied in different parts of the same field 
based on intensive soil testing, whereas before this technology 
was available, the same amount may be applied across the whole 
field, which was not good for the crop or good for the farmer's 
economics. We now have over 1 million acres under some form of 
precision ag technology across our operating territory, a 
number of agronomy specialists that work with farmers every day 
on soil testing, nutrient management plans, improving crop 
yields, while also mitigating nutrient leaching or transport 
via erosion in the water system.
    As leaders, we are working with new product technology that 
shows promise of delivering slow release nitrogen to crops, 
while at the same time reducing leaching of nitrogen by 
approximately 49 percent. This is a potential game-changing 
product that is coming down the pike. Better yet, this product 
originates from waste materials and reduces the amount of 
material going into landfills, creating a more circular economy 
and also adding more organic matter to the soil and improving 
soil health.
    I am proud to say we are partnering with the Virginia 
Department of Conservation to: reduce leaching and runoff of 
nitrogen, phosphorus, sediment; spread the message of the 
importance of soil testing, nutrient management, no-till 
practices, utilizing grass buffer strips, cover crops; and the 
4R's of nutrient management: the right source, the right rate, 
the right time, and the right place. Virginia's goal of 
achieving 85 percent of the acreage in the Chesapeake Bay 
Watershed to have a nutrient management plan by 2025 is 
definitely doable, but only if private and public organizations 
work together. We need continued cooperation from our partners 
at the NRCS, Department of Conservation and Recreation in 
Virginia, the Soil and Water Conservation Districts, and 
industry to achieve that goal.
    As I already mentioned, continue to increase funding for 
conservation programs from the state and Federal Governments is 
needed to reach those goals. This is especially true in a time 
of a pandemic and prolonged downturn in the farm economy, which 
farmers have limited resources. Nutrient management is the kind 
of practice we embrace. It aligns with our goal to recommend 
products and services that are agronomically-sound, 
environmentally-responsible, and cost-effective for our 
farmers. They are site-specific and based on factors such as 
soil and manure samples, timing and rate of application. We, 
along with all these organizations we mentioned, including 
land-grant universities, provide crucial technical assistance 
to our farmers to implement these practices, but there remains 
a shortage of qualified planners that needs to be addressed 
moving forward. That is one of our big challenges. We need more 
trained professionals in the field providing these services to 
our farmers.
    It is very important as we move forward that agriculture 
has a seat at the table discussing climate change, that 
decisions are based on sound science, and that decisions 
protect the economic livelihood of our farmers. We are proud to 
work with organizations such as the Ag Retailers Association, 
the National Council of Farmer Cooperatives, Farm Bureau, and 
Virginia Agribusiness Council on these issues, because we are 
all much stronger working together versus a fragmented approach 
across various organizations.
    American agriculture is a modern-day success story. Our 
farmers produce the world's safest, most abundant food supply 
for consumers at prices far lower than the world average. 
Cooperatives have been at the forefront of proactive work to 
improve the environment in the communities they serve. From 
pest management to nutrient management, from the development of 
cutting-edge technologies to the implementation of wide area 
conservation practices, farmer cooperatives have the expertise 
and the credibility to serve as the best source for information 
regarding production practices. This is the reason we have been 
around for almost 100 years. Our farmer-owners trust us to help 
them with the complexities of crop and livestock production, 
and the necessity of improving water quality in our respective 
states while producing profitable and sustainable yields.
    Thank you again for the opportunity to be here today, and I 
will stop there and take any questions at the right time. Thank 
you very much.
    [The prepared statement of Mr. Patterson follows:]

     Prepared Statement of Steve Patterson, Senior Vice President, 
  Marketing, Communications, and Government Affairs, Southern States 
                        Cooperative, Henrico, VA
    Thank you, Chair Spanberger, and thank you to all the Members of 
the Conservation and Forestry Subcommittee for being here today.
    I appreciate the opportunity to be with you and to share some of 
the things we are doing in Virginia to help with conservation and water 
quality issues across the commonwealth.
    My name is Steve Patterson, and I currently serve as the Senior 
Vice President of Marketing, Communications and Government Affairs at 
Southern States Cooperative, a 97 year old farmer owned cooperative 
based in Richmond, Virginia and reside in the 7th Congressional 
District.
    I am a 37 year veteran of Southern States, a graduate of the 
University of Kentucky in Agronomy, which is ``the study of the science 
and economics of growing food and fiber,'' and earned an MBA from 
Virginia Commonwealth University.
    Earlier in my career, I served as a regional agronomist for 
Southern States and during that tenure, I had the opportunity to earn 
the qualifications of Certified Crop Advisor and Professional 
Agronomist via the American Society of Agronomy, along with becoming a 
Nutrient Management Specialist in the states of Maryland and Virginia.
    I share that information because I want you to know that I, and 
Southern States, understand, and care about the nature of nutrients and 
the effect they have both on growing crops and on the water quality of 
our streams, rivers, bays and estuaries.
    I also had the opportunity to be part of the launch of precision 
agriculture technology on the East Coast, which allows for much more 
precise applications of nutrients in farmers' fields based on an 
intense soil testing methodology and variable rate equipment 
technology. This allows for prescriptive rates of nutrients to be 
applied in different parts of the same field, based on intensive soil 
testing, whereas before this technology was available, nutrients would 
not be properly applied to the crop or good for the farmer's economics.
    Today we have over 1 million acres under some form of precision ag 
technology, a number of Certified Crops Advisors and agronomy 
specialists that work with farmers every day on soil testing, nutrient 
management plans, and improving crop yields while also mitigating 
nutrient leaching, volatilization or transport via erosion in the water 
system and eventually into the Chesapeake Bay. As leaders, we are 
working with new product technology that shows promise of delivering 
slow release nitrogen to crops while at the same time reducing leaching 
of nitrogen by approximately 50%, a potential game-changing event. 
Better yet this product originates from waste materials and reduces the 
amount of material going into landfills, creating a more ``circular 
economy.''
    I am proud to say we are partnering with the Virginia Department of 
Conservation to work together to reduce leaching and runoff of 
nitrogen, phosphorus and sediment, and spread the message of the 
importance of soil testing, nutrient management plans, no-till 
practices, utilization of grass buffer strips and cover crops, and the 
``4Rs'' of nutrient management (the right source, right rate, right 
time and right place.) Virginia's goal of achieving 85% of the acreage 
in the Chesapeake Bay watershed to have a Nutrient Management Plan by 
2025 is definitely doable--but only if private and public organizations 
work together toward that common goal. We need continued cooperation 
from our partners at the Natural Resource Conservation Service (NRCS), 
DCR, the Soil and Water Conservation Districts and industry to achieve 
that goal. Continued and increased funding for our conservation 
programs from both the state and Federal Governments is needed to reach 
the goals. This is especially true in a time of pandemic and a 
prolonged downturn in the farm economy, in which producers have limited 
resources.
    Nutrient management planning is the kind of practice Southern 
States embraces--it aligns with our company's goal to recommend 
products and services that are agronomically-sound, environmentally-
responsible and cost-effective for our growers. They are site specific 
and based on factors such as soil and manure samples, timing and rate 
of application. We, along with NRCS, Soil and Water Districts as well 
as our land-grant universities, provide crucial technical assistance to 
our farmers to implement these practices, but there is still a shortage 
of qualified planners that will need to be addressed moving forward. We 
need more trained professionals in the field providing these services 
to our farmers.
    It is very important as we move forward that agriculture has a seat 
at the table discussing climate change, that decisions are based on 
sound science, and that decisions protect the economic livelihood of 
our farmers.
    We are proud to work with organizations such as the Ag Retailer's 
Association, National Council of Farmer Cooperatives, Farm Bureau, and 
the Virginia Agribusiness Council on these issues, as we all are much 
stronger working together versus a fragmented approach across various 
industries and organizations.

  <bullet> American agriculture is a modern-day success story. 
        America's farmers produce the world's safest, most abundant 
        food supply for consumers at prices far lower than the world 
        average. Farmer cooperatives are an important part of the 
        success of America's food supply chain.

  <bullet> Farmer cooperatives like Southern States have been at the 
        forefront of proactive work to improve the environment in the 
        communities they serve. Our goal is to support science-based, 
        achievable, and affordable environmental policies and 
        initiatives. From pest management to nutrient management, from 
        the development of cutting-edge technologies to implementation 
        of area-wide conservation practices, farmer cooperatives have 
        the expertise and the credibility to serve as the best source 
        for information regarding production practices.

    This is a reason we have been around for almost 100 years--our 
farmer owners trust us to help them with the complexities of crop and 
livestock production and the necessity of improving water quality in 
our respective states while producing profitable and sustainable 
yields.
    Thank you for the opportunity to present this to you today and 
please advise how we can help, going forward.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Steve Patterson,
Senior Vice President, Marketing, Communications, and Government 
Relations,
Southern States Cooperative.

    The Chair. Thank you so much, Mr. Patterson.
    And thank you, Dr. Waldrop. Please begin when you are 
ready.
    Dr. Waldrop. Thank you very much. Can you hear me okay?
    The Chair. We can.

   STATEMENT OF KAREN A. WALDROP, Ph.D., CHIEF CONSERVATION 
             OFFICER, DUCKS UNLIMITED, MEMPHIS, TN

    Dr. Waldrop. Great, wonderful. Chair Spanberger, Ranking 
Member LaMalfa, and Members of the Committee, thank you so much 
for providing this opportunity for Ducks Unlimited to testify 
today.
    It certainly has been a challenging year, so we really 
appreciate the chance to talk to you today about some of the 
great conservation work that we have been able to deliver 
during these very trying times.
    Since 1937, Ducks Unlimited has conserved, managed, and 
restored wetlands and associated habitats for North America's 
waterfowl. However, wetlands also provide a lot of benefit for 
people in ways that we have not even really, a lot of people 
are not aware of, either directly or indirectly, from things 
like flood control or water quality improvement, erosion 
control, or even recreation like hunting, kayaking, and 
wildlife watching. We can only achieve our mission of 
conserving waterfowl habitat through diverse public and private 
partnerships. Specifically, the USDA and NRCS have been 
fantastic partners in our conservation delivery efforts 
throughout the years, and we certainly cannot appreciate them 
enough during these difficult times with the pandemic.
    Ducks Unlimited and many other midsize nonprofits have been 
hit particularly hard by COVID-19 restrictions on gatherings. 
For example, at Ducks Unlimited we had to cancel thousands of 
events this past year--fundraising events that cost millions in 
event income that we were expecting for our budget this past 
year. However, a bright spot during these difficult times has 
been our continued conservation delivery by our dedicated team 
who--they stayed in campers and trailers and ice fishing houses 
to be able to continue their important conservation work 
throughout this pandemic, and we are very proud of the work 
that they have done and the sacrifices that they made.
    Much like our friends in the farming and ranching community 
who have been severely impacted by COVID-19, DU continues to 
deliver, no matter the hurdles that we face. Some ag groups are 
even doubling down, like the National Cattlemen's Beef 
Association. They are working on sustainable multiple use 
practices. And we even just recently signed an MOU with them 
outlining our shared commitment to cultivate healthier 
ecosystems, wildlife populations, and economies through active 
management like cattle grazing.
    It is not only through the partnerships that we have 
created with producers and the dedicated NRCS staff, without 
those partnerships and those dedicated NRCS staff across the 
country, we wouldn't have been able to deliver our conservation 
efforts and continue them today.
    Just 2 weeks ago, NRCS announced that DU and our partners 
had been awarded an $8.7 million RCPP grant to develop a 
producer-focused program to improve soil quality in the 
prairies of the Dakotas and in Montana. And this program will 
offer interested farmers and ranchers technical assistance and 
financial assistance to adopt soil health practices, and this 
was alluded to earlier by Chief Norton and Congresswoman 
Pingree as well.
    One area where our partnerships are really taking off, 
another area is in Iowa, and where we have been working with 
the Iowa Department of Agriculture and Land Stewardship 
recently to help deliver and aid in Iowa's nutrient reduction 
strategy. Additionally, in coordination with these great 
government partners, we have been able to team up with some 
great corporate partners like Nestle Purina, Wells Fargo, and 
Microsoft to kind of help scale up the conservation delivery in 
the area because it is to meet effort demand by producers as 
well.
    These wetlands, as they are created, natural wetlands help 
reduce the nitrates in the water, resulting in cleaner water. 
But also since approximately 1.5 million gallons of water can 
be held in just 1 acre of wetland, wetlands also do an amazing 
job of reducing flooding and soil erosion during heavy rainfall 
events.
    Another partnership that DU is extremely proud of--it has 
been mentioned a couple of times--is our ongoing collective 
rice efforts that are vitally supported by NRCS and through the 
RCPP. USA Rice, Ducks Unlimited, and supporters are in the 
process of delivering conservation on nearly 800,000 acres in 
six major rice-producing states, mostly in the Southeast and in 
California. The Rice Stewardship Partnership was created to 
support farmers first, and that is something that DU takes a 
lot of pride in. In fact, Al Montna, DU's Senior Vice President 
for Policy, is deeply involved in the Rice Stewardship Program, 
and he is a prominent rice farmer in the Sacramento Valley as 
well.
    DU strongly believes in these and other voluntary 
incentive-based conservation programs like ACEP. When producers 
are given economically viable options to improve their land 
through conservation practices, they support and seek these 
programs, and DU will continue to follow the lead of our 
agriculture partners and urge Congress to continue to support 
these critical conservation tools.
    In closing, Ducks Unlimited is proud and grateful to be 
carrying on our mission during this pandemic. We greatly value 
our producer partners who are stewards of these lands, and we 
rely on our partners to help to conserve and restore waterfowl 
habitat to benefit both wildlife and people. Thank you for the 
opportunity to speak to you today, and we look forward to 
continuing our partnership with NRCS and helping America's 
farmers and ranchers sustainably produce the food, fiber, and 
fuel that we all depend on. I would be happy to answer any 
questions at this time.
    [The prepared statement of Dr. Waldrop follows:]

   Prepared Statement of Karen A. Waldrop, Ph.D., Chief Conservation 
                 Officer, Ducks Unlimited, Memphis, TN
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Committee, thank you for providing Ducks Unlimited the opportunity to 
testify today to discuss the ``Challenges and Successes of Conservation 
Programs in 2020.'' This year has certainly been different than any of 
my previous 17 years in conservation, so we really appreciate the 
opportunity to talk about the important work we've been able to deliver 
under these trying times.
    I am Dr. Karen Waldrop, Chief Conservation Officer of Ducks 
Unlimited. I operate as the strategic leader for our national and 
international conservation programs, including science and habitat 
conservation operations, as well as lead our regional offices across 
the country that focus on conservation delivery. I received my Ph.D. in 
Wildlife Biology/Forest Sciences from Clemson University and both my 
M.S. in Wildlife Biology/Forest Resources and B.S. in Forest Resources 
from University of Georgia. Prior to joining DU in 2019, I served as 
the Deputy Commissioner for the Kentucky Department of Fish and 
Wildlife Resources.
    Ducks Unlimited is the world's leader in wetlands and waterfowl 
conservation. DU got its start in 1937 during the Dust Bowl when North 
America's dr[o]ught-plagued waterfowl populations had plunged to 
unprecedented lows. Starting in 1937 and continuing to today, Ducks 
Unlimited conserves, restores and manages wetlands and associated 
habitats for North America's waterfowl. These habitats also benefit 
other wildlife and people. We know that Ducks Unlimited can only 
achieve our vision of wetlands sufficient to fill the skies with 
waterfowl today, tomorrow and forever through diverse public and 
private partnerships to address the full range of factors that affect 
waterfowl habitat. U.S. Department of Agriculture (USDA) and the 
Natural Resource Conservation Service (NRCS) are fantastic partners for 
this nation's conservation delivery.
    Wetlands benefit people in many ways, either directly or indirectly 
through flood control (by storing water during flood events), water 
quality improvement (by naturally removing nitrogen and phosphorus), 
erosion control, and provide opportunities for other forms of 
recreation, like hunting, fishing, kayaking or wildlife watching. 
Wetland protection and restoration work conducted by DU, NRCS and 
producers provide wetland-based water solutions for people and 
wildlife. For example, when we build or restore wetlands in the 
Mississippi Alluvial Valley, these wetlands can temporarily store flood 
waters during high runoff events, preventing downstream flooding and 
erosion. Or when our teams construct wetlands in the Midwest, the 
result is lower levels of contaminants in the water because of the 
natural ability of wetlands to filter out these pollutants. Similarly, 
when rice fields are flooded, not only is food available for ducks but 
flooding helps prevent erosion and controls weeds, so fewer chemicals 
are needed.
    Ducks Unlimited and many other mid-sized nonprofits have been hit 
particularly hard by many of the government closures and restrictions 
to prevent the spread of [COVID]-19. Not being made eligible for the 
Paycheck Protection Program because we had over 500 employees when the 
COVID-19 pandemic started has certainly limited available financial 
relief, either. As it has across the world, the coronavirus pandemic 
has negatively affected Ducks Unlimited, especially in our fundraising 
efforts. DU relies heavily on our event-based fundraising that 
generates more than $50 million on an annual basis. Our events bring in 
tens of millions of dollars in major gift payments, as well as 
thousands of regular memberships that are normally renewed through 
local event attendance. This spring, the pandemic severely limited our 
traditional event fundraising and it continues to do so today. Due to 
government restrictions, DU has been forced to cancel over 2,000 in-
person events losing at least $17 million in expected event income 
through June 30 alone. Furloughs, drastic budget cuts, and 
unfortunately layoffs are becoming part of the new reality for most 
nonprofit organizations around the country. That includes DU. However, 
a bright spot during these difficult times has been our continued 
conservation delivery. It is only through the partnerships we've 
created with producers and the dedicated NRCS staff throughout the 
country that this conservation has been possible. Much like our friends 
in the farming and ranching community, DU continues our important work 
in the countryside where fresh air and open spaces limit the dangers 
presented by a virus.
    Just 2 weeks ago, NRCS announced that DU and our partners had been 
awarded a $8.73 million Regional Conservation Partnership Program 
(RCPP) grant to develop a producer-focused program, Scaling Soil Health 
in the Prairie Pothole Region (PPR). The program will offer farmers and 
ranchers technical and financial assistance, advanced training and 
mentorship to increase the adoption of soil health practices in the PPR 
of North Dakota, South Dakota and Montana. This will be a significant 
opportunity for DU to help more producers access the education and 
financial support they need to adopt soil health practices. Along with 
our great partners, we will work with interested farmers and ranchers 
to help them improve soil quality and wildlife habitat on their lands 
and produce positive economic results. A diverse array of partners on 
the project include the South Dakota Grassland Coalition, North Dakota 
Grazing Lands Coalition, U.S. Fish & Wildlife Service, Beadle 
Conservation District, Millborn Seeds, state game & fish agencies and 
others. This type of partnership and collaboration on behalf of 
America's farmers, ranchers and wildlife would not be possible without 
the help and foundation that is the NRCS.
    Partnership is what drives DU's conservation delivery. One area of 
the country where our partnerships are really taking off is in Iowa, 
where DU has been working with the Iowa Department of Agriculture and 
Land Stewardship (IDALS) to help deliver the Conservation Reserve 
Enhancement Program (CREP). Many of the wetlands created through this 
program collect tile drain water and use natural wetland processes to 
breakdown nitrates into inert nitrogen gas. A properly designed wetland 
can remove 30-70% of nitrates and 90% of herbicides. So far, the CREP 
program has constructed just over 100 wetlands treating approximately 
100,000 acres of farmland in central Iowa over 15 years. To meet the 
goals of Iowa's Nutrient Reduction Strategy, we will need approximately 
5,000 wetlands to treat runoff from 5-10 million acres. The popularity 
of this program continues to grow as farmers receive an easement 
payment to restore wetlands on what is most often marginal farmland. 
DU, in coordination with IDALS and USDA have been able to bring in 
diverse corporate partners like Wells Fargo, Microsoft and Nestle 
Purina to help scale up the conservation delivery effort to meet 
producer demand.
    An example of partnership driven conservation delivery work that DU 
is extremely proud of is our ongoing collective rice efforts that have 
been vitally supported by NRCS through the RCPP. USA Rice, California 
Rice Commission and Ducks Unlimited are in the process of delivering 
conservation on more than 790,000 acres on nearly 1,000 farms. Ducks 
Unlimited and USA Rice Federation's Rice Stewardship Partnership was 
created to support farmers first, and this is an effort that DU takes 
pride in. Coordinating with NRCS field offices and Soil and Water 
Conservation Districts, DU's conservation staff is improving customer 
service by meeting farmers right in the field where they are to better 
understand their challenges and opportunities. These on the ground 
conservation practices address a number of natural resource concerns 
but, perhaps most importantly, support farmers' livelihoods by 
minimizing their risk and offering income diversification to their 
farming operations. These practices are especially important this 
Summer in the face of multiple storms impacting the Gulf Coast. 
Approximately 1.5 million gallons of floodwater is stored in 1 acre of 
wetland. When Hurricane Sally, Hurricane Laura, and other storms made 
landfall in these Gulf states, existing wetlands created by these very 
same farm bill programs played an important role in limiting the 
severity of flooding in some areas. For example, when Sandy hit the 
Atlantic coast in 2012, an estimated $625 million in flood damage was 
prevented across 12 states in the Mid-Atlantic region of the United 
States thanks to coastal wetlands. While it would be unrealistic to 
suggest that the presence of wetlands could ever eliminate flooding 
caused by hurricanes and tropical storms entirely, they have proven to 
help save millions of dollars by protecting our coastlines and acting 
as natural reservoirs during severe storms.
    Last month, Ducks Unlimited signed a Memorandum of Understanding 
(MOU) with the National Cattlemen's Beef Association, The Public Lands 
Council and Safari Club International to outline the groups' shared 
commitment to conservation of natural resources through sustainable 
multiple use. The MOU outlines the groups' efforts to cultivate 
healthier ecosystems, wildlife populations, and economies through 
active management like livestock grazing. Hunting, fishing and managed 
grazing are all key components of successful, comprehensive management 
plans for our nation's lands and resources. The MOU highlights decades 
of successful voluntary conservation programs and formalizes a 
partnership to allow these groups to coordinate projects in the future. 
Cattle and beef producers, hunters and other conservationists, will 
continue to engage in conservation partnerships that maintain wildlife 
habitat, honor the cultural and historical value of landscapes and 
empower local communities and rural economies. Cows and ducks get along 
great. We know that when we have ranchers and cattle on the landscape, 
we have grasslands and wetlands. That means waterfowl and other 
wildlife have places to nest, breed, forage, rest and migrate. 
Conservationists and ranchers are linked arm in arm in keeping family 
farms on the landscape, with vibrant grasslands intact and functioning 
for the good and well-being of us all.
    Increasing and improving conservation delivery during the COVID-19 
crisis drives economic activity to rural areas and provides ecosystem 
services like flood protection to urban areas at the same time. One 
such project that is a good example of this is the instillation of two 
bridges in the Yolo Bypass Wildlife Area in California. A 350 ton 
hydraulic truck crane placed precast concrete bridges that replaced 
narrow pipes regularly blocked by beavers and debris, improving 
drainage and water supply to the wildlife area. The bridges are part of 
a $4 million project scheduled for completion in October. The 
investments in infrastructure will create 200 acres of new wetlands, 
improve management for rice fields, reduce on-site flooding and improve 
access for environmental education programs.
    Another great example of conservation on working lands is USDA's 
newly released Prairie Pothole Water Quality and Wildlife Program, 
which will invest millions into voluntary protection of wetlands in the 
Prairie Pothole Region. Producers will be eligible to receive payment 
for wetlands less than 2 acres in size wholly within privately owned 
working cropland. This new program will be carried out through our 
continued partnership with producers and NRCS to get the most value out 
of each acre for farmers and ranchers while also conserving waterfowl 
habitat.
    Ducks Unlimited believes strongly in the idea of voluntary, 
incentive-based conservation programs. When given an economically 
viable opportunity to improve their land through conservation 
practices, producers have proven to have a strong appetite for these 
programs year after year. Voluntary, perpetual wetland and agricultural 
land easements offered through NRCS are great examples of popular 
conservation programs that producers continue to seek out. Best among 
these ``working lands'' easements are those that protect wetlands, 
prime soils, and other conservation values without compromising a 
landowner's ability to sustainably, and prosperously, produce food and 
fiber. In fact, there continue to be waiting lists of producers to gain 
access to wetland easements as demand far exceeds supply. DU will 
continue to follow the lead of our partners in agriculture and urge 
Congress' continued support of these critical conservation tools.
    We often talk about the good work of DU in regions like the Lower 
Mississippi River, but DU is also helping to deliver innovative Wetland 
Reserve Easements in Northern California. Through a collaborative 
effort between NRCS, Feather River Land Trust, Northern Sierra 
Partnership and the Nature Conservancy; Ducks Unlimited is working to 
rehabilitate the Decker Dam in the Sierra Valley of northern 
California. This area is an important spring and fall migration area 
and supports important local nesting and brood-rearing. The dam 
structure has existed since the 1930s to provide water for livestock 
and flood irrigation to more than 330 acres of wet meadow pasture in 
the immediate vicinity, but also to help maintain irrigation capacity 
to over 1,000 acres of wet meadow pasture upstream of the structure on 
neighboring ranches. Over time, the structure has become dilapidated 
and no longer functions at its original intended capacity. DU is 
providing technical engineering services to help design a rehabilitated 
structure that will restore the original capacity for flood irrigation 
purposes and wildlife habitat benefits.
    Agricultural Land Easements have also proven to be an important 
tool in the toolbox for producers and conservationists alike in 
California and across the country. More than 95% of the historic 
wetlands in the Sacramento Valley have been lost, and wintering 
waterfowl, shorebirds and other waterbirds are now heavily dependent 
upon rice lands to meet their nutritional needs.
    About 68% of the nutritional needs of wintering waterfowl in the 
Central Valley are being met by agricultural lands, primarily rice. 
However, most of the rice lands in this area have no long-term 
protection and the Central Valley is one of the nation's most 
threatened farming regions. Establishing conservation easements on 
wildlife-friendly agricultural lands is an effective way to provide 
long-term protection to important Pacific Flyway habitat while allowing 
those lands to remain in private ownership and wildlife-friendly 
agricultural production. Easements help to keep farmers and ranchers on 
the land, help producers manage risk, and give ranch and farm families 
the opportunity to raise the next generation on the farm.
    ACEP-WRE is one of our nation's most successful voluntary 
conservation programs. The program restores previously converted 
wetlands and provides willing landowners and producers a financially 
viable alternative to farming marginal land with low or negative 
profits while still retaining property ownership. It is also a sound 
investment of taxpayer dollars and serves to help focus Federal 
investment in commodity and crop insurance on the most productive lands 
for agriculture. In fact, a study recently conducted by Doug Lawrence, 
a noted natural resource program economist, suggested that when land is 
voluntarily enrolled in WRE, there is a significant savings in 
government expenditures of commodity and crop insurance programs on 
these lands. This analysis estimates that enrolling 100,000 acres of 
cropland in WRE would save approximately $292 million over 10 years. 
For example, enrollment of 1 acre of cropland in WRE saves $53 per acre 
per year from those programs. 100,000 acres of enrolled cropland will 
yield a savings of approximately $292 million. In addition to these 
benefits to taxpayers, WRE also improves water quality and creates 
habitat for migratory birds, at-risk species, and resident wildlife, 
which in turn boosts rural economies as sportsmen and other wildlife 
enthusiasts recreate on these lands.
    Ducks Unlimited has been uniquely successful in continuing to carry 
on our mission during the COVID-19 pandemic. We seek to help farmers 
and ranchers that face similar immense financial challenges to continue 
to feed and provide for our nation. DU greatly values our producer 
partners who are the stewards to the wetlands and grasslands needed for 
waterfowl to feed and nest successfully. Whether through the obvious 
recreation opportunities and waterfowl habitat protections offered by 
wetlands, or the more discrete benefits provided by the many ecosystem 
services that the average person likely doesn't even know they benefit 
from, wetlands are the answer for a lot more problems than you'd think. 
Perhaps now more so than ever, we rely on our public and private 
partnerships to continue to deliver on our mission to conserve and 
restore waterfowl habitat that provides countless benefits for both 
people and wildlife.
    Thank you for the opportunity to speak with you today. Please don't 
hesitate to ask if you have any questions that I may be able answer.

    The Chair. Thank you, Dr. Waldrop.
    And Mr. Coppess, please begin when you are ready. You are 
recognized for 5 minutes.

       STATEMENT OF JONATHAN W. COPPESS, J.D., ASSISTANT 
          PROFESSOR OF LAW AND POLICY, DEPARTMENT OF 
 AGRICULTURAL AND CONSUMER ECONOMICS, UNIVERSITY OF ILLINOIS, 
                           URBANA, IL

    Mr. Coppess. Great. Thank you, Chair Spanberger, Ranking 
Member LaMalfa, and Members of the Subcommittee. Greetings from 
the kind of weirdly quiet campus of University of Illinois, and 
thank you very much for inviting me to testify today.
    I am going to focus my remarks on working lands 
conservation, and I want to try to use a lens based on 
competition. If I may, I would like to ground my remarks a 
little bit in the learned experiences of my dad, Bill Coppess. 
My family's farm, as you mentioned, is in western Ohio, and I 
got to admit that most of what I know about farming and 
conservation, I can credit to him. Look, I am not at all 
objective, but I would argue that my dad represents the best in 
American farmers. He is a natural contrarian and experimenter, 
as well as a committed conservationist who has lived out the 
basic concept that is he sees it as his responsibility to leave 
things better than he found them.
    A couple of examples: In 1998, he convinced my grandfather 
at the time to go all in on no-till, replacing all the tillage 
equipment to avoid even being tempted to go back on no-till. He 
is also one of the first in our area, if not the first, to 
start experimenting with cover crops. In fact, he and my 
brother added wheat to the operation, corn and soybean farm, 
around 2007 in order to break up the rotation and improve the 
ability to establish cover crops. We have had some pretty 
amazing experiences with cover cropping over the years.
    But you know, they have never really done better than break 
even on the wheat, even as they progressed around cover 
cropping itself. And that leads me to this comment I want to 
make about competition.
    Here is another story. About a dozen years ago, they took 
on a new lease. The soils on the fields were in pretty bad 
shape, and so they went to work using no-till and cover crops 
to improve soil health and soil quality. A couple of years ago 
then, one of the larger, more aggressive farmers in the area 
wanted that lease and offered them much higher cash rent. Now 
look, to the landlord's credit, he appreciated what Dad and my 
brother were doing and he stuck with them and they kept the 
lease. But please recognize that had the other farmer 
succeeded, years of work and sunk in costs invested to improve 
the health and quality of those soils would have gone to the 
next farmer, the new tenant, who would benefit from that work 
but was probably unlikely to continue it. And this is kind of 
that tough reality around competition, particularly at the 
local level on things like cash rent, as well as what farmers 
are willing and able to pay for those rare fields that actually 
come up for sale. These are common advantages for larger 
investment farmers who are able and willing to bid up and then 
spread out the costs on a larger acreage footprint. I wouldn't 
dismiss some of the contribution we are seeing from the 
expanded amount of payments going in.
    Look, conservation takes work. It adds risk and management 
complexity. The farmer has to be willing to experiment and 
learn by trial and error. And more, right after more than 30 
years of no-till and more than a dozen years of using cover 
crops, Dad still hears significant skepticism around the area. 
The self-assured assuring themselves and anyone who will listen 
that it just won't work.
    Conservation comes with costs, real costs. It is an 
investment that will not likely be returned at any crop year, 
and probably unlikely to ever exceed the total cost.
    Consider some of the budget analysis that I want to 
highlight from my colleague, Dr. Gary Schnitkey, here at 
Illinois, looking at Midwest corn and soybean farms. He is 
finding right now negative returns for 2018 and 2019. Those 
returns have been offset somewhat by the positive returns for 
soybeans, but it is a negative on corn and positive on 
soybeans. But much of the worst of this has been prevented by 
the really large payments that we have seen come out the last 
couple of years. And so, as he looks forward with 2020 and 
2021, he is forecasting a worsening situation, the degree of 
bad really depending on the amount of payments that may or may 
not be there.
    For example, in 2019 for Illinois, if we blend the corn and 
soybean budgets together to 50/50 rotation, the farm would lose 
about $100 per acre without any Federal payments, but falls 
just above the break-even point, around $5 an acre with those 
payments. We see that significant situation. It should go 
without saying that losing money per acre makes for a rather 
difficult management situation. Now try adding costs for 
conservation practices. If you are investing in conservation, 
you are unlikely to have room in the budget to pencil out top-
dollar land purchases or top-dollar cash rents. You are not out 
there buying the new equipment, and that can have a cascading 
series of consequences, some of which may be more painful than 
others. And there are only so many options for cutting costs. 
Each can have implications for the farmers' ability to compete, 
and that can be magnified as we add costs through conservation.
    But how do we help farmers adopt conservation and stay 
competitive? Clearly, cost-share Federal systems can really 
help, if it is available. For example, Illinois EQIP might pay 
$45 an acre for cover crops, which would make up the difference 
for the cost of that, but is there ever enough funding 
available to hit the acreage we need? For example, the last 10 
years or so we have averaged about $13 million per year, so at 
$45 an acre, that is only 288,000 acres. Half of it for 
livestock, we are down to less than 150,000 acres. In a state 
like Illinois that has 24 million acres of cropland, it would 
probably take about $1 billion a year just to cover the cover 
crops.
    This is kind of where I am sort of making an argument for 
rethinking in some form or fashion some of the working lands 
conservation policies and doing so in a way that better blends 
elements of risk: Price, yield, revenue. Those are the focus of 
farm programs and crop insurance.
    I also want to briefly raise the need for more research, 
and in particular, more and better data. The 2018 Farm Bill 
made strides in that way around data. The data that crosses the 
lines between conservation and crop insurance, risk management, 
financial management and more that really is comprehensive 
around this farming operation.
    I also just want to highlight a couple quick examples 
around research and demonstration, one of which is the 
Precision Conservation Management Project led by the Illinois 
Corn Growers, and has received RCPP funding and is really 
designed to help blend that financial management and the 
conservation adoption management process. And also, I get kind 
of lucky timing. Today, a project I am a part of is launching a 
web-based cover crop decision support tool for farmers in 
Illinois to allow them to get a sort of dashboard readout of 
what modeling work or simulated cover crops are doing in those 
fields. We will have a farmdoc daily article on that later 
today that will provide the website and more information.
    Let me just conclude with reiterating this perspective from 
the farmer around working lands conservation. The importance of 
those policies being relevant to issues of risk and competition 
and helping adopt conservation and better compete in what is 
becoming an increasingly difficult farm economy, which has been 
discussed across the board. Policies that better blend farm 
risk and conservation should result in a much better return on 
that taxpayer investment, and there are as many ways to achieve 
this as there are program components. Ultimately, the challenge 
we have here is we look at these policies as on the farm 
program and support side, these are very relevant to the 
farmers' operation, but they raise questions about the returns 
to the taxpayers. On the conservation side, we have clear 
return to the taxpayer, cleaner water and less soil erosion. 
But, we're challenged at times if it's relevant to the farmer 
and this focus on issues of risk and management. Blending these 
and looking for ways to do so, and I have a few ideas in my 
written testimony. I am happy to take questions about them. 
But, there is a lot here that we can explore and work with or 
work towards, particularly should the next farm bill discussion 
begin anytime in the near future.
    With that, I am sorry I went over. I appreciate the 
opportunity to be here and take questions. Thank you.
    [The prepared statement of Mr. Coppess follows:]

Prepared Statement of Jonathan W. Coppess, J.D., Assistant Professor of 
  Law and Policy, Department of Agricultural and Consumer Economics, 
                   University of Illinois, Urbana, IL
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee:

    Thank you for inviting me to testify today in this hearing on the 
``Challenges and Successes of Conservation Programs in 2020.'' I am 
currently on faculty at the University of Illinois in the Department of 
Agricultural and Consumer Economics.
    The focus of my work is on Federal agricultural policy and 
agricultural law; I teach two courses and have a partial Extension 
appointment with much of that dedicated to working with the farmdoc 
project team, including articles for farmdoc daily. Much of my research 
is on the history and development of American farm policy, including 
conservation.
    My remarks today will seek to discuss contemporary conservation 
issues with some application of the history and development of policy. 
I will focus my remarks almost exclusively on working lands 
conservation.
    If I may, I would like to begin with a bit of a story. Much of what 
I understand about farming and conservation I credit to my father, Bill 
Coppess. I grew up on my family's farm in western Ohio and, while I'm 
not at all objective, I would argue that my Dad represents the best in 
American farmers. He is a natural contrarian and experimenter, as well 
as a committed conservationist who lives out a basic concept: he sees 
it as his responsibility is to do leave things in a better place than 
when he found them.
    In 1988, as he and my Grandfather were guiding the farm out of the 
economic crisis of that decade, Dad convinced Grandpa that they should 
switch to no-till farming. Up to that point, I have strong memories of 
riding tractor in the fall to plow the harvested field and multiple 
times in the spring, tilling it up before planting. I recall snow with 
layers of dirt in it blowing against the barn wall in winter; and the 
pulverized soil ahead of the soybean drill.
    As Dad tells it, he convinced Grandpa that they had to dive all the 
way in and not merely transition. They sold all of the tillage 
equipment to purchase a no-till planter and drill, and they never 
looked back. But to this day, Dad can talk about the farmers in the 
area who swear no-till simply won't work and the landlords he had to 
convince that it wasn't trash on the fields, that he wasn't being lazy, 
but that it was important for the soil even if it didn't look as nice 
as the well-tilled fields.
    I remember the pride he took in the return of earthworms to the 
field in large numbers and what they were doing for the soil.
    He put in grass waterways and buffer strips along the creeks and 
ditches and was an early adopter of the Conservation Security Program 
after it was created in the 2002 Farm Bill.
    In fact, CSP helped he and my brother add wheat to the corn and 
soybean rotation around 2007 in large part to begin cover cropping 
practices because they established better in July than in the fall.
    He was one of the first, if not the first, to start experimenting 
with cover crops in our area. This practice has also been met with much 
skepticism; the self-assured assuring themselves and anyone who would 
listen that it just would not work, as well as having to explain it to 
landlords.
    Cover crops really brought out his experimentational side, from 
adding radishes and field peas only to have the rotting plants in the 
spring raise concerns that there were gas leaks, to various grasses and 
mixtures.
    One spring when he couldn't terminate annual rye in time, they went 
ahead and drilled soybeans into the standing rye; it turned out to be 
some of the best soybean yields they have yet had and the mat of dead 
rye helped suppress weeds.
    Walking fields at home a fence line isn't necessary, I can tell 
when one of our fields ends and the neighbor's begins by the feel of 
the dirt and the sounds--in our fields are insects but it is eerily 
quiet in the neighbor's.
    I tell these stories not just to brag on Dad--although I'm happy to 
do that--but for a point about what it currently takes for conservation 
to succeed in farming and what it takes for a farmer to succeed with 
conservation.
    It takes more work and it takes more than work; you have to be 
willing to experiment and tinker; learn by trial and error, often no 
small amount of error. You have to be willing to have those around you 
tell you that you are wrong and explain it (sometimes painstakingly).
    It also takes money.
    While I would consider the family farm successful, I'd guess that 
Dad has never made as much money as some of the larger, more aggressive 
farmers in our area. He didn't buy new pickup trucks or turnover 
equipment regularly; we never owned a boat.
    But, it is another anecdote on which I want to focus because it 
continues to run through my head.
    Over a decade ago, they began leasing a new farm and the soil was 
in bad shape. He had to convince the landlord to accept no-till and 
cover cropping but over quite a few years he could show some 
improvements in the soil in those fields.
    But a new challenge hit; one of the large, aggressive farmers in 
the area wanted the acres and offered a much higher cash rent, at a 
level Dad wasn't paying and couldn't pay.
    With the larger farmers this is not an uncommon advantage; they are 
often able and willing to bid up cash rent and then spread out the 
additional costs across a larger acreage footprint. I also wouldn't 
dismiss how increasing farm program payments might contribute to this 
as well.
    To the landlord's credit, he had come to respect what Dad was doing 
for the soil and while the rent increased it didn't increase all the 
way and Dad kept the lease.
    But, had the other farmer succeeded, he would have taken over the 
lease and benefitted from nearly a decade of work and investment to 
improve the soils. And he likely would have returned it to the state 
Dad found it in when he first began farming it.
    And these are what make functional and strong conservation policy 
incredibly important but also realistically difficult.
    It is a lot of work. But it is also an investment, one that will 
not pay off for years and many practices are unlikely to ever cover 
their costs.
    It adds risk, like not being able to terminate a cover crop in 
time. Waterways, buffers and filter strips take acreage out of 
production that would produce a crop, even if at lower yields; but they 
also mean having to plant and harvest around them.
    But it is the competitive risk that I would argue does not get 
talked about enough; this competitive risk is certainly not considered 
sufficiently in farm policy, conservation, payments and crop insurance.
    The farmer adopting conservation books additional cost in the 
operation's management and finances; cost-share only goes so far and, 
as will be discussed below, can be incredibly limited.
    The 5 year contracts under CSP are helpful, but the program has 
long been challenged with paperwork issues and other bureaucratic costs 
(changing rules; spotty implementation; etc.). And it struggles in the 
reality of leasing, landlords and tenancy.
    But even a CSP payment may not make up the difference.
    And like my landlord story, it is very possible that a farmer and 
the taxpayer can invest in years of conservation on a farm but have it 
all lost to a more aggressive farmer who will pay a higher cash rent, 
skip the conservation work and maximize what he can get out of the 
ground.
    Farming is hyper competitive, especially at the local level and 
among neighbors. Much of it comes through competition over cash rents 
and the increasingly rare farmland sales. If you are investing in cover 
crops and conservation you are unlikely to have the room in the budget 
to pencil out top dollar land purchases or cash rent; and that has a 
cascading series of consequences, some more painful than others.
    If anecdote is insufficient, the numbers bear this out.
    My colleague, Dr. Gary Schnitkey is arguably the foremost expert on 
Midwest row crop farm management and budgeting issues. I'm including 
his revenue and cost projects for central Illinois corn and soybean 
farms for 2018 through the 2021 projections from a recent farmdoc daily 
article (Figure 1).\1\
---------------------------------------------------------------------------
    \1\ Schnitkey, G., K. Swanson and N. Paulson. ``Release of 2021 
Crop Budgets.'' * farmdoc daily (10): 143, Department of Agricultural 
and Consumer Economics, University of Illinois at Urbana-Champaign, 
August 4, 2020, https://farmdocdaily.illinois.edu/2020/08/release-of-
2021-crop-budgets.html.
    * Editor's note: the article titles are hyperlinked. However, the 
hyperlink for the article also follows the date of publication; 
historically, the hyperlinks are published in parenthesis, in this 
publication they are not.
---------------------------------------------------------------------------
Figure 1. Schnitkey, et al. (2020), crop budgets, farmdoc daily

            Table 1. Revenue and Cost Projections for Central Illinois, Northern Illinois, 2018-2021P
----------------------------------------------------------------------------------------------------------------
                                                         Corn                              Soybeans
                                        ------------------------------------------------------------------------
                                           2018     2019    2020P     2021P     2018     2019    2020P    2021P
----------------------------------------------------------------------------------------------------------------
Yield per acre                               214      191      210      212        67       58       62       62
Price per bu                               $3.60    $3.66    $3.25    $3.40     $9.27    $8.81    $8.25    $8.50
----------------------------------------------------------------------------------------------------------------
                                          $/acre   $/acre   $/acre   $/acre    $/acre   $/acre   $/acre   $/acre
----------------------------------------------------------------------------------------------------------------
  Crop revenue                              $770     $699     $683     $721      $621     $511     $512     $527
  ARC/PLC                                      0       10       35       30         0       10       35       30
  MFP payments                                 1       75        0        0       111       75        0        0
  CFAP payments                                0       26        0        0         0       11        0        0
  Other Federal aid \1\                        0        0       80        0         0        0       80        0
  Crop insurance proceeds                      6       12        0        0         6       10        0        0
                                        ------------------------------------------------------------------------
    Gross Revenue                           $777     $822     $798     $751      $738     $617     $627     $557
                                        ------------------------------------------------------------------------
  Fertilizers                                126      134      125      123        32       34       31       31
  Pesticides                                  61       54       60       60        36       33       36       36
  Seed                                       112      107      112      113        66       63       73       73
  Drying                                      15       28       15       15         0        1        1        1
  Storage                                     10       10       10       10         4        4        4        4
  Crop insurance                              24       23       23       22        16       15       15       14
                                        ------------------------------------------------------------------------
    Total direct costs                      $348     $356     $345     $343      $154     $150     $160     $159
                                        ------------------------------------------------------------------------
  Machine hire/lease                          24       26       26       26        21       22       22       22
  Utilities                                    6        6        6        6         5        5        5        5
  Machine repair                              28       27       27       27        24       23       23       23
  Fuel and oil                                21       17       17       17        18       14       14       14
  Light vehicle                                2        2        2        2         1        2        2        2
  Mach. depreciation                          63       58       58       57        54       49       56       56
                                        ------------------------------------------------------------------------
    Total power costs                       $144     $136     $136     $135      $123     $115     $122     $122
                                        ------------------------------------------------------------------------
  Hired labor                                 23       23       23       23        20       20       20       20
  Building repair and rent                     6        9        9        9         3        4        4        4
  Building depreciation                       16       15       17       17         8        8        8        8
  Insurance                                   10       10       10       10        10       10       10       10
  Misc.                                       10        9        9        9        10        9        9        9
  Interest (non-land)                         23       26       26       27        19       22       22       22
                                        ------------------------------------------------------------------------
    Total overhead costs                     $88      $92      $94      $95       $70      $73      $73      $73
      Total Non-Land Costs \2\              $580     $584     $575     $573      $347     $338     $355     $354
                                        ------------------------------------------------------------------------
      Operator and Land Return \3\          $197     $238     $223     $178      $391     $279     $272     $203
                                        ------------------------------------------------------------------------
        Cash rent                            253      253      253      253       253      253      253      253
                                        ========================================================================
          Farmer Return \4\                 ^$56     ^$15     ^$30     ^$75      $138      $26      $19     ^$50
----------------------------------------------------------------------------------------------------------------
\1\ Other Federal aid is built in for 2020 based on expectations. No programs have been legislated or announced.
\2\ Sum of direct, power, and overhead costs.
\3\ Equals gross revenue minus total non-land costs, and represents a return to the land owner and farmer.
\4\ Equals Operator and land return minus cash rent.
Source: Historical values come from Illinois Farm Business Farm Management (FBFM). Summaries can be found in a
  paper entitled ``Revenues and Costs for Illinois Grain Crops'' available in the management section of farmdoc.

    That budget analysis for 2019 corn includes $699 per acre in crop 
revenue, with $356 per acre in direct operating costs, another $136 per 
acre for power costs, and overhead costs of $92 per acre. Once cash 
rent is factored in at $253 per acre, the farm would be losing $138 per 
acre. In 2019, he is factoring in $123 per acre in Federal assistance 
for the farm budget to get back close to break-even (^$15/acre).
    Soybeans fare a bit better at $26 per acre return but only because 
of Federal payments and lower costs for soybeans: take out the payments 
and the $511 per acre in crop revenue is consumed by costs, with cash 
rent being the largest and the farmer loses $80 per acre.
    If we blend these into a 50/50 corn and soybean rotation, the farm 
comes out at a loss of $109 per acre without Federal payments but 
barely pulls above break-even at $5.50 per acre.
    It should go without saying that losing money per acre makes for a 
difficult management situation.
    Try adding costs for conservation.
    There are only so many options for cost reductions: for corn, 
fertilizer, pesticide and seed costs make up a significant share.
    Gary and the team have done a lot of work on cost cutting efforts, 
including: tillage; \2\ fertilizer; \3\ and harvest operations.\4\
---------------------------------------------------------------------------
    \2\ Swanson, K., G. Schnitkey, N. Paulson, C. Zulauf and J. 
Coppess. ``Cost Management: Tillage Operations.'' farmdoc daily (10): 
151, Department of Agricultural and Consumer Economics, University of 
Illinois at Urbana-Champaign, August 18, 2020, https://
farmdocdaily.illinois.edu/2020/08/cost-management-tillage-
operations.html.
    \3\ Schnitkey, G., L. Gentry and S. Sellars. ``Cutting Fertilizer 
Rates to Save Costs.'' farmdoc daily (10): 155, Department of 
Agricultural and Consumer Economics, University of Illinois at Urbana-
Champaign, August 25, 2020, https://farmdocdaily.illinois.edu/2020/08/
cutting-fertilizer-rates-to-save-costs.html.
    \4\ Swanson, K., G. Schnitkey, N. Paulson, C. Zulauf, J. Coppess 
``Cost Management: Harvest Operations.'' farmdoc daily (10):158, 
Department of Agricultural and Consumer Economics, University of 
Illinois at Urbana-Champaign, September 1, 2020, https://
farmdocdaily.illinois.edu/2020/09/cost-management-harvest-
operations.html.
---------------------------------------------------------------------------
    And, still, cash rents remain a substantial factor in the 
budget.\5\ And it is one that may be increasingly difficult to manage 
as record levels of Federal payments are made to farmers--it is tough 
to negotiate lower rents when the landlord knows you are getting $80 to 
$100 per acre in Federal payments promoted with great publicity.
---------------------------------------------------------------------------
    \5\ Schnitkey, G., K. Swanson, C. Zulauf, N. Paulson and J. 
Coppess. ``Cash Rents in 2020 and 2021.'' farmdoc daily (10): 147, 
Department of Agricultural and Consumer Economics, University of 
Illinois at Urbana-Champaign, August 11, 2020, https://
farmdocdaily.illinois.edu/2020/08/cash-rents-in-2020-and-2021.html; 
Schnitkey, G., D. Lattz, K. Swanson and C. Zulauf. ``Cash Rents in 2020 
and 2021 Projections.'' farmdoc daily (10): 165, Department of 
Agricultural and Consumer Economics, University of Illinois at Urbana-
Champaign, September 15, 2020, https://farmdocdaily.illinois.edu/2020/
09/cash-rents-in-2020-and-2021-projections.html.
---------------------------------------------------------------------------
    The most straight forward practice is adding cover crops to the 
rotation. Previous work with Gary and other colleagues on this for the 
2018 budgets remains informative. If the corn budget estimate at the 
time was about an $89 per acre loss, adding a cereal rye cover crop and 
including a credit for nitrogen pushes the loss to $108 per acre, or 
about an additional $20 per acre loss.\6\
---------------------------------------------------------------------------
    \6\ Swanson, K., G. Schnitkey, J. Coppess and S. Armstrong. 
``Understanding Budget Implications of Cover Crops.'' farmdoc daily 
(8): 119, Department of Agricultural and Consumer Economics, University 
of Illinois at Urbana-Champaign, June 28, 2018, https://
farmdocdaily.illinois.edu/2018/06/understanding-budget-implications-of-
covercrops.html.
---------------------------------------------------------------------------
Figure 2. Swanson, et al. (2018), farmdoc daily

   Table 3. Corn Revenues and Costs, Central Illinois High Productivity 2018 Baseline Corn Budget Compared to
                                             Budget with Cover Crops
----------------------------------------------------------------------------------------------------------------
                                                Baseline                  Rye + N     Rye/Vetch    Rye/Vetch + N
                                                 Budget     Cereal Rye     Credit       Blend         Credit
----------------------------------------------------------------------------------------------------------------
Yield per acre                                        205          205          205          205             205
Price per bu                                        $3.60        $3.60        $3.60        $3.60           $3.60
                                             -------------------------------------------------------------------
  Gross revenue                                      $738         $738         $738         $738            $738
                                             -------------------------------------------------------------------
Fertilizers                                           130          130          130          130             130
  N Credit                                              0            0           ^9            0             ^18
Cover Crop Seed                                         0           15           15           45              45
                                             -------------------------------------------------------------------
    Total direct costs                               $372         $387         $378         $417            $399
                                             -------------------------------------------------------------------
Drilling                                                0           13           13           13              13
                                             -------------------------------------------------------------------
    Total power costs                                $121         $134         $134         $134            $134
                                             -------------------------------------------------------------------
      Total non-land costs                           $563         $591         $582         $621            $603
      Operator and land return                       $175         $147         $156         $117            $135
                                             ===================================================================
        Farmer Return                                ^$89        ^$117        ^$108        ^$147           ^$129
----------------------------------------------------------------------------------------------------------------

    To be fair, these are merely estimates and averages across multiple 
(although actual) farms and they are only snapshots; much depends on 
individual farm management.
    But the challenge for conservation on working lands is clear: it 
adds costs, more work, additional risk and more management complexity. 
And these get translated into the competition issue as amongst farmers, 
locally, nationally and around the world.
    I argue that these are the critical factors relevant to working 
lands conservation policy and it all can be understood by the issue of 
competition.
    Look again at cover crops. This is a critical practice for reducing 
nutrient loss from farm fields, especially tile-drained fields in 
places like central Illinois. The research on this is relatively clear 
and getting better.\7\ In short, a cover crop growing during the fallow 
season scavenges residual nitrogen (or nitrogen applied in the fall) 
and stores it in the plant biomass. Nitrogen held by the plant is not 
available for export by precipitation and spring melt and is thus 
prevented from being lost to waterways. Among the benefits, cover crops 
can improve the overall health of the soil by adding soil organic 
matter, improving water retention or holding capacity and potentially 
provide some weed suppression. They also capture and store carbon in 
their biomass.
---------------------------------------------------------------------------
    \7\ I pulled together a lot if it for an earlier law review 
article. See, Coppess, Jonathan W. ``A Perspective on Agricultural 
Policy in the Age of Nutrient Loss.'' Drake J. Agric. L. 23 (2018): 29. 
Some of the best work on cover crops is being led by Dr. Shalamar 
Armstrong at Purdue University. See e.g., Ruffatti, M.D., Roth, R.T., 
Lacey, C.G., & Armstrong, S.D. (2019). ``Impacts of nitrogen 
application timing and cover crop inclusion on subsurface drainage 
water quality.'' Agricultural Water Management, 211, 81-88. Nevins, 
Clayton J., Corey Lacey, and Shalamar Armstrong. ``The synchrony of 
cover crop decomposition, enzyme activity, and nitrogen availability in 
a corn agroecosystem in the Midwest United States.'' Soil and Tillage 
Research 197 (2020): 104518. Roth, Richard T., et al. ``A cost analysis 
approach to valuing cover crop environmental and nitrogen cycling 
benefits: A central Illinois on farm case study.'' Agricultural systems 
159 (2018): 69-77.
---------------------------------------------------------------------------
    The benefits to the farmer are likely small and incremental, taking 
years of cost to get improvements in soil health while other farmers 
make up deficiencies with fertilizer and intensity in the short run 
allowing them to out-compete.
    For cover crops, the most immediate and significant benefits accrue 
off the farm, however. Less nitrogen in the waterways improves drinking 
water, lakes and rivers, and should contribute to a decrease in hypoxic 
or dead zones such as in the Gulf of Mexico, or algal blooms such as in 
western Lake Erie.
    A cost-share program such as the Environmental Quality Incentives 
Program (EQIP) can certainly help; at $45.34 per acre for a basic cover 
crop practice in Illinois the payment should cover the cost 
differences.\8\ According to NRCS data, Illinois has averaged about $13 
million per fiscal year in EQIP financial assistance. At that payment 
rate, the program could pay for 288,677 acres of cover crops in 
Illinois; according to the Census of Agriculture, there is just over 24 
million acres of cropland in Illinois. By statute, 50% of EQIP funds 
are marked for livestock cutting the total potential for EQIP cover 
crops down to 144,339 acres or about 0.6% of the cropland in the state.
---------------------------------------------------------------------------
    \8\ U.S. Dept. of Agric., Natural Resources Conservation Service, 
Illinois Payment Schedules, https://www.nrcs.usda.gov/wps/portal/nrcs/
detail/national/programs/financial/?cid=nrcs
eprd1328235 (accessed, Sept. 28, 2020).
---------------------------------------------------------------------------
    This highlights another challenge for conservation policy; there 
has yet to be enough funding available to sufficiently meet the need. 
For EQIP to pay for cover crops on all 24 million acres of cropland in 
Illinois would cost over a $1 billion each fiscal year.
    Nationally, we've averaged just over 330 million acres of total 
cropland used for crops and about 250 million in the major row crops; 
320 million acres of harvested cropland per the 2017 Census.
    Take the Conservation Stewardship Program as another example; at 
the $18 per acreage average payment rate, the 320 million acres of 
harvested cropland would require $5.76 billion each fiscal year, which 
exceeds the entire baseline for conservation programs in the farm bill 
(average $5.4 billion per fiscal year).
    The Congressional Budget Office estimates that the 2018 Farm Bill 
will spend an average of $20 billion each fiscal year on farmers 
through ARC/PLC program payments, crop insurance and conservation.\9\ 
This comes out to about 42% of the funds on crop insurance, 31% of the 
funds on ARC/PLC, and the $26.8 billion for conservation over 5 years 
constitutes 27% of the funds.
---------------------------------------------------------------------------
    \9\ Congressional Budget Office, ``Details About Baseline 
Projections for Selected Programs: USDA Mandatory Farm Programs'' 
(March 2020): https://www.cbo.gov/system/files/2020-03/51317-2020-03-
usda.pdf.
---------------------------------------------------------------------------
    According to USDA records, the average acres insured by crop 
insurance from 2010 to 2019 was 286 million and the average base acres 
for ARC/PLC was 253.5 million, while the average acres under 
conservation contracts was just over 50 million; working lands programs 
account for about half (24 million acres) of the conservation total. 
Figure 3 provides the annual acreage per category.
Figure 3. Total Acres by Category (USDA)
Total Program Acres 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          (USDA: RMA, FSA, NRCS).

    Clear from this overview, the acres enrolled in conservation 
programs lag far behind the other two categories and far in excess of 
the differences in funding. If we use harvested cropland in the 2017 
Census for comparison, insured acres are 89% of total harvested, base 
acres are 79% and conservation acres are 16% of total harvested.
    The history of each category of policy development may offer some 
insights into these disparities. All three categories of programs 
originated with the New Deal efforts of the 1930s.
    Farm support policy was enacted in 1933 with the Agricultural 
Adjustment Act. Within 5 years, the Agricultural Adjustment Act of 1938 
had established the basic parameters of the parity system: price 
supporting, non-recourse loans (forfeiture if prices were below loan 
rates); acreage allotments for reduction or diversion; and marketing 
quotas if approved by farmer referendum. In 1973, Congress modified the 
system significantly by prioritizing income supporting deficiency 
payments when prices were below a target price. Loan rates were 
established below target prices as a further backstop on low prices. 
Finally, the system of payments was decoupled by the 1996 Farm Bill, 
which was modified in 2002 by reintroducing target prices; the 2008, 
2014 and 2018 Farm Bills also included revenue-based (prices times 
yields) policy, known known as Agriculture Risk Coverage (ARC). 
Throughout the more than eighty years of farm support policy, low 
prices has been the overwhelming focus.
    Crop insurance was first created in the Agricultural Adjustment Act 
of 1938 but was initially only for wheat. It would develop slowly; 
little used, expensive and ineffective, the George H.W. Bush 
Administration proposed eliminating it in favor of ad hoc disaster 
assistance in 1990. It was the Agricultural Risk Protection Act of 2000 
that installed crop insurance as the primary risk management vehicle. 
Critical were the permanent inclusion of revenue-based insurance 
policies with major crops in many areas able to insure up to 85% of 
their revenue, as well as a substantial increase in the amount of the 
insurance premium covered by the Federal Crop Insurance Corporation. 
Today, on average, 62% of total premiums are paid for by the Federal 
taxpayer. Here again, the increase in crop insurance participation can 
be partially linked to the inclusion of price risk in the form of 
revenue policies.
    Conservation policy developed in an entirely different manner. It 
first came into existence as a soil erosion control policy during the 
catastrophic dust storms of the Dust Bowl with the Soil Erosion Control 
Act of 1935. Less than a year later when the Supreme Court nullified 
the 1933 AAA as unconstitutional, Congress responded immediately by 
enacting the Soil Conservation and Domestic Allotment Act of 1936. The 
1936 Act paid farmers to reduce planting of crops considered soil-
depleting (e.g., corn, wheat and cotton) and increase planting of soil-
conserving crops (e.g., grasses and legumes). Notably, Congress 
appropriated roughly $500 million for the program, which adjusted for 
inflation to 2020 dollars would be over $9 billion per fiscal year. The 
goal of the program, however, was less about conservation than about 
helping farm income by reducing planted acres of oversupplied 
crops.\10\
---------------------------------------------------------------------------
    \10\ See, Coppess, J. ``The Conservation Question, Part 2: Lessons 
Written in Dust.'' farmdoc daily (9): 200, Department of Agricultural 
and Consumer Economics, University of Illinois at Urbana-Champaign, 
October 24, 2019, https://farmdocdaily.illinois.edu/2019/10/the-
conservation-question-part-2-lessons-written-in-dust.html; Coppess, J. 
``The Conservation Question, Part 3: Lessons in Settling Dust.'' 
farmdoc daily (9): 210, Department of Agricultural and Consumer 
Economics, University of Illinois at Urbana-Champaign, November 7, 
2019, https://farmdocdaily.illinois.edu/2019/11/the-conservation-
question-part-3-lessons-in-settling-dust.html.
---------------------------------------------------------------------------
    Conservation was effectively replaced by the 1938 AAA and then 
largely lost during World War II and the Korean War. It was the Soil 
Bank program created in the Agricultural Act of 1956 that re-instituted 
a version of conservation policy. The Soil Bank included two programs: 
(1) the acreage reserve paid farmers to reduce planted acres of 
oversupplied program crops by diverting them into conservation purposes 
in a short-term (3 years or less) contracts; and (2) a conservation 
reserve paid farmers to remove less productive acres from farming and 
place them in a long-term (up to 10 years) contract and under 
conservation cover. The Soil Bank was inexplicably short-lived; the 
acreage reserve was not renewed for the 1959 crop and the conservation 
reserve was allowed to expire after 1960.\11\ At its peak, the acreage 
reserve removed just over 21 million acres from production and the 
conservation reserve peaked at 28.7 million acres in 1960.\12\
---------------------------------------------------------------------------
    \11\ See, Coppess, J. ``The Conservation Question, Part 5: Seeds of 
the Soil Bank.'' farmdoc daily (10): 3, Department of Agricultural and 
Consumer Economics, University of Illinois at Urbana-Champaign, January 
9, 2020, https://farmdocdaily.illinois.edu/2020/01/the-conservation-
question-part-5-seeds-of-the-soil-bank.html; Coppess, J. ``The 
Conservation Question, Part 6: Development of the Soil Bank.'' farmdoc 
daily (10): 13, Department of Agricultural and Consumer Economics, 
University of Illinois at Urbana-Champaign, January 24, 2020, https://
farmdocdaily.illinois.edu/2020/01/the-conservation-question-part-6-
development-of-the-soil-bank.html; Coppess, J. ``The Conservation 
Question, Part 7: Losing the Soil Bank.'' farmdoc daily (10): 31, 
Department of Agricultural and Consumer Economics, University of 
Illinois at Urbana-Champaign, February 20, 2020, https://
farmdocdaily.illinois.edu/2020/02/the-conservation-question-part-7-
losing-the-soil-bank.html.
    \12\ See, Coppess, J., G. Schnitkey, N. Paulson, K. Swanson and C. 
Zulauf. ``Production Controls & Set Aside Acres, Part 1: Reviewing 
History.'' farmdoc daily (10): 117, Department of Agricultural and 
Consumer Economics, University of Illinois at Urbana-Champaign, June 
26, 2020, https://farmdocdaily.illinois.edu/2020/06/production-
controls-set-aside-acres-part-1-reviewing-history.html; Coppess, J. 
``The Conservation Question, Part 4: An Overview of Acres.'' farmdoc 
daily (9): 215, Department of Agricultural and Consumer Economics, 
University of Illinois at Urbana-Champaign, November 14, 2019, https://
farmdocdaily.illinois.edu/2019/11/the-conservation-question-part-4-an-
overview-of-acres.html.
---------------------------------------------------------------------------
    Importantly, both the 1936 and 1956 programs used conservation as a 
method to remove acres from production because of an oversupplied 
commodity situation; this was conservation in service to price support 
policy. It was the Food Security Act of 1985 that built the foundation 
of modern conservation policy. During the depths of the 1980s farm 
economic crisis, Congress created the modern Conservation Reserve 
Program (CRP), as well as conservation compliance. CRP pays an annual 
rental payment to remove environmentally sensitive acres from 
production for 10 to 15 years. Conservation compliance is a quasi-
regulatory policy that requires compliance for eligibility for Federal 
farm payments and, since 2014, for the crop insurance premium subsidy. 
Compliance is based on having a plan to control erosion in place for 
highly erodible land (HEL), and for wetlands, eligibility is lost if 
wetlands are drained for farming or if previously drained wetlands are 
used for production.
    CRP as created in 1985 was also an acreage reduction program, 
albeit with a stronger focus on conservation and the environment. 
Working lands conservation was not implemented until decoupling of farm 
policy in 1996 with EQIP, and then with a major increase of funding in 
the 2002 Farm Bill, as well as creation of the Conservation Security 
Program (CSP). The 2008 Farm Bill modified CSP and renamed it the 
Conservation Stewardship Program, with a goal of increasing acres by 
roughly 10 million each year.
    A review of the history and development of these policies helps 
highlight the significant challenges for working lands conservation 
policy. Acres enrolled in conservation are far below program and 
insured acres but bringing them to an equivalent level with payments 
would likely be prohibitively expensive in the baseline. As such, 
funding is insufficient to meet the need on the scale of acres that 
remain in production.
    Possibly more important, working lands conservation lacks any 
connection to farm risk issues that are the most relevant to the 
farmers who would necessarily undertake the conservation practices. 
Farm support programs have always involved market price risk in some 
form or fashion; crop insurance acceptance and popularity took off when 
price risk was incorporated through revenue-based policies. Working 
lands conservation policies do not incorporate price or yield, or 
revenue, risks.
    And here we arrive at the most fundamental issue for all of farm 
policy. Farm program payments are relevant to the farmer but cannot 
answer the toughest question: what is the return on the taxpayer's 
investment? The massive increase in payments by the Trump 
Administration only magnifies this challenge. Crop insurance can answer 
this question better because it is an insurance program helping farmers 
remain in operation after disaster strikes in a crop year (yield losses 
or in-crop year price losses).
    Conservation policy can answer that question, funds paid to achieve 
conservation on working lands represent an important return on the 
taxpayer investment. Working lands are a large source of nutrient 
loading that cause problems for water quality, as well as for soil 
erosion and for the need for irrigation in the drier climates. Working 
lands conservation policy is not, however, as relevant to the farmer 
because it does not incorporate prices or yield risk, and with 
insufficient funding it is not able to reach the scale and scope 
necessary for the conservation challenges. At the farm level, the lack 
of relevance to risk and the shortfalls in funding limit the ability of 
conservation policy to help those farmers adopting conservation 
practices on working lands compete with other farmers who do not.
    One argument for reconsidering conservation policy results from 
these observations. If working lands policies incorporated elements of 
price and yield (or revenue) risk, they would be more relevant to the 
farmers. For one thing, conservation assistance would increase in years 
of low prices and incomes (or revenue) but decrease in years when the 
farmer received strong revenue or income from higher prices. It would 
also help with scale and cost; more acres could receive conservation 
practices but at a far lower cost in the CBO baseline, similar to how 
farm programs and crop insurance operate.
    An example can be found in a concept introduced during the 2018 
Farm Bill debate but which was not included in the bill. Illinois 
Representatives Bustos and Bost introduced H.R. 4988, the 
``Conservation Assistance Loan Act of 2018.'' In full disclosure, I had 
the privilege to work on this concept with Illinois Farm Bureau, and 
they advocated including it in the 2018 Farm Bill. I raise it here more 
as an example and for general consideration.
    In short, the conservation option in the MAL program would permit 
farmers who agree to undertake conservation practices to receive a 
higher loan rate. The bill used a floating average based on 75% of the 
national average marketing year average price for the previous 5 years 
to set the loan rate. For example, for corn in 2020 that loan rate 
would be $2.67 per bushel instead of $2.20 per bushel. In addition, if 
the producer agreed to plant cover crops the loan rate would include an 
additional $0.20 per bushel.
    Critical to this is how the loan program works. The farmer borrows 
at the loan rate on bushels already harvested and in the bin. Nine 
months later when the loan is to be repaid, the average prices at the 
time determine repayment. If prices are above the loan rate, the farmer 
repays the entire loan (plus minimal interest). If, however, the prices 
are below the loan rate the farmer pays back at the lower market price 
and the rest of the loan is forgiven (a loan gain). This provides some 
buffer against price risk and for a farmer adopting conservation, the 
higher loan rate would be a better buffer.
    It is an example of one way to begin thinking about incorporating 
price and/or yield risk into working lands conservations (or vice 
versa). It also serves as an example about how programs could be 
designed to help level the competitive playing field; a farmer 
receiving a higher loan rate because she or he is implementing 
conservation practices would improve their competitive position as 
compared to farmers who did not implement the practices and received a 
lower loan rate. The basic aspects of this concept could be generally 
applicable across programs or policies.
    For what it is worth, I tend to think that a loan concept holds 
particular appeal for working lands conservation policy. In short, it 
provides funding to the farmer in advance and likely as many 
conservation implementation costs are being implemented (e.g., cover 
crops). It also avoids some of the bureaucratic challenges about having 
farmers check all the boxes in advance; because repayment of the loan 
can be tied to performance on conservation practices, the check on 
farmer compliance can happen later and based on actual efforts. There 
are, of course, many details and issues that would have to be worked 
out on any policy along these lines. I raise it not as a fully designed 
concept but merely a matter for consideration; food for thought about 
how working lands conservation and price or yield risk can be blended 
into a single program.
    Before I close, and at the risk of crossing Subcommittee 
jurisdictional lines, I would like to highlight the vital importance of 
research, education, extension, demonstration and outreach to 
conservation in general, and to working lands conservation, in 
particular. Land-grant universities and the Extension system are 
critical partners and leaders but the challenges in the wake of the 
[COVID]-19 pandemic are magnifying many underlying issues and 
challenges.
    For conservation and research, the critical need is data; data that 
crosses over with farm programs and crop insurance/risk management; 
data from farms and field trials that can be used to demonstrate 
further to other farmers; remote sensing data and more. The 2018 Farm 
Bill took a big, important step on this front, but more is needed.
    In addition, I want to highlight a couple of projects. The Illinois 
Corn Growers have taken a significant step towards advancing 
conservation and nutrient loss reduction with the Precision 
Conservation Management (PCM) project that was accepted in the Regional 
Conservation Partnership Program. This is an effort to combine farm 
financial data and business operational management with conservation 
adoption, implementation and management. It has incredible and 
outstanding potential to advance conservation and is already producing 
great data and information for farmers to use. Full disclosure, I have 
had a minor role in the project and continue to provide in-kind 
contributions. For those interested, please check out the website: 
https://www.precisionconservation.org/.
    Finally, I have been working with a group of programmers and 
researchers at the University of Illinois on a project to develop a 
web-based decision support tool for cover crop practices in Illinois. 
I'm proud to announce that we are launching the web-based tool today 
and it can be found here: https://covercrop.ncsa.illinois.
edu/. This project has been a partnership with the National Center for 
Supercomputing Applications (NCSA) on campus to take open-source 
modeling for in-field cover crop growth and make it usable, accessible 
and understandable in a web application. More information will be 
forthcoming in a farmdoc daily article that will be published today. 
This is merely the first (beta) version of the tool and we will be 
improving it, adding functionality and features, and expanding it as we 
go forward. I want to think the Illinois Nutrient Research & Education 
Council for generous funding and technical advice on this project, as 
well as the project team that has done such great work. I think it 
holds potential not just for farmers and the increasing adoption of 
cover crops, but as a potential example of a method for advancing the 
demonstration and translation of agricultural research, helping move 
more of it from the laboratories and field trials into the farmer's 
hands and fields.
    In conclusion, I appreciate the Subcommittee offering the 
opportunity to provide extensive thoughts on this important topic. As 
you undertake efforts to further consider, and reconsider, working 
lands conservation policy, I want to reiterate my encouragement for 
taking into that consideration issues of farm-level competition and the 
relevancy of the policies and programs to the farmer. Better 
incorporation of farm risks such as prices and yields can help with 
program design, making it more relevant to the farmers needed to adopt 
the practices and likely helping them better compete in the 
increasingly difficult farm economy. Doing so might also help expand 
conservation practices to far more acres without a substantial increase 
in Federal spending. Policies that better blend farm risk issues and 
conservation should result in a much better return on the taxpayer's 
investment in agriculture. There are as many ways to achieve this as 
there are program design components.

    The Chair. Thank you so much, Mr. Coppess.
    At this time, Members will be recognized for questions in 
order of seniority, alternating between Majority and Minority 
Members. We will be recognized for 5 minutes each in order to 
allow us to get to as many questions as possible. Please keep 
your microphones muted until you are recognized in order to 
minimize background noise. When 1 minute is left, the light 
will turn yellow, signaling time is close to expiring.
    I will begin by recognizing myself for 5 minutes, and I 
would like to draw on a theme that I heard from Mr. Coppess and 
Mr. Patterson.
    Mr. Coppess, you told a brief story about the efforts that 
your father began undertaking on his farm as early as 1998. New 
practices, no-till, cover crop. You mentioned some of the 
skepticism that he still continues to experience from his 
neighbors.
    And then Mr. Patterson, you were talking about the 
shortages of qualified professionals, and I was wondering if 
both of you could comment on what you see in terms of workforce 
needs, in terms of expertise. What are those shortages that we 
should be looking at that would ensure that we could continue 
moving forward in the conservation space in a place that 
benefits the local economy, benefits farmers and producers; and 
certainly, has the overall positive benefits of conservation 
practices?
    And I will open it up to either of you to begin with your 
feedback to that very general question.
    Mr. Coppess. Steve, go ahead.
    Mr. Patterson. Excuse me?
    The Chair. I believe he opened it to you, Mr. Patterson, 
first.
    Mr. Patterson. Okay. I think one of the biggest challenges 
based on visiting with people that work with the Commonwealth 
of Virginia--the nutrient management specialists that work with 
the Commonwealth of Virginia. One of the bigger challenges is 
just the number of people that write plans, the people that 
[inaudible], and the ability to partner with each other to make 
sure we get as much acreage out of these plans we possibly can. 
It does go back to what has been mentioned today, which is more 
funding, both in the state and the Federal level, going 
forward.
    The Chair. And Mr. Coppess, would you want to add anything 
to that?
    Mr. Coppess. Well, I absolutely agree that the personnel on 
this is incredibly important. I want to just say briefly that 
having had the chance to work with Chief Norton when he was a 
detailee on the Senate Agriculture, Nutrition, and Forestry 
Committee, I appreciated hearing and seeing him today, even 
virtually, and know he does great work.
    But, as an example of the kind of incredible effort that 
comes out of the agencies to help out and help farmers as they 
sort through the variety of issues that you need around 
managing and putting in place and maintaining conservation 
practices. So, that is critical. Natural--the water 
conservation districts are incredibly important as well, and 
investing in these infrastructures, particularly at this time 
with stressed state budgets, as was mentioned, state and local 
budget challenges. I see a lot of opportunity there to invest 
in the people that help carry this out and help farmers adopt.
    The Chair. Thank you very much, Mr. Coppess.
    And that leads me beautifully into my next question, which 
is focused on COVID-19 and the public health crisis. As you 
mentioned, state and local budgets have been hit hard, and 
especially when some had only just begun recovering from a 
prior economic recession. I have been a strong advocate for 
Federal support to state and local governments in any future 
COVID relief related package, and given the Soil and Water 
Conservation Districts and their dependence on state and local 
funds, in addition to Federal resources.
    Mr. Palmer, could you comment on what challenges we might 
see if there is not additional support to state and local 
governments, and what that might mean for conservation efforts 
across the country?
    Mr. Palmer. Yes, Madam Chair. I thank you for the 
opportunity to address this. We have a system that is put in 
place based on partnerships. The relationship between the 
citizenry of my county with our local Soil and Water 
Conservation District board, and our relationship with our 
state and national partners. And then that all helps the 
producers to better tend their land and provide that safe and 
secure food supply that we all rely upon.
    Given the fact that budgets are being stressed because of 
these outside influences from COVID, the sales tax that is 
coming into the State of Iowa is going to be very, very light 
compared to what it was just because so many businesses have 
been closed. Those dollars, they are going to have to readjust 
budgets. They are going to have to look at where they can cut 
prices, places where they can make budget cuts. We are very 
afraid that that can affect our local county budgets in many 
ways, and put more of the management onto the shoulders of our 
local citizenry with property taxes and other ways.
    The Chair. Thank you very much, Mr. Palmer, and thank you 
to the witnesses again for your answers and for being here 
today.
    I now recognize the gentleman from Georgia for 5 minutes.
    Mr. Allen. Thank you, Madam Chair, and thank you, panel, 
for being with us today.
    My first question is to all of the panelists, and of 
course, we heard about the problems with staffing. But from the 
standpoint of challenges that you have witnessed that prevent 
producers from adopting conservation practices, what is the 
resistance to adopting these practices? Could all of you 
comment on that, please?
    Mr. Patterson. I can comment on that. This is Steve 
Patterson.
    I specifically asked that question of an individual 
[inaudible] here in Virginia, and his answer was kind of 
surprising to me. He goes I almost hate to admit this, but the 
producer who struggles--myself to talk about himself. Well, for 
us, Southern States, the opportunity there is we--I really 
think that we need to start communicating more together, and 
that means sitting down with the Department of Conservation, 
sitting with the NRCS more often. Understanding challenges and 
deciding to help bridge the gap. I think we'll get there so we 
can help bridge the gap.
    Mr. Allen. Would any of the other panelists care to comment 
on the challenges with farmers adopting these programs, farmers 
and ranchers?
    Mr. Palmer. Yes, I would take a shot at that. One thing 
that we are dealing with is a generational transition from 
older farming ways and habits to different equipment, different 
technologies that we are able to work with today, but that 
conception that has been supported over time by nutrient 
recommendations, other things that we have gotten over time 
that have not caught up with the innovation now are still a 
hold back to the way things are done.
    Also, the disappearance of [inaudible] from our landscape 
in Iowa, for example, has really changed the way that light 
could be utilized. Where I could use cover crops in my 
operation to grow beef, others don't have that luxury, and it 
makes it difficult for them to think about growing something 
that is going to compete with a crop and the management that 
comes along with it without being able to fully realize the 
long-term effects of something that they are going to be 
starting on the soil and the effects it has on the soil.
    Mr. Allen. Mr. Patterson, with regard to the staffing issue 
and the advent of technology in dealing with conservation 
practices, can you tell me what we have been able to do 
technically to accelerate this program and to be good 
conservationists, and how that affects staffing and the 
abilities of staff to deal with new technologies in the 
conservation area?
    Mr. Patterson. If I understand your question right, I think 
the technologies are being adaptive. I think that I would say 
agreement that technology industry into the fields, such as 
precision ag technology, communication technology. Once again, 
it is a matter of more of a team effort between government and 
industry working together to make sure the producers have all 
ends available. And I am not sure I answered your question.
    Mr. Allen. Right. Yes, what I was trying to tie together is 
the staffing issues versus technology. As we know, technology 
can reduce the requirement of the number of people involved in 
a process in manufacturing and other industries are adopting 
that. But you bring up a really good point, and I will finish 
up as my time runs out with this.
    It sounds like--well, the biggest problem I have with the 
Federal Government is this one size fits all top down approach, 
and it really looks like we need to empower our farmers and 
ranchers to work together with the Federal Government to come 
up with the right practices.
    Thank you, Madam Chair, and I yield back.
    The Chair. The chair now recognizes the gentlewoman from 
Maine for 5 minutes.
    Ms. Pingree. Thank you, Madam Chair, thank you to all the 
panelists. I really appreciated hearing from all of you, and 
thought there was a lot of interesting information there.
    Mr. Coppess, you talked a little bit about the point that 
programs are about doing the right thing, but also conservation 
needs to make financial sense for the farmers, which is 
certainly a huge challenge. What potential do you see for 
additional incentives for things like carbon sequestration, 
either government letter from the private-sector in addressing 
that issue, as opposed to another revenue source?
    Mr. Coppess. Yes, thank you, Congresswoman. I actually see 
incredible potential there, because what we are talking about 
setting up a market or getting that market jump-started, is no 
small hurdle. I don't want to underplay that. But the idea that 
those practices began--whether it is ecosystem services or 
private market, those practices at the farm level, that extra 
work, that extra time, the complexity in management the farmer 
puts into it, gets rewarded back based on what they are doing. 
It is an incredible opportunity.
    I talked about the competitive aspect of farmers. I think 
of the idea of a carbon market or ecosystem market as really 
turning that farmer competition in a healthy way towards trying 
to maximize what they can restore in soils through cover crops 
and that sort of thing. I think it is a great opportunity.
    Ms. Pingree. Just a quick follow-up. A lot of conversation 
goes on about the best kinds of measurements. Is it about 
inputs or about performance? Also, who should be engaged in 
there? Is there a fair amount of gains? Is this a role for the 
USDA? Do you have an opinion on those topics?
    Mr. Coppess. USDA would have an important role in all of 
that, helping measure it, in helping work with the farmers, and 
particularly that technical assistance around adopting those 
practices in the field.
    A shameless plug, our land-grant universities and extension 
system are an incredible partner, along with the Soil and Water 
Conservation Districts as well.
    Ms. Pingree. And I hope I can at least support your 
shameless plug, all the important and under-funded and 
underutilized.
    Just another thing--and while I appreciate all the other 
panelists, I don't want to shun them, but I just have another 
question from your perspective.
    You have done some analyses on farmers' financial decision 
making as we were talking about it, and how these practices fit 
into management and budget choices. Can you talk a little bit 
about how you consider climate change-related risk, for 
example, reduced yields for extended drought like most states 
are experiencing--we are even experiencing it in Maine, which 
is unusual--when you are conducting those analyses, and just as 
a second part of that, how do we make sure the crop insurance 
programs recognize the climate-related risks and better 
incorporate conservation practices that might mitigate them, 
two big explosive topics?
    Mr. Coppess. That is a very big and difficult question. I 
appreciate it.
    We have to do a better job, just to be perfectly frank, 
across the board as we examine risks for farming. And it is not 
just droughts and wildfires and floods, it is things like the 
incredibly short planting season being drastically impacted by 
spring rains and that sort of thing. And if you think about a 
cover crop practice that you have to terminate in that same 
time period, this just adds to that set of challenges. 
Beginning to do a lot more, the data issue, the data needs, 
like the 2018 Farm Bill included more work around data. To me, 
particularly with crop insurance, it is a data intensive 
effort, so a lot of that has to be moving in that direction. 
But it is a challenge. It is such an unknown, and the more we 
build in resilience efforts, the more we are thinking about 
this not just in terms of can I get in this year and make it 
through, although that can't be discounted, but what does this 
mean longer-term? If I can work this in and begin to be more 
resilient over the longer-term, those are important factors. 
But I don't want to discount the difficulty that is going to 
have.
    Ms. Pingree. Absolutely, but it is really important.
    One last little sort of section of this, and this has come 
up with a couple of other people. And again, I am just going to 
ask you the question. This whole issue about when you are a 
tenant farmer, you are renting, you do those inputs. You really 
had a great example of your father's experience. But do you 
have a little bit more to say about how to get more landowner 
buy-in in those programs, and what way to incentivize that?
    Mr. Coppess. Well, I am not sure how necessarily to 
incentivize. I think that is a question that is one really to 
chew through and work on and wrestle over.
    One of the things we have been trying to do through the 
Farm Back Project that I also know some schools have been doing 
as well is working on that lease. Can we--so we have created 
conservation addendums for this sort of model farm leases that 
we provide out that are available on the website, and we have 
done some webinars around that to say look, this is a contract 
between you and the farmer or you and the landlord. The more 
you negotiate and talk about these things, explain what you are 
doing--which again is an experience my Dad had. The more you 
explain no-till, that it is not just leaving trash on the 
field, but it is actually doing beneficial work for the soil, 
or why is something growing green in early March, right? 
Working through those issues in advance in that lease is a huge 
step forward for the farmers and the landlord, because they are 
working those issues out, and everybody can then better 
understand it.
    That is one area having the near-term incentives and all 
that is a difficult topic to work out.
    Ms. Pingree. I totally understand, and again, thank you. I 
am out of time, but again, I have a couple of other questions 
and I will submit it for the record.
    But thank you again to the other panelists, and a 
particular shout-out to Ducks Unlimited. You guys do such great 
work in all of our states, and I appreciate your plowing 
through during this challenging time.
    Thank you, Madam Chair. I yield back.
    The Chair. The chair now recognizes the Ranking Member for 
5 minutes.
    Mr. LaMalfa. Thank you again, Madam Chair.
    For Dr. Waldrop from Ducks Unlimited, again, thank you for 
being part of this panel here. I wanted to ask you a couple 
thoughts about the issue with the Klamath Lake and Klamath 
Basin and the refuge up there, and what are your thoughts on, 
and what is Ducks Unlimited's view, on what should be going on 
there, and what can they do to help push for the water supply 
that we need, et cetera? What is DU's involvement on that?
    Dr. Waldrop. I don't have a lot of details for you on 
Klamath. I know we are involved up there and we are working 
with partners and everything. I would have to defer to our 
regional specialist for details regarding any of the issues. Is 
there something specific regarding that? Are you talking like 
as far as water supply and everything else?
    Mr. LaMalfa. Well, we have, as you know, a terrible duck 
kill up there on the lake with a water supply problem that we 
could go all day on that itself here. But the water has to come 
through the agricultural system up there in order to reach the 
refuges, and the supply was short this season, even though many 
of us thought there was plenty of water in the lake. Is DU part 
of advocacy for more water through the ag system into the 
refuge? Because again, we have a disaster in the Pacific Flyway 
in the making with the duck kill going on up there.
    Dr. Waldrop. Yes, sir. In that respect, absolutely we are 
working, again, with partners and doing other things that we 
can do to help deliver water. That is a lot of what we have 
been working on as far as projects to help with that water 
delivery and to help with the Klamath Lake and refuge, and 
ensure that those water supplies are there.
    Of course, water is a huge issue in California, as well as 
all throughout the western states, so it is something that is 
always being worked on and improved. But, through the 
partnerships that were encouraged to work on projects that will 
help with the water delivery in that situation.
    Mr. LaMalfa. Yes, absolutely.
    Dr. Waldrop. You are right, it is a big problem, and with 
all of the ag partners out there, whether it is rice or 
anything else and being able to flood those waters at different 
times to provide important nutrients in food and water for 
waterfowl is extremely important, which goes back to a lot of 
those programs that are so critical in that area and throughout 
that region to ensure not only good ag production, but also 
with habitat, food, water for waterfowl as well.
    Mr. LaMalfa. Yes, the rice is, of course, \1/2\ million 
acres of it 2, 3 hours, 4 hours south of that area is a good 
partner. A lot of the nesting goes on up north there into 
Klamath, but it does emphasize that we need to work with NRCS 
to have more nesting and cover to be able to be set-aside, 
maybe actually in rice country too, since the lake situation is 
pretty dire. Again, I was up there some weeks ago there. We 
went out on an airboat and we were recovering a lot of dead 
duck carcasses, but also saved some live ones that were 
surviving. And they had a duck hospital up there on one edge of 
the lake area, and they were getting a 90 percent recovery on 
the rescued sick ducks. It was pretty amazing.
    But we do need to have maybe more partnership opportunities 
with NRCS down in rice country for fallowed ground, and the 
ability to have more nesting and more habitat farther down in 
the valley too and spread this risk out.
    Dr. Waldrop. I think that would be a fabulous idea, and 
with a lot of the wetlands being lost all through, Sacramento 
Valley and all through there, that rice really has become a 
very important part of the nutrient availability, whether it is 
in nesting or food availability, much more than it was decades 
ago. So, it is very important to those programs.
    Mr. LaMalfa. All right. Well, I have already eaten up all 
my time, so thank you for that.
    I will yield back.
    The Chair. The chair now recognizes Representative Axne 
from Iowa.
    Mrs. Axne. Thank you, Chair Spanberger, and thank you to 
all of our witnesses for being here today. I am going to go 
straight to my Iowa friend.
    Tim, I first want to quickly talk about the derecho that 
hit Iowa just a few weeks ago, and certainly I am thankful that 
most of our district wasn't as impacted as other parts of Iowa. 
But with your position in Iowa agriculture, what have you been 
hearing about the recovery efforts for our farmers?
    Mr. Palmer. Thanks for that question, Congresswoman. I 
don't think anybody knows really what we are dealing with right 
now. The recommendations to destroy a crop or try to harvest 
it, it is going to be a trail of tears until we get through 
well into next year trying to figure out what the effects of 
leaving a crop and working it into the soil as opposed to 
trying to harvest it. There is just no way to plan for 
something like that. Every conservation practice in the world 
wouldn't offset the damage that was done there. Hopefully the 
nutrients that are recaptured can help buffer the producers 
that didn't harvest this year, and with the addition of the 
crop insurance, they can survive to grow another year. But it 
is going to be very difficult.
    Mrs. Axne. Well, thank you for that update. My colleagues 
have heard me talk about this before, but just so that everyone 
who is watching and who is on this is aware, Iowa has suffered 
a rare derecho which swept across the Midwest. We have never 
seen this storm before, and unfortunately, we had hardly any 
notice to prepare for it. It destroyed farmland, buildings, 
equipment, leaving millions without power. Actually for weeks, 
thousands still didn't have power. And then of course, last 
year we had historic flooding in my district well into 
Missouri, which folks are still recovering from. This couldn't 
be a more appropriate hearing today because we are seeing these 
unusual weather events due to changes in climate happening more 
and more, and the more that we can do from a conservation 
perspective to help protect against this impact, the better off 
we will be.
    Tim, I wanted to ask you. You touched upon this in your 
written testimony, but I would be interested to have you expand 
a bit on it. How can conservation programs make operations more 
resilient to help farmers recover from disasters after they 
occur?
    The Chair. And if I may interrupt quickly? Could all the 
witnesses mute their microphones if they are not answering? We 
are getting some feedback in the hearing room. Thank you.
    Mr. Palmer. Okay. Okay now?
    The Chair. Perfect.
    Mr. Palmer. Thanks again for the question, Congresswoman.
    When you are utilizing the current conservation practices 
that we have, we have longstanding conservation practices that 
have been vetted and enhanced over for decades. Terraces and 
ponds and the structures that we have put on the landscape that 
help mitigate the effects of flooding, our P.L. 83-566 Program. 
A lot of producers are not in those areas maybe under an 
organized watershed program, but their ability to have access 
to the technical support to build terraces and waterways and 
buffer areas is going to help retain their soil, if they can 
retain their soil, it is going to be there for production for 
the next year, and more sustainable. And if they add in the 
current knowledge that we have with cover crops and soil health 
measures, being able to store carbon with growing plants more 
of the year, it is going to eventually affect their bottom line 
because of the reduced inputs that they are going to be putting 
into a crop.
    Mrs. Axne. Well thank you, and I also want to make sure 
that farmers are part of any climate-focused efforts in 
Congress and that our farmers have buy-in as well so we can 
work towards that more resilient environment to ensure our 
farmers have that opportunity.
    Your written testimony succinctly laid out how landowners 
work with conservation districts, and you called it a gold 
standard. I am so grateful for that.
    Can you speak a little bit more to how districts and local 
working groups help inform NRCS in delivering the programs 
available through the farm bill that can help us create more 
buy-in from producers?
    Mr. Palmer. Dealing with the COVID problem has really 
opened a door for us with outreach to more people with the Zoom 
technology where we have the capability of producers and 
general citizens that haven't been involved or haven't had an 
understanding of what conservation districts can do to make 
their own little environment better. We have had the 
opportunity to reach out to them and get their input without 
trying to set up a meeting where they had to drive and sit 
there and wonder what this was all about. But the one-on-one 
that we have had the opportunity with is really important. That 
local input of what is desired at Madison County, for example, 
what resources do we need to treat? We need to be 
environmentally sound in our ag production, but the resource 
area, the oak savannahs, the wetlands, the things that we can 
provide as natural habitat that also have recreational 
opportunities, we take that input from them. We turn that into 
a plan, but we pass that on to our state headquarters in Des 
Moines, it is part of the overall planning for Madison County 
and for the state and for the country to take all that local 
information, turn it into programs that fit those priorities.
    Mrs. Axne. Well thank you. We are out of time so I yield 
back, but I am looking forward to working with you more on this 
in the future.
    Mr. Palmer. Absolutely. Thank you.
    The Chair. The chair now recognizes the gentleman from 
Ohio.
    Mr. Balderson. Thank you, Madam Chair.
    My question is for Mr. Coppess. Mr. Coppess, good morning.
    While we passed the most recent farm bill not even 2 years 
ago, the next farm bill is always in front of us. This summer, 
you and your colleagues at farmdoc wrote a piece that world 
market conditions suggest set-asides are not an effective farm 
policy for corn and soybeans. What led you to this conclusion, 
and in your view, if the next farm bill were to go all in on 
supply management programs such as acreage set-asides, what 
would be the impact on our farmers, our rural communities in 
the U.S. as an ag exporter?
    Mr. Coppess. Thank you, Congressman, and certainly, the 
set-aside issue is no easy matter to unfold. It has a long 
history, and so we were trying to break down what the variety 
of challenges are. All right, so if you take acres out of 
production in America for world-traded commodities, then we are 
going to see acreage expand somewhere else. Brazil is a great 
example, and if they continue burning rain forests to plant 
soybeans, we have not helped anybody's situation out much.
    What we were really focusing on was the historic set-aside. 
Every farmer puts ten or 15 percent in a set-aside program in 
order to be eligible for program assistance, and we find that 
it is a challenge around the world market situation. It is a 
challenge around even controlling supply. In fact, 
historically, set-aside acres have been less than effective in 
controlling supply, largely because what you are going to do is 
put your worst acres under set-aside and you end up maximizing 
production on the acres that remain in farming.
    And so, one of the things that we see is just that this 
policy, the set-aside, not to reuse the word, it was terminated 
in 1996 when we went decoupled acres in a different farm policy 
setup. And so, we do not think that there is a real value, 
particularly if we are looking to improve prices and those 
things.
    That being said, I also think, again, talking about 
conservation, there may be avenues in which it isn't a set-
aside program, but there are a lot of things we can do in 
fields across this country from buffers and waterways and other 
things that will be both conservation-focused and work in on 
the acres that are farming.
    We continue to try to sort this out, and this is a question 
that has come up quite a bit from farmers. It is also 
indicative of just the tough economic environment they find 
themselves in to ask about set-aside.
    Mr. Balderson. Okay, thank you.
    My follow-up question, you pretty much answered that. I was 
asking for what lessons we can learn from the acreage set-aside 
programs from the 1960s, 1970s, and 1980s. If you want to add 
to that you could, but thank you.
    Mr. Coppess. Thank you, sir. I don't know if I have 
anything more I can add to that, so I appreciate it.
    Mr. Balderson. Madam Chair, I yield back. Thank you.
    The Chair. Excellent. Before we adjourn, I invite the 
Ranking Member to share any closing comments that he may have.
    Mr. LaMalfa. Thank you, Madam Chair. Again, I am 
appreciative of the panel and of Chief Norton's time here 
today, as the conservation programs that we know in ag and 
rural America have been very helpful in achieving the goal of 
habitat for wildlife and waterfowl, as well as make great 
partnerships for farmers to keep farming.
    As we heard today from USDA Natural Resource Conservation 
Service, as well as our partners like Ducks Unlimited and what 
that means to us in northern California, but across the whole 
fruited plain, it is extremely important. I appreciate this 
opportunity today, Madam Chair, for being able to hear them out 
and have an interaction and advise and know that our doors are 
open for continued work and streamlining improvement and how 
the process works.
    Thank you again, and I will yield back.
    The Chair. Thank you very much.
    And to our witnesses, thank you for your testimony today. 
This conversation has been so interesting. I have notes 
surrounding me, particularly in light of how we could look to 
conservation being part of the solution as we look to resolve 
and solve for resource challenges, presenting by a rapidly 
changing climate and certainly the COVID-19 public health 
crisis.
    I would like to thank USDA staff and the entire 
conservation community, including our farmers who are out there 
pushing forward on innovative, on-farm conservation practices, 
even amid the uncertainty that we have outlined today. I thank 
them for their work in these tremendous times, and I thank all 
of the witnesses for your work, your research, your dedication, 
and your focus on these vitally important issues. I look 
forward to continuing to work with all of you all, as well as 
with my colleagues here on the Committee.
    As we continue to implement conservation programs under the 
2018 Farm Bill, take active measures to continue to protect the 
environment and combat the climate crisis, and as we look ahead 
to work together towards our economic recovery, these 
conversations are so vitally important. And certainly in the 
back of all of our minds, informing our future work on future 
farm bills. It is a pleasure to have welcomed you all here 
today. Thank you for being with us. Thank you for your 
testimony, and thank you for your time, and thank you for your 
work.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Conservation and 
Forestry is adjourned.
    [Whereupon, at 11:54 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
                          Submitted Questions
Response from Kevin D. Norton, Acting Chief, Natural Resources 
        Conservation Service, U.S. Department of Agriculture
Questions Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question 1. While I was pleased to hear in your testimony about how 
NRCS was able to step up and help farmers as they adjusted to market 
and other disruptions caused by the ongoing COVID-19 public health 
emergency, I am concerned about how economic and other uncertainty may 
have impacted farmers and producers considering conservation. As such I 
am curious to learn more about how conservation programs are being 
utilized during this pandemic. To that end, I'd like to request you 
provide the Subcommittee with the following data:
    The number of qualified and complete applications, both successful 
and otherwise, for NRCS conservation programs over the last five years 
including 2020. Please also include, if available, the percentage of 
these that came from first-time applicants to these conservation 
programs.
    Answer. Under the Agricultural Management Assistance (AMA), 
Conservation Stewardship Program (CSP), and Environmental Quality 
Incentives Program (EQIP), NRCS received a total of 822,404 
applications between FYs 2016 and 2020. Of these, 267,950 became 
contracts, constituting 33 percent of the applications received.
    A total of 159,772 qualified applications remained in eligible, 
preapproved, and approved status. In addition, NRCS evaluated and 
categorized 300,073 applications as canceled, deferred, or ineligible. 
This set of applications was not funded.

          Note: The information regarding first-time applicants is not 
        readily available from our contracting system. We will analyze 
        our records and provide a follow-up report that is focused on 
        first-time applicants.

  NRCS Conservation Programs Percentage of Applications Contracted for
                         Fiscal Years 2016-2020
------------------------------------------------------------------------
                                                            Percent of
 NRCS Program by Fiscal    Applications      Contracts     Applications
          Year                                              Contracted
------------------------------------------------------------------------
Agricultural Management            1,056             449             43%
 Assistance (AMA) FY
 2020
  Fiscal Year 2019                   783             217             28%
  Fiscal Year 2018                   839             168             20%
  Fiscal Year 2017                 1,452             377             26%
  Fiscal Year 2016                   965             291             30%
                         -----------------------------------------------
    Total AMA                      5,095           1,502             26%
                         -----------------------------------------------
Conservation Stewardship          34,572          12,142             35%
 Program (CSP) \1\ FY
 2020
  Fiscal Year 2019 \1\            35,615          15,539             44%
  Fiscal Year 2018 \2\            23,081          10,878             47%
  Fiscal Year 2017                26,577          12,342             46%
  Fiscal Year 2016                30,404          12,336             41%
                         -----------------------------------------------
    Total CSP                    150,249          63,237             42%
                         -----------------------------------------------
Environmental Quality            129,690          35,082             27%
 Incentives Program
 (EQIP) \3\ FY 2020
  Fiscal Year 2019               155,365          43,462             28%
  Fiscal Year 2018               101,013          45,374             45%
  Fiscal Year 2017               138,837          41,079             30%
  Fiscal Year 2016               142,155          38,214             27%
                         -----------------------------------------------
    Total EQIP                   667,060         203,211             30%
                         ===============================================
      Grand Total                822,404         267,950             33%
------------------------------------------------------------------------
Data Source: ProTracts--REAP Approved
\1\ Includes CSP--Grasslands Conservation Initiative, and CSP--Regional
  Conservation Partnership Program data.
\2\ Includes CSP--Regional Conservation Partnership Program data.
\3\ Includes EQIP--Regional Conservation Partnership Program data.


                    NRCS Conservation Programs Application Status for Fiscal Years 2016-2020
----------------------------------------------------------------------------------------------------------------
                                                                 Applications Status
                                   -----------------------------------------------------------------------------
    NRCS Program by Fiscal Year         Pre-
                                      approved     Approved     Eligible     Deferred    Ineligible   Cancelled
----------------------------------------------------------------------------------------------------------------
Agricultural Management Assistance            0            0          186           69           38          177
 (AMA) FY 2020
  Fiscal Year 2019                            1            0          152           36           52          186
  Fiscal Year 2018                            1            0          117           70           58          261
  Fiscal Year 2017                            2            0          183          332           77          354
  Fiscal Year 2016                            0            0           77          259           63          163
                                   -----------------------------------------------------------------------------
    Total AMA                                 4            0          715          766          288        1,141
                                   -----------------------------------------------------------------------------
Conservation Stewardship Program              7            0        6,238        1,079        2,923        5,322
 (CSP) \1\ FY 2020
  Fiscal Year 2019 \1\                       25            0        4,940          113   3,1479,994
  Fiscal Year 2018 \2\                        0            0        1,291           97        2,318        7,081
  Fiscal Year 2017                            7            9        2,098          513        2,820        6,786
  Fiscal Year 2016                            7            0        6,607          926        2,585        5,974
                                   -----------------------------------------------------------------------------
    Total CSP                                46            9       21,174        2,728       13,793       35,157
                                   -----------------------------------------------------------------------------
Environmental Quality Incentives             29            3       36,457        7,585        6,611       20,002
 Program (EQIP) \3\ FY 2020
  Fiscal Year 2019                          682            0       47,418        2,710       10,172       26,366
  Fiscal Year 2018                           10            4        1,511       15,288       12,349       25,715
  Fiscal Year 2017                          464           17       24,805       18,038       12,429       25,899
  Fiscal Year 2016                          729            0       25,695       23,208       12,738       27,090
                                   -----------------------------------------------------------------------------
    Total EQIP                            1,914           24      135,886       66,829       54,299      125,070
                                   =============================================================================
      Grand Total                         1,964           33      157,775       70,323       68,380      161,370
----------------------------------------------------------------------------------------------------------------
Data Source: ProTracts--REAP Approved
\1\ Includes CSP--Grasslands Conservation Initiative, and CSP--Regional Conservation Partnership Program data.
\2\ Includes CSP--Regional Conservation Partnership Program data.
\3\ Includes EQIP--Regional Conservation Partnership Program data.

    Question 1a. The share of contracts through EQIP with dropped 
practices over the last five years including 2020. Please also include 
information on the percentage of these contracts that were ``single 
practice,'' ``multiple practices, partial completion,'' and ``multiple 
practices, zero completion.'' For those contracts with dropped 
practices, please also provide, if available, the percentage of first-
time applicants to the EQIP program included in that category.
    Answer. Under the Environmental Quality Incentives Program (EQIP), 
the Natural Resources Conservation Service contracted a total of 
203,211 applications between FYs 2016 and 2020. During contract 
administration, 99,769 contracts were completed, 10,992 canceled, and 
1,482 terminated. The EQIP contract period is, at a minimum, from the 
date of obligation through the last scheduled conservation practice or 
activity but may not exceed 10 years.

          Note: Single and multiple practice contracts and first-time 
        applicant data are not readily available through the NRCS 
        application/contract system. We will analyze our records and 
        provide a follow-up report that is focused on first-time 
        applicants.

               Environmental Quality Incentive Program Contract Status for Fiscal Years 2016-2020
----------------------------------------------------------------------------------------------------------------
                                                   Number of Contracts by Fiscal Year
          Contract Status          -----------------------------------------------------------------    Total
                                        2016         2017         2018         2019         2020
----------------------------------------------------------------------------------------------------------------
Active                                    4,893        9,775       17,931       24,673       33,696       90,968
Completed                                29,337       27,391       24,275       17,418        1,348       99,769
Cancelled                                 3,388        3,396        2,877        1,294           37       10,992
Terminated                                  596          517          291           77            1        1,482
                                   -----------------------------------------------------------------------------
  Total                                  33,321       31,304       27,443       18,789        1,386      203,211
----------------------------------------------------------------------------------------------------------------
Data Source: ProTracts (October 19, 2020).


    Question 2. Are there additional flexibilities that this 
Subcommittee should consider for conservation programs that would help 
maintain farmer engagement and reduce uncertainty fueled by the economy 
or the pandemic?
    Answer. NRCS conservation programs embody significant flexibility 
to address natural resource concerns. While the NRCS program portfolio 
meets a myriad of natural resource concerns at various levels of 
stewardship, these programs focus on implementation of practices that 
address long-term conservation objectives and were not designed for 
expeditiously meeting producers' acute needs for economic recovery 
following market disruptions or other economic uncertainty as a result 
of a pandemic.
    However, given the administrative burden associated with the 
statutory requirement that producers meet payment eligibility 
determinations, NRCS assistance often cannot be delivered to impacted 
producers as quickly as the circumstances warrant. Therefore, we ask 
that you consider disconnecting conservation compliance and adjusted 
gross income provisions for payments that are directly related to 
resolving producers' imminent resource concerns associated with 
inventory disruptions resulting from a pandemic. Although there was a 
small number of producers requesting such assistance through EQIP in 
Fiscal Year 2020, a narrow statutory exemption would enable us to 
remove some of the administrative burden for producers who are new 
customers but who have imminent needs that need to be addressed 
quickly. Authority for USDA, with producer consent, to confirm adjusted 
gross income with the Department of the Treasury directly would also 
expedite assistance to producers who require time-sensitive adoption of 
conservation practices. Additionally, we offer for consideration 
adjusting the provisions 1240B(d)(7) of the Food Security Act of 1985, 
as amended, to add ``(v) addresses resource concerns related to market 
disruptions as a result of a pandemic or other national catastrophe.''

    Question 3. The Great Plains is home to iconic species, Native 
nations, and rural communities and is an ecosystem in which nature is 
essential to culture and livelihoods. A healthy prairie provides clean 
water, stores carbon, supports wildlife, and provides livelihoods for 
communities; yet since 2014 we've been losing them at an average rate 
of four football fields per minute. Drawing on spatial cropland data 
collected by USDA, the World Wildlife Fund's (WWF) 2020 Plowprint 
Report found that approximately 2.1 million acres of intact grassland 
habitat in the U.S. and Canadian Great Plains were plowed for row-crop 
production in 2018. In the Northern Great Plains (NGP) region alone, 
approximately 550,000 acres were tilled--with wheat production the 
greatest driver of grassland loss (41 percent of newly-tilled land) 
followed by corn (9 percent) and soy (7 percent). Restoration projects 
are our best tool for repairing disturbed grasslands, but there is no 
real substitute for landowners, the private sector, and government 
working together to keep healthy grasslands from falling under the plow 
in the first place.
    Please describe how USDA will accelerate the protection of intact 
native grasslands, given their importance to producers as well as 
conservation and climate objectives?
    Answer. USDA is committed to helping America's producers protect 
the health and productivity of Great Plains grasslands. Through NRCS, 
USDA is working with our partners to identify and address the primary 
threats to intact grasslands through science-based technical assistance 
and strategic Farm Bill conservation program delivery. These approaches 
allow agricultural producers to maintain and improve the productivity 
of their operations while also enhancing and conserving grasslands.
    As you mention, grasslands are being lost through conversion to 
cropland. One of the important programmatic tools that the Farm Bill 
provides for conserving grasslands is the Grasslands of Special 
Significance flexibility available under the Agricultural Conservation 
Easement Program (ACEP) Agricultural Land Easements (ALE). So far, NRCS 
has enrolled over 450,000 acres into grassland easements, providing 
permanent protection from conversion to cropland or development.
    For example, through the Working Lands for Wildlife Sage Grouse 
Initiative, NRCS funded and used a model to identify those grasslands 
most at risk for conversion to cropland. By using this science to 
target enrollment in the Northern Great Plains of Montana, NRCS 
partnered with land trusts and producers to accelerate protection of 
intact grasslands using ACEP-ALE grassland easements. Targeted efforts 
to protect these critical grasslands accounted for fully one third of 
the acres enrolled in this program during the 2014 Farm Bill. Among 
other outcomes, this effort helped to conserve the longest known 
migration route for Greater sage-grouse and contributed to the 
protection of a major pronghorn migration pathway.
    Technological innovations, fueled by USDA investments, also shed 
light on another less well-known source of grassland loss. Data from 
the Rangeland Analysis Platform identifies where woody plant 
encroachment is threatening intact grasslands at a scale similar to 
that of cropland conversion, with trees increasing on over 108 million 
acres of Great Plains grasslands. Woody plant encroachment by trees, 
like eastern red cedar, takes land out of productive grazing lands and 
grassland wildlife habitat.
    To address this challenge, NRCS is teaming up with producers and 
partners across the Great Plains states to develop a new grasslands 
conservation strategy in the coming year. This plan will focus on ways 
to reduce the two major threats to grasslands in the region: woody 
plant encroachment and cropland conversion. Leveraging Rangeland 
Analysis Platform data on woody plant encroachment and cultivation 
risk, the strategy focuses on identifying large grassland cores where 
proactive Farm Bill investments can keep intact, but vulnerable, 
grasslands healthy.

    Question 4. How will you work with colleagues across the agency, 
and with Congress, to review and align incentives to achieve 
sustainable production goals that benefit people and the planet? The 
Sodsaver provision is a good example of this in practice, although it 
only applies to six states and could be expanded nationwide.
    Answer. NRCS has tailored the flexibility available through its 
financial assistance and easement programs to facilitate a producer's 
transition to comprehensive sustainable management of their operations. 
In particular, through the Environmental Quality Incentives Program 
(EQIP), a producer may address significant natural resource concerns. 
Building upon successfully addressing these resource concerns, NRCS can 
then offer an EQIP incentive contract where a producer wishes to 
address resources more comprehensively on part of their operation. When 
a producer wishes to raise the overall stewardship across the entirety 
of their operations, NRCS can offer enrollment in the Conservation 
Stewardship Program. NRCS easement enrollment options, through the 
Agricultural Conservation Easement Program and the Regional 
Conservation Partnership Program, fully support these efforts by 
protecting agricultural lands and restoring and protecting 
environmentally sensitive lands for future generations. These programs 
are currently available across the entirety of the United States.
    Interest in voluntary conservation programs remains high with only 
one in three applications being selected for funding. Given the strong 
competition for funding, NRCS is remaining focused on the locally led 
conservation process where priorities and criteria for selection are 
identified and influenced at the local levels through local work groups 
and State Technical Committees. It is at the local level where 
discussions on effective incentives and approaches to conservation 
adoption and adaptation begin. The working groups' and committees' 
knowledge of local conditions, motivations and partnership 
opportunities, coupled with NRCS outcomes information that is released 
through the Conservation Effects Assessment Project (CEAP) reports and 
through other avenues, analysis available from partners, and feedback 
we receive from producers and stakeholders, shapes national policy and 
recommendations we provide to USDA leadership for congressional 
engagement. In addition, the information we learn from the Conservation 
Innovation Grants provides valuable information regarding the effects 
of conservation efforts on agriculture production and the condition of 
our natural resources. We are working to make the results of these 
grants available more readily to the public through a public database 
that is targeted for release in calendar year 2021.
    The Farm Service Agency's (FSA) Conservation Reserve Program (CRP) 
is another key tool in achieving sustainable production goals. CRP 
helps protect the long-term health of soil by taking environmentally 
sensitive lands out of production and establishing land cover. In 
addition to conserving and improving the soil, land enrolled in CRP 
improves water quality, enhances wildlife population, provides 
pollinator forage habitat, sequesters carbon, and reduces downstream 
flood damages. FSA works closely with stakeholders on how best to 
manage the program while maximizing agricultural and environmental 
benefits.

    Question 5. Chief Norton, the 2018 Farm Bill authorized increased 
payments for ten high-priority practices under EQIP with flexibility 
for state determination of these practices. Up to 90% of the total cost 
of a practice may be covered for practices that improve water quality 
and quantity--which as you know, is pressing resource concern across 
Virginia. Can you touch on how NRCS is working with State 
Conservationists and Technical Committees to identify eligible 
practices and make payments available to producers?'
    Answer. State Conservationists, in consultation with the State 
Technical Committees, may select up to ten high priority practices for 
increased payment rates of up to 90 percent. NRCS State 
Conservationists must publish their list of conservation practices 
designated as high priority practices and the payment rates on the NRCS 
State website.
    NRCS developed the following national guidance for selection of 
high priority practices in FY 2020--
    A high priority practice must meet at least one of the following 
criteria:

  <bullet> Addresses specific causes of impairment relating to 
        excessive nutrients in ground or surface water;

  <bullet> Addresses the conservation of water, to advance drought 
        mitigation and declining aquifers;

  <bullet> Meets other environmental priorities and other priority 
        resource concerns identified in habitat or other area 
        restoration plans; or

  <bullet> Is geographically targeted to address a natural resource 
        concern in a specific watershed.

    In addition, states also could use the following optional criteria:

  <bullet> Practices that are identified through assessments already 
        completed at the area or state level and which have the 
        greatest impact on that resource concern;

  <bullet> Practices that have high potential for conservation benefit, 
        but which are underutilized; or

  <bullet> Practices that already are widespread and common should be 
        avoided, unless the State determines the practice provides a 
        specific purpose or identifies a geographic region for which 
        the practice is underutilized.

    Further, states are not required to select high priority practices, 
but if they choose to, states can select from one to ten high-priority 
practices. Additionally, States can choose a rate that best meets the 
objectives and incentivizes the use of the high priority practices, up 
to 90 percent.
    The payment process to producers for high priority practices under 
EQIP is based on the completed practices being certified as meeting 
NRCS standards and specifications as part of an EQIP contract.

    Question 6. NRCS has recently deployed the Conservation Assessment 
Ranking Tool (CART) to facilitate conservation planning and delivery. 
Can you provide us with an update on the integration/rollout of CART? 
What benefits have been achieved? What efficiencies have been gained?
    Answer. NRCS integrated the Conservation Assessment Ranking Tool 
(CART) with our Conservation Desktop and launched CART in January 2020. 
CART enables conservation planners to implement Farm Bill programs more 
efficiently and effectively by providing enhanced methodologies to 
assess resource concerns and to rank customer applications against 
multiple funding pools simultaneously.
    At the end of the FY 2020, NRCS used CART through 5,000 users and 
completed 127,000 ranked assessments on over 79 million acres, 
evaluating over 11 million resource concerns. This was 159 percent of 
the prior year's planning. FY 2020 was a transition year requiring 
field staff and partners to learn a new system. As the comfort level 
with CART continues to grow, efficiency gains will be fully realized 
and are expected to exceed those observed in FY 2020. As we look 
towards future implementation of CART, we are excited about adding 
additional enhancements and integrations, such as integrating the 
environmental reviews, adding detailed surveys, improving outcomes 
reporting and client products, incorporating the ability to import and 
export user data, and increasing access for partners and Technical 
Service Providers (TSPs).
    Through CART, NRCS planners are able to help address a variety of 
47 resource concerns, across seven land uses, and for 353 conservation 
practices, enhancements, and bundles simultaneously. It has modernized 
and streamlined NRCS' conservation planning and program delivery, 
reduced workload on field staff, and improved the customer experience 
by creating an efficient application process. CART methodologies 
include utilizing national and local geospatial data, configurable 
resource concern questions, configurable conservation practice resource 
concern impact points, and configurable funding pools that can be 
modified to address local needs.
    In addition, CART offers multiple benefits over previous program-
specific conservation planning systems, including:

  <bullet> Streamlined delivery of services and integration of all 
        financial assistance programs, resulting in one application and 
        one contract, regardless of program;

  <bullet> A centralized system for financial and technical assistance, 
        including planning, applications, and ranking;

  <bullet> A simplified, integrated planning and program application 
        process;

  <bullet> Improved conservation delivery through a program neutral 
        resource assessment, evaluation of alternatives, and 
        application ranking in one unified system;

  <bullet> Reduced time between program application and conservation 
        implementation by eliminating duplicative data entry processes; 
        and

  <bullet> Locally-led program flexibility, state customization, and 
        program prioritization based on planning and outcomes.

    Traditionally, NRCS clients have had to submit separate 
applications for each of NRCS program offerings. CART has established a 
system where clients can submit one application for consideration under 
different program enrollment options simultaneously (e.g., EQIP--
General, EQIP--Socially Disadvantaged, EQIP--Beginning Farmer, EQIP--
Air Quality, EQIP) thereby reducing the amount of paperwork on our 
clients and the administrative workload on our field offices. States 
have reported processing time for an application is about 15 minutes. 
This results in an estimated 7,500 hours reduction in staff time needed 
to help clients progress into the planning process in preparation for 
program contracting more quickly.
    Additionally, NRCS has traditionally employed over 120 technical 
tools to run in the conservation planning process (e.g., Revised 
Universal Soil Loss Equation 2 (RUSLE-2), Wind Erosion Prediction 
System, Stream Visual Assessment Protocol 2, Pasture Condition Score). 
The advent of CART enables planners to take advantage of almost 90-
geospatial layers of data to automate processing calculations during 
conservation planning. For example, NRCS conducts two RUSLE-2 runs to 
estimate the Soil Conditioning Index for Cover Crop, our highest 
invested conservation practice, taking an estimated 60 minutes to run. 
This practice was applied 221,672 times in FY 2020; which means to run 
RUSLE-2 twice for this practice approximately 221,672 hours were needed 
during planning. CART allows planners to select targeted questions, 
along with employing geospatial layers, to reduce this amount of time 
to a fraction of previous estimates. These gained efficiencies enable a 
planner to move a client from program application to program contract 
much quicker than in past years.

    Question 7. The Conservation Assessment Ranking Tool (CART) has 
only been in use since the beginning of this year. As we all learn more 
about this new tool, can you discuss CART's role in the Conservation 
Delivery process? At which points in the process does CART come into 
play? Does CART have any functionality to assess program impacts after 
practices have been implemented?
    Answer. NRCS traditionally has a nine-step conservation planning 
and delivery process that is broken into three phases--

  <bullet> Phase [I]--Collect and Analyze: (1) Identify Problems and 
        Opportunities, (2) Determine Objectives, (3) Inventory 
        Resources, (4) Analyze Resource Data

  <bullet> Phase II--Decision Support: (5) Formulate Alternatives, (6) 
        Evaluate Alternatives, (7) Make Decisions

  <bullet> Phase III--Implementation and Evaluation: (8) Implement the 
        Plan, (9) Evaluate the Plan

    CART fits into Phases I and II. For Phase I (Collect and Analyze), 
planners answer questions in CART about the existing condition of the 
client's site and identify potential resource concerns for assessment. 
Thresholds are used to compare the existing condition of the site to 
ideal conservation levels that meet NRCS planning criteria. For Phase 
II (Decision Support), planners can select planned conservation 
practices in CART and compare the overall results to formulate and 
evaluate alternatives to help client's meet conservation objectives.
    CART, along with Conservation Desktop, supports the conservation 
planner through the entire Conservation Planning Process. Initially 
CART assists the conservation planner with capturing resource inventory 
information from the farm, obtained either through a field visit or 
client interview. CART uses this information to assess the conservation 
needs on the farm and helps the planner explore various conservation 
practices, activities, and systems to address the concerns. CART then 
evaluates all NRCS programs for assistance options and ranks the plan 
within all the relevant programs.
    CART is geared towards better science and data driven conservation 
planning, which is in line with the multi-agency Conservation Effects 
Assessment Project that quantifies the environmental effects of 
conservation practices and programs. Presently, CART provides more 
information about the landscape in which conservation practices are 
applied and the proposed effects. NRCS is currently working to further 
integrate Conservation Effects Assessment Project effects with this 
information to better report the impacts of conservation practices.

    Question 8. I understand that USDA service centers are gradually 
beginning to reopen, with some available for in-person appointments and 
some available only for phone appointments. What factors are counties 
taking into account before the decision is made to reopen a USDA 
service center for in-person appointments? What percentage of USDA 
service centers are offering in-person appointments?
    Answer. Factors that we consider before the decision is made to 
reopen a USDA service center for in-person appointments include:

  <bullet> The operational need to return employees to the office;

  <bullet> Availability of masks for returning employees;

  <bullet> Availability of cleaning supplies or a scheduled cleaning 
        service;

  <bullet> The ability of a facility to increase the number of 
        employees present and still maintain appropriate social 
        distancing;

  <bullet> The status of state and local orders regarding COVID-19; and

  <bullet> The evaluation of community readiness for reopening, 
        focusing on a 14 day downward trend in new COVID-19 or no new 
        COVID-19 cases in the community in the last 14 days.

    As we have progressed through the COVID-19 pandemic, we have 
discovered that a simple downward trend in cases is not a full 
assessment of community readiness. We have added an analytical 
dashboard that provides a current 7 day rolling average of the number 
of new COVID-19 cases per 10,000 residents in each county. Drawing on 
several of the major risk models, we have utilized a rate of 1 case per 
10,000 residents per day as a trigger level for additional assessment. 
A facility with a 2 week downward trend in cases and a case rate below 
2.0 per 10,000 residents per day can request reopening. If the number 
is above 1.0 per 10,000 residents per day, we examine the change in the 
number of new cases over a 14 day period and whether there are any 
mitigating factors (such as a prison, college or nursing home with a 
high case load).
    USDA's Farm Production and Conservation Mission Area (FPAC) is 
using a multi-phase reopening plan, in accordance with USDA guidance. 
All facilities which reach Phase 2 can admit visitors by appointment. 
FPAC is tracking 2,730 total facilities. As of October 14, 2020, 1,243 
or 45 percent have reached Phases 2 and 3 and are allowing in-person 
visitors.

    Question 9. In the aftermath of Hurricane Laura, many Louisiana and 
Arkansas producers are still assessing and repairing damage to their 
farms. Can you discuss the NRCS emergency programs that are available 
to help farmers recover from hurricane damage?
    Answer. NRCS makes available the Emergency Watershed Protection 
Program (EWP Program), including EWP Program--Recovery and EWPP--
Floodplain Easements for states impacted by hurricanes. NRCS conducts a 
damage assessment of the area impacted by the hurricane and works with 
local sponsors to implement recovery measures. NRCS may also work 
directly with landowners impacted by repeated flooding by offering 
EWP--Floodplain easements.
    Though not an emergency program, NRCS State Offices have also 
responded by using EQIP funds and conservation practices that can be 
implemented quickly to assist farmers and ranchers respond to resource 
concerns created by hurricane damage. Recognizing the trend and the 
need to be able to respond more quickly, NRCS updated its EQIP policies 
to give States additional flexibilities to assist producers with 
addressing the unique resource concerns created by natural disaster 
events. This includes expedited announcement of funding opportunities 
and delegating authorities.
    At this time, Arkansas and Louisiana have not requested additional 
EWP funds or EQIP funds above their general EQIP allocation to address 
Hurricane Laura, but States can still request additional assistance 
once their damage assessments are completed.

    Question 10. This has been an especially challenging year for 
wildfire, with over 42,000 fires having burned more than 7 million 
acres nationwide so far. Can you discuss the role of NRCS programs in 
wildfire recovery and restoration?
    Answer. NRCS makes available the Emergency Watershed Program (EWP) 
for states impacted by wildfires. NRCS conducts a damage assessment of 
the area impacted by wildfire and works with local sponsors to 
implement recovery measures.
    Although not an emergency program, NRCS State offices have also 
responded by using EQIP program funds and conservation practices that 
can be implemented quickly to assist farmers and ranchers in addressing 
the resource concerns created by damage from wildfire. Recognizing the 
trend and the need to be able to respond more quickly, NRCS updated its 
EQIP policies to give States additional flexibilities to assist 
producers to recover from natural disaster events. This includes 
quicker announcement of funding opportunities and delegating 
authorities.
    At this time, California, Colorado, Idaho, and Washington have 
requested additional EQIP funds above their general allocation to 
address wildfires. States can still request additional assistance once 
their evaluations are complete.

    Question 11. Since the launch of farmers.gov in 2018, it seems USDA 
has placed increased focus on making services available to farmers 
online. Can you talk more about the features that are available to 
producers via the farmers.gov website? What feedback has the department 
received from producers? Do you anticipate any difficulty as USDA 
transitions from the Conservation Client Gateway to farmers.gov?
    Answer. USDA launched the Farmers.gov website in February 2018 to 
provide farmers, ranchers, and forest landowners with online self-
service applications, educational materials, engagement opportunities, 
and business tools to increase efficiency and productivity while 
preserving and fostering long-held traditional relationships between 
local USDA Service Centers and producers.
    The public-facing website also serves as a customer gateway and 
informational counterpart to an authenticated, transactional 
Farmers.gov portal where USDA customers can apply for programs, process 
technical and financial transactions, and manage accounts.
    USDA has used feedback from farmers and ranchers--as well as USDA 
employees who work directly with customers--to iteratively build the 
Farmers.gov website. Major releases are detailed below.

  <bullet> USDA released the original Farmers.gov Disaster Assistance 
        Discovery Tool (https://www.farmers.gov/recover/disaster-
        assistance-tool#step-1) in June 2018. Farmers who have suffered 
        damage or loss due to a natural disaster can answer five simple 
        questions about the disaster event, its impact, and their 
        location. After submitting their answers, farmers are given 
        information on USDA disaster assistance programs targeted to 
        the needs of their specific operation. This tool is meant to 
        provide immediate online support in times when local USDA 
        Service Centers could be closed. It is not an eligibility tool, 
        but instead provides insights into USDA resources for our 
        customers during a time when support is critical.

  <bullet> The Farmers.gov authenticated portal provides farmers and 
        ranchers a personalized account to securely conduct business 
        with USDA from their home or agricultural operation.

  <bullet> The Farmers.gov Market Facilitation Program (MFP) page was 
        launched in September 2018. MFP provided critical financial 
        support for farmers and ranchers whose commodities were 
        directly impacted by retaliatory tariffs, resulting in the loss 
        of traditional export markets.

  <bullet> USDA launched the original Farmers.gov H-2A Visa Program 
        Page (https://www.farmers.gov/manage/h2a) and H-2A Visa 
        Checklist (https://www.farmers.gov/manage/h2a/h2a-checklist) in 
        March 2019. The H-2A temporary agricultural workers program 
        helps American farmers who anticipate a lack of available 
        domestic workers fill employment gaps by hiring workers from 
        other countries. USDA partnered with the United States Digital 
        Service to develop the H-2A Visa Checklist tool, which brings 
        program requirements, fees, forms, and important dates into one 
        location. The checklist tool steps producers through the 
        process of applying to the program with reminders for specific 
        deadlines. The subsequent H-2A Visa Case Tracker (https://
        h2a.farmers.gov/SelfService/UI/case-tracker) was launched in 
        2020. This tool allows producers to check the approval of their 
        H-2A cases with the Department of Labor or U.S. Citizenship and 
        Immigration Services.

  <bullet> The ``My Financial Information'' feature was launched in 
        April 2019. This feature gives farmers and ranchers the ability 
        to view their farm loan information, interest payments for the 
        current calendar year (including year-to-date interest paid for 
        the past five years, loan advance and payment history) and 
        paid-in-full and restructured loans via their secure 
        farmers.gov portal account. Account alerts give borrowers 
        important notifications regarding their loans. For example, an 
        account alert will be displayed if a loan is past due.

  <bullet> In July 2019, USDA introduced the Farmers.gov Farm Loan 
        Discovery Tool (https://www.farmers.gov/fund/farm-loan-
        discovery-tool) to help producers find information on USDA 
        loans that best fit their business needs. The Farm Loan 
        Discovery Tool was developed in collaboration with GSA's 
        Customer Experience Center of Excellence. Over two years, they 
        talked with over 100 customers--both internal and external--to 
        identify commonly asked questions producers have when meeting 
        with a loan officer. Producers interested in USDA farm loans 
        can answer five simple questions about what they are looking to 
        fund and how much money they'd like to borrow. Based on these 
        answers, they receive farm loan information tailored to their 
        operation.

  <bullet> In February 2020, the new Conservation at Work video series 
        was launched on Farmers.gov. under the ``Conserve'' tab. 
        Conservation at Work, presents short and easy to understand 
        videos about popular conservation practices directly from the 
        farmers and ranchers applying them. These videos explain how an 
        individual conservation practice helps their land and why they 
        are using it, and accompany a suite of new conservation-focused 
        information on Farmers.gov including a new Conservation 
        Concerns Tool to be launched later this year.

  <bullet> In 2020, Farmers.gov served as a critical online resource 
        for America's farmers, ranchers, and private forest landowners 
        working with USDA during the coronavirus pandemic. Farmers.gov/
        coronavirus was published in March 2020 to deliver information 
        on USDA program flexibilities and services in response to the 
        pandemic, including updates to USDA Service Center status. The 
        associated Service Center Status Dashboard (https://
        www.farmers.gov/coronavirus/service-center-status) was 
        published in June 2020 to provide up-to-date county-level 
        information on USDA Service Centers across the country. The 
        initial Coronavirus Food Assistance Program (https://
        www.farmers.gov/cfap1) (CFAP) page was published in April 2020. 
        CFAP provides direct relief to producers who faced price 
        declines and additional marketing costs due to COVID-19. The 
        Coronavirus Food Assistance Program 2 (https://www.farmers.gov/
        cfap) (CFAP 2) page was published in September 2020 along with 
        a new tool, the CFAP 2 Eligible Commodities Finder (https://
        www.farmers.gov/cfap/tool).

  <bullet> USDA enhanced the Farmers.gov portal in 2020 to enable 
        producers to manage conservation activities and request 
        assistance from USDA's NRCS. Through their secure portal 
        accounts, farmers and ranchers can now view, upload, download, 
        and e-sign documents; request conservation assistance; request 
        financial assistance, including submitting a program 
        application; view and request application details; reference 
        technical terms and submit questions; access information on 
        current and past conservation practices; report practice 
        completion and request practice certification; view detailed 
        information on all previous and ongoing contracts, including 
        the amount of cost-share assistance received and anticipated; 
        and have authority for FSA and NRCS customers to work in the 
        portal and act on behalf of their active power-of-attorney 
        entitlements and their current authorities for business 
        entities. Dedicated customer pages provide map and tabular 
        views of prior Conservation Assistance Requests, the customer's 
        Conservation Practices portfolio, their Conservation Documents, 
        and Conservation Program Contracts including tabular and map 
        views. The system routes customer requests and signed documents 
        to servicing NRCS Servicing Offices view direct connections to 
        the Employee Conservation Desktop. Customers and employees 
        receive notifications of actions warranting their attention.
Feedback
    USDA manages Farmers.gov according to user centered design 
principles and engages with America's farmers and ranchers to inform 
decisions made for the site.
    USDA has leveraged analytics tools, such as Google Analytics and 
Google Tag Manager, to better understand the overall performance of the 
site and target improvements for specific priority pages. For example, 
analysis of searches that did not lead to click throughs led USDA to 
add acronyms to program pages and fix bugs related to the service 
center locator. USDA also uses a tool to learn how users interact with 
them by collecting three main metrics: mouse movement, clicking, and 
scrolling. These three metrics are used to generate heat maps that USDA 
has used to redesign webpages to make more intuitive for customers.
    USDA collected direct feedback from farmers on the initial 
prototypes for the H-2A tool. This feedback was analyzed and captured 
in a findings and recommendations report which allowed us to address 
vital concerns before the development process, and before the tool was 
available to the public. Prior to the development of the Farm Loan 
Discovery Tool, members of the GSA Customer Experience Center of 
Excellence conducted field research across eight states to better 
understand the experience of applying for and receiving a direct farm 
loan. This research informed development of our Application Quick 
Guides and Farm Loan Discovery Tool. And through the use of a feedback 
tool on the site, the Farmers.gov team has received relevant 
information regarding issues with the site, resulting in improvements 
like the new service center locator.
    USDA also collected feedback through customer and employee 
interviews in multiple states to inform the new conservation features 
on the Farmers.gov portal. Customers also provided feedback on key 
workflow pre-development visual designs. Staff conducted conservation 
content working software pre-release evaluations and demos with small 
sets of producers that were well received. Internal evaluations were 
conducted with employees, including employees that are also 
agricultural producers. Effective communications outreach, demos and 
media events in conjunction with Farmers.gov conservation content 
releases in late May, August and early October have resulted in a 423% 
increase and over 7,400 new Farmers.gov portal users compared to the 
prior levels in earlier 2020.
    Most recently, FPAC fielded the producer survey from August 2020 
through September 2020 to collect feedback from customers at the 
transactional and relationship levels. FPAC will conduct analysis of 
the FY 2020 survey results and develop action plans to address areas of 
opportunity for improvement.
Transition from Conservation Client Gateway
    USDA does not anticipate any difficulty as we transition from the 
Conservation Client Gateway to Farmers.gov. This new system is more 
intuitive than any previous product released, and also includes an 
enhanced mobile functionality. The most recent Farmers.gov Conservation 
Content Release on October 8, 2020 culminated a series of releases over 
the prior 18 months to provide and improve upon all the key customer 
facing content formerly available through the NRCS Conservation Client 
Gateway. USDA initiated a robust communications strategy that involved 
notifying existing Client Gateway customers of the change, posting news 
of the transition to Farmers.gov on the Client Gateway website, and 
website re-direction.
    Existing customers can use the same login and password credentials 
to access Farmers.gov as they used in the past for Conservation Client 
Gateway and FSA farm+. Web page guidance and an online Service Desk are 
in place to assist new and existing customers with questions and issues 
that may arise in creating secure access credentials.

    Question 12. Field visits are a crucial piece of the conservation 
planning process, and I understand that NRCS has continued to carry out 
field visits during the public health crisis. Have any adjustments been 
made to enable NRCS to continue this very important aspect of 
conservation planning? What precautions is NRCS taking to ensure that 
employees and farmers both remain safe while performing field visits 
during the COVID-19 pandemic?
    Answer. NRCS staff have been able to continue conservation planning 
and implementation activities during COVID-19. All NRCS field staff 
have observed all requirements called for in the USDA Playbook for 
COVID-19. Staff have been able to carry out conservation planning 
activities while observing social distancing requirement.
    At the discretion of the State Conservationist, NRCS employees 
traveling to site visits that require more than one employee may travel 
in a government vehicle with up to two people. Employees traveling in a 
vehicle with more than one person must wear a paper or cloth face 
covering while in the vehicle. The wearing of disposable gloves is 
encouraged. Time spent in the vehicle should be minimized. The interior 
of the vehicle must be cleaned with a disinfectant at the conclusion of 
the trip. Employees are reminded that they should maintain social 
distancing when outside of the vehicle.
    The USDA and FPAC COVID Playbooks limit travel to ``mission 
essential, time sensitive'' events.

                 Travel and training by Facility Status
------------------------------------------------------------------------
               Overnight    Local Travel/     Local           Large
   Phase        Travel       Field Work      Training       Gatherings
------------------------------------------------------------------------
Phase Zero  Overnight       Critically    Conducting or  Attendance at
             travel to or    needed work   attending      conferences
             from a          only. All     training in    and trade
             location in     precautions   a location     shows in a
             Phase Zero is   must be       in Phase       Phase Zero
             not             followed.     Zero is not    location or
             permitted.      NRCS          permitted.     while the
             Critical        mission                      attendee's
             operational     delivery                     facility is in
             exceptions      field work                   Phase Zero is
             must be         will                         not permitted.
             approved at     continue
             the State or    following
             HQ level.       appropriate
                             precautions
                             .
Phase One   Overnight       Work that     Conducting or  In person
             travel to or    cannot be     attending      attendance at
             from a          deferred to   training in    conferences
             location in     Phase Two     a location     and trade
             Phase One is    or later is   in Phase One   shows is not
             not             permitted.    is not         permitted.
             permitted.      All           permitted.
             Critical        precautions
             operational     must be
             exceptions      followed.
             must be         NRCS
             approved at     mission
             the State or    delivery
             HQ level.       field work
                             will
                             continue
                             following
                             appropriate
                             precautions
                             .
Phase Two   Overnight       Routine       Conducting or  In person
             travel to or    field work    attending      attendance at
             from a          is allowed.   training in    conferences
             location in     All           a location     and trade
             Phase Two       precautions   in Phase Two   shows is not
             should be       must be       is not         permitted.
             kept to an      followed.     permitted.
             absolute
             minimum and
             must be
             approved at
             the State or
             HQ level.
Phase       Overnight       Routine       Virtual        In person
 Three       travel to or    field work    training is    attendance at
             from a          is allowed.   preferred.     conferences
             location in     All           Conducting     and trade
             Phase Three     precautions   training in    shows is not
             must be for     must be       a location     permitted.
             an              followed.     in Phase       Exceptions
             operational                   Three is       must be
             need that                     discouraged,   approved at
             cannot be                     but if         the State or
             deferred and                  essential,     HQ level.
             must be                       must adhere
             approved at                   to FPAC
             the State or                  mask, social
             HQ level.                     distancing
                                           and hygiene
                                           requirements
                                           . If any of
                                           these
                                           conditions
                                           cannot be
                                           met, the
                                           training
                                           should not
                                           occur.
------------------------------------------------------------------------

    Our precautions have been successful. Following the cautionary 
guidelines above, field staff have been able to cover more than 53 
million acres with our clients this year in developing conservation 
plans. Historically, this number is about 35 million acres. 
Additionally:

  <bullet> Over 11 million resource concerns have been evaluated.

  <bullet> 114,798 assessments have been completed.

  <bullet> Millions of acres and thousands of producers have been 
        accepted for enrollment in NRCS programs.

    Question 13. USDA launched a customer experience survey last month 
to improve services from high impact providers, including NRCS. Has 
NRCS received any initial feedback about conservation program delivery?
    Answer. We do not anticipate having the results of the survey until 
the end of November.

    Question 14. The Conservation Agricultural Mentoring Program is a 
state-driven program that matches an experienced producer who is 
passionate about conservation with an NRCS field employee that is new 
to the job or new to the area. The program goal is to have employees go 
out on the land with their producer mentor 6-12 times per year. How has 
the COVID-19 pandemic impacted the program? Are these field visits 
still able to happen?
    Answer. COVID-19 has not substantially altered the timelines or 
implementation schedule for the Conservation Agricultural Mentoring 
Program (CAMP). Social distancing requirements did not hinder the 
process of mentor and mentee selection and pairing. Also, initial 
interactions and subsequent meetings were able to be held virtually 
either through telephone calls or other virtual means. Additionally, 
mentees were able to meet with mentors on their property in an outdoor 
setting and observing social distancing guidelines.

    Question 15. As farmers and ranchers across the country and in my 
district look to access conservation assistance and benefit from many 
of the important changes included in the 2018 Farm Bill, it is critical 
that we are working to reach and support those who have historically 
struggled to access USDA assistance, including beginning, socially 
disadvantaged, limited resource, women, and veteran farmers and 
ranchers. How has the COVID-19 pandemic affected NRCS's ability to do 
outreach, particularly to these historically under-served groups?
    Answer. Outreach assistance through our partners was modified due 
to the COVID-19 pandemic. Entities were able to conduct many of the 
outreach activities using virtual technologies. They also conducted 
activities in person by limiting group sizes to ensure social distance 
requirements and provided PPE materials to attendees. States continued 
to utilize partnership efforts with Conservation Districts and 
Community Based Organizations to ensure the continuation of outreach 
efforts during the COVID-19 pandemic. Efforts were conducted via email, 
phone and other virtual meeting platforms to provide conservation 
assistance to historically under-served groups.

    Question 16. Staffing for NRCS has continued to decline in recent 
years. A number of vacancies are at the local field office level. What 
impact have these vacancies had on the ability of NRCS to administer 
conservation programs and activities for farmers and ranchers?
    Answer. NRCS is a locally-led agency and the majority of our 
vacancies are in customer facing positions. The impact of these 
vacancies on providing technical assistance and delivery of 
conservation programs at the local field office level has been 
extensive in some cases.
    The primary impacts include extended wait times and delays for:

  <bullet> Conservation technical assistance to support farm bill 
        programs, including conservation practice design, layout and 
        certification, payment processing, etc.;

  <bullet> Development of conservation plans to address resources 
        concerns across farm bill programs;

  <bullet> Delivery of up-to-date core science and technology 
        information for societal and agency needs;

  <bullet> Soil survey, snow survey, and plant materials center 
        activities;

  <bullet> Follow-up with new request(s) for service;

  <bullet> Effective assistance to key conservation partners, such as 
        local Soil and Water Conservation Districts; and

  <bullet> Extended response time to natural disasters.

    In October 2020, NRCS received approval through the Office of 
Personnel Management to fill 1,525 positions through Direct Hire 
Authority. Most of these are located in field offices and, when filled 
in FY 2021, will fully address the concerns listed above.

    Question 17. I know that NRCS has set optimal staffing levels. Can 
you tell me the number of current vacancies compared to those optimal 
staffing levels? If NRCS is not currently meeting its staffing goals, 
when will it be?
    Answer. As of October 13, 2020, the current staff onboard was 
9,398, resulting in 1,613 vacancies. NRCS received approval on October 
9, 2020, to hire 1,525 employees via Direct Hire Authority and is 
working aggressively to fill these positions by September 30, 2021. 
Coupled with ongoing hiring actions, NRCS projects to reach its 
staffing cap by February 2022.

    Question 18. Today, U.S. forests and forest products annually 
sequester and store almost 15% of U.S. carbon emissions from burning 
fossil fuels, how can we utilize conservation programs to build on the 
nearly 3 million jobs produced by America's forest sector?
    Answer. Through conservation technical and financial assistance, 
NRCS provides farmers, ranchers and nonindustrial private forestland 
owners direct assistance for implementation of conservation measures. 
This assistance ensures economically viable and productive forest lands 
as well as protection of critical natural resources. Conservation 
implementation results in planting an average of 114,000 acres per year 
at an average of 300 trees per acre that sequester approximately half a 
million metric tons of carbon per year.
    Financial Assistance is provided through the Environmental Quality 
Incentives Program (EQIP), the Conservation Stewardship Program (CSP), 
and the Regional Conservation Partnership Program (RCPP). In each case, 
NRCS partners with private landowners to achieve their objectives and 
meet conservation goals. The programs create jobs in rural communities 
by increasing demand for private forestry consultants, field foresters, 
and other professionals.
    The most common practices installed include:

  <bullet> Tree and Shrub Establishment--planting trees and shrubs to 
        meet the objectives of the landowner to re-establish productive 
        forests and provide wide-ranging benefits such as improving 
        soil health, improving air quality and providing habitat.

  <bullet> Riparian Forest Buffers--tree planting also occurs as part 
        of riparian buffer establishment, allowing forested buffers to 
        capture sediment, nutrients, and pollutants from runoff, to 
        maintain water quality in streams and lakes, and improve 
        wildlife habitat.

  <bullet> Windbreak and Shelterbelt Establishment--planting rows of 
        trees and shrubs to reduce wind erosion and to provide shelter 
        and habitat for livestock and wildlife.

  <bullet> Silvopasture--planting and managing a combination of trees 
        and forages to meet forestry and livestock management goals.

    Partnerships and collaboration are key for NRCS's success on 
private forest lands. NRCS works very closely with each state forestry 
office to ensure reforestation technical goals are well communicated 
and coordinated. NRCS consistently partners with the USDA Forest 
Service to collaborate on forestry conservation projects across the 
country including reforestation planting for ecological restoration on 
both Federal and private lands. Together, with the USDA Forest Service, 
NRCS staffs the National Agroforestry Center in Lincoln, Nebraska. The 
Agroforestry Center provides technical assistance on windbreak and 
silvopasture practices that reduce soil erosion and enhance 
agricultural and livestock production. Further, NRCS partners with the 
Farm Service Agency by providing technical assistance to their programs 
such as the Conservation Reserve Program (CRP). NRCS also partners with 
many nonprofit and private entities, where there are shared goals of 
voluntary conservation assistance to private lands.
Questions Submitted by Hon. Marcia L. Fudge, a Representative in 
        Congress from Ohio
    Question 1. Across the farm sector, the coronavirus has severely 
disrupted supply chains, further exacerbating food insecurity. This 
experience places renewed emphasis on the resilience and productivity 
of local food systems. Can you outline NRCS' efforts to strengthen 
local food systems amid the ongoing coronavirus pandemic? Any efforts 
specific to northeast Ohio?
    Answer. Despite the COVID-19 pandemic, NRCS has continued to 
deliver its programs and provide service to its customers from rural to 
urban communities. Following national guidance and safety guidelines, 
employees have continued to work with landowners, stakeholders, and 
partners using creative and increasingly virtual methods. This 
continuity of service has allowed the agency to provide solutions so 
agricultural producers can protect and improve natural resources and 
agricultural operations. Working through the locally-led approach, 
community stakeholders stayed involved in the planning and 
implementation processes to accomplish community goals.
    NRCS strengthens local food systems by directly providing 
assistance to producers who grow our food, from corn and soybeans, to 
apples and blueberries, to eggs and dairy, to sheep and hogs, and 
includes organic producers. Through well-known conservation programs 
such as the Environmental Quality Incentives Program (EQIP) and the 
Conservation Stewardship Program (CSP), NRCS continues to provide 
financial and technical assistance to farmers, ranchers, and forestland 
owners. NRCS's conservation practices are used nationwide by our 
customers and impact the productivity and resiliency of an agricultural 
operation, regardless of size. During FY 2020, NRCS delivered new tools 
to farmers through new interim conservation practice standards and 
completed review of all conservation practice standards.
    Soil health is foundational to every producer's enterprise, impacts 
all other NRCS resource concerns, and is at the heart of NRCS 
conservation programs. Healthy soils provide weather and pest 
resilience, reduce production risk and environmental impacts, increase 
productivity and economic and social viability. Throughout the 
coronavirus pandemic, NRCS has continued to train its staff and 
partners on the components of soil health management systems including 
sector-wide training, integration into technology, policy, standards 
for assessment and management, outcome monitoring, soil survey 
databases, and processes for continuous improvement. Working with 
community leaders through the locally-led process, agricultural 
producers who best know their land, and staying relevant with an array 
of technical knowledge and tools, NRCS has continued to strengthen key 
components of the local food system and supply chain--the land, the 
grower, and the community.
    The establishment of Box and OneSpan allows NRCS customers to 
conveniently access, sign, and share documents online. This has 
facilitated continued planning and contracting with our producers, who 
supply the agricultural products in the food system.
    At all levels, and especially at the state and local level, there 
are targeted outreach efforts for historically under-served (HU) 
producers, which includes individuals identifying as beginning farmer 
or rancher, socially disadvantaged farmer or rancher, veteran farmer or 
rancher, or limited resource farmer or rancher. NRCS has continued to 
engage with and encourage program participation of all producers who 
are eligible. In addition, the 2018 Farm Bill included provisions that 
address needs unique to HU producers. For example, NRCS gives priority 
consideration for proposals that provide outreach to HU groups through 
the Regional Conservation Partnership Program (RCPP). Through EQIP, 
NRCS offers HU producers the option to use the advance payment option 
to increase program accessibility and reduce the initial burden of 
paying for up-front costs.
    Since February 2020, NRCS has awarded 51 new agreements nationwide 
through the Conservation Collaboration Grants (CCG) competitive process 
with many projects containing an urban component to develop urban 
gardens and establish Seasonal High Tunnels to increase access to 
healthy foods in food insecure areas in many states across the U.S. The 
CCG opportunity emphasized projects that targeted agricultural 
producers in multiple states, including American Indian, socially 
disadvantaged, limited-resource or beginning farmers and ranchers as 
well as veteran farmers or ranchers.
    Through the new Office of Urban Agriculture and Innovative 
Production (OUAIP), USDA launched a competitive grants program, 
cooperative agreement projects in 10 states, and is in the process of 
establishing 10 new FSA County Committees for urban agriculture. In 
Fiscal Year 2021, we will be establishing a Federal Advisory Committee 
for urban agriculture. Both the grants and agreements opportunities 
were to support the development of urban agriculture and innovative 
production and were targeted to different eligible entities including 
nonprofits, American Indian tribes and local governments, and schools 
across the country. Both competitive funding programs provided new 
opportunities to directly engage and support urban and suburban growers 
and stakeholders in their efforts to actively participate in and 
strengthen aspects of their local food system.
    The OUAIP grants program supports a wide range of activities that 
include operating community gardens and nonprofit farms, increasing 
food production and access in economically distressed communities, 
providing job training and education, and developing business plans and 
zoning. Priority was given to projects located in or targeting an 
Opportunity Zone, which is a census tract designation for low-income 
communities. On August 25, 2020, USDA announced its awarding of $1.14 
million for three Planning Projects and approximately $1.88 million for 
seven Implementation Projects from across the nation, including the 
Famicos Foundation in Ohio.
    At the same time, USDA announced that it invested approximately 
$1.09 million in Community Compost and Food Waste Reduction projects. 
The 13 selected pilot projects develop and test strategies for planning 
and implementing municipal compost plans and food waste reduction. 
Priority was given to projects that anticipate or demonstrate economic 
benefits, incorporate plans to make compost easily accessible to 
farmers, including community gardeners, integrate other food waste 
strategies, including food recovery efforts, and collaborate with 
multiple partners.
    The OUAIP also made notable progress towards establishing the 
National Advisory Committee for the Secretary of Agriculture (FACA 
Committee) and creating 10 new Urban and Suburban FSA County Committees 
(UCOCs). OUAIP worked closely with the Farm Service Agency (FSA) to 
identify locations for the UCOCs, develop outreach plans, UCOC business 
and operation plans, and develop policies--as well as conduct national 
trainings and outreach sessions. The County Committees will play a 
critical role in advising FSA on how programs meet the needs of urban 
growers.
    Approximately 500 applications were submitted in response to the 
UAIP competitive funding announcement. Of those, 13 were selected for 
funding, including the Ohio-based Famicos Foundation's proposal. 
Famicos Foundation's mission is to improve the quality of lives in 
Greater Cleveland through neighborhood revitalization, affordable 
housing, and integrated social services. Community gardens have long 
been a critical part of Famicos's work to improve the health and well-
being of people in the neighborhoods it serves. The Community Produce 
Garden project activities will include reinvigorating the garden at 
Michael R. White STEM School using emerging technologies to produce 
food to create healthy, fresh food for area residents, to provide a 
STEM education opportunity for area students, to offer jobs to local 
youth, and generate income at Famicos's Gateway 105 Market.
    Cleveland, Ohio was also selected as one of the first five new 
Urban and Suburban FSA County Committees. Additionally, Seasonal High 
Tunnels, also called hoop houses or high tunnels, allow crops to grow 
in colder weather. Urban farmers can apply for NRCS technical and 
financial assistance to purchase and construct Seasonal High Tunnels. 
In FY 2020, Ohio NRCS obligated 24 contracts in NE Ohio that included 
high tunnels systems for $210,534. By making local produce available 
for more months in the year, fewer resources are used to transport food 
to plates. Our vision is to make a difference in these communities by 
fostering an urban agriculture movement that eliminates food deserts 
and helps change the narrative for urban farming.

    Question 2. This past August the Farm Service Agency announced the 
creation of new county committees focused exclusively on urban 
agriculture--including a county committee to be located in my district 
in Cleveland, Ohio. My understanding is these committees are organized 
through USDA's Office of Urban Agriculture and Innovative Production. 
Can you provide us with an update on the formation of these new 
committees, including the purpose and how the committee members will be 
selected? How does USDA plan to engage/work with local urban 
agriculture leaders in Cleveland to ensure the committee adequately 
represents and understands the needs of the urban agriculture sector in 
the area? Additionally, is the Office of Urban Agriculture engaging in 
any cross-agency activity with the Agricultural Marketing Service or 
any other USDA agency? Please specify.
    Answer. The farm bill authorized the Secretary to establish ten new 
Urban and Suburban Farm Service Agency (FSA) County Committees (UCOCs) 
as part of a 5 year or longer pilot project. OUAIP worked closely with 
FSA to identify locations for the UCOCs, develop outreach plans, UCOC 
business and operation plans, and develop policies--as well as conduct 
national trainings and outreach sessions. The new UCOCs will help 
identify the needs of the growing urban agriculture market and help the 
USDA determine how our programs can be enhanced to meet those needs and 
provide recommendations to help shape future opportunities. Members 
will include local farmers with ties to urban agriculture, innovative 
practices, should reflect diversity, including historically under-
served producers, and will be nominated by their peers. Committees 
typically include 3 to 11 members who serve 3 year terms.
    FSA began accepting nominations on September 8, 2020, for the first 
five urban and suburban county committee members. Urban farmers who 
participate or cooperate in an FSA program, or are pursuing 
opportunities to work with FSA in the county selected were eligible to 
either be nominated or nominate themselves or others as a candidate. 
Organizations, including those representing beginning, women, and 
minority producers, were also encouraged to nominate candidates. To be 
considered, a producer must sign an FSA-669A nomination form. The form 
and other information about FSA county committee elections are 
available at fsa.usda.gov/elections or farmers.gov/urban. The deadline 
for submitting nomination forms for these first five urban and suburban 
county committees was October 2, 2020. The remaining five will be 
established in FY 2021.
    These new UCOCs have the opportunity to be dynamic in their role 
through this pilot project--existing in ways that are unlike 
traditional county committees by engaging with a new customer base, 
being a voice of that customer base and helping the USDA shape the 
future in our assistance and support of this growing market. Likewise, 
these new UCOCs will also serve to fulfill some of the more traditional 
roles of a county committee by making decisions on producer 
applications, making determinations on production, listening to 
appeals, and helping manage the local FSA office.
    The new members will receive an in-depth UCOC training on their 
roles, rules, policies, programs, and guidelines of FSA and NRCS 
programs by working directly with FSA and NRCS staff and/or local 
committees and councils. These local committees and councils include 
but are not limited to, local USDA Outreach Committees, State Technical 
Advisory Committee, State Civil Rights Committee, State Food Advisory 
Council, State Public Affairs, Outreach and Program Staff. The UCOCs 
will meet quarterly to discuss urban agriculture related issues, the 
market and needs, and provide feedback and input on how FSA or other 
USDA programs can best meet the needs of the urban agriculture 
community and to review current FSA programs. Urban growers, gardeners 
and partners include municipal entities, nonprofits, representatives 
from an institution of higher education or extension program, 
individuals who represent business and economic development, 
individuals with supply chain experience, which may include a food 
aggregator, wholesale food distributor, food hub, or individuals who 
have direct-to-consumer market experience are actively recruited to 
participate in these discussions, as well.
    The UCOCs will work with state FSA and NRCS leaders to identify key 
gatekeepers to invite to the general sessions as well as work with 
state NRCS and FSA outreach and communications staffs to develop 
outreach and communication tools for promoting these meetings. The 
UCOCs, FSA, NRCS and other USDA agencies and local relevant partners, 
leaders, councils, and committees will assist the UCOCs in developing a 
UCOCs Urban Agriculture and Innovative Production Project Analysis for 
their site-specific location. The Project Analysis should be completed 
by the end of Fiscal Year 2021.
    USDA has established an internal urban agriculture advisory 
committee with membership from USDA agencies that have a mission which 
services urban agriculture and innovation. The OUAIP Committee will 
provide guidance to the OUAIP Designated Federal Official and develop 
recommendations on applicable policy for USDA leadership. To ensure the 
committee's success, members have been appointed with skills to engage 
technical, subject matter, and policy expertise in the area of urban 
agriculture. This collaboration across all relevant USDA agencies 
highlights USDA's commitment to fulfilling these requirements.
    The agencies represented on the committee are: Agricultural 
Marketing Service, Agricultural Research Service, Animal Plant Health 
Inspection Service, Economic Research Service, Farm Service Agency, 
Food and Nutrition Service, Foreign Agricultural Service, Forest 
Service, National Agricultural Statistics Service, National Institute 
of Food and Agriculture, Natural Resources Conservation Service, Risk 
Management Agency, Rural Development, Office of the Chief Economist, 
Office of Partnership and Public Engagement, and the Office of Tribal 
Relations.
    The OUAIP Committee will develop an outreach plan and provide 
specific details on resources and commitments of the individual 
agencies to carry out collaborative efforts supporting urban and 
innovative agriculture. Additionally, the OUAIP Committee will develop 
recommendations on priorities and mechanisms for achieving statutory 
requirements.

    Question 3. In an effort to assist under-served & socially 
disadvantaged minority farmers, USDA established a technical assistance 
cooperative agreement program. Many awardees are minority Community 
Based Organizations (CBO's) such as the Federation of Southern 
Cooperatives. However, it has recently come to my attention that at 
least 12-15 of these established agreements are currently experiencing 
delays in having their awards executed. Some CBO's like the Federation 
of Southern Cooperatives, who assists with the coordination of the 
Seasonal High Tunnel program in the district that I represent, have 
been approved since March but have yet to receive their award. Can you 
provide us me with a status update on the existing agreements between 
USDA and minority CBO's, including those impacting my district?
    Answer. Due to the sheer volume of agreements to be processed, 
several were not completed by September 30, 2020. Twelve agreements did 
not get processed. Of these, nine were minority Community Based 
Organizations. The grants team identified issues that needed further 
clarification, and those issues are currently being addressed. 
Specifically, NRCS is working with the FPAC Business Center to get the 
remaining agreements expeditiously executed, including the Cleveland 
High Tunnel project.
    In FY 2020, NRCS entered into 44 national-level partnership 
agreements with minority organizations with an investment of 
approximately $23 million to assist the agency in conducting program 
outreach to historically under-served populations. By strengthening 
existing partnerships and establishing new partnerships with public and 
private entities, NRCS extended its reach to a broader cross-section of 
the American public. Through these partnership efforts, NRCS is 
successfully demonstrating how its many unique conservation programs 
play a vital role in helping address natural resource, economic and 
social challenges faced in rural, suburban and urban landscapes. As a 
result, NRCS is: (1) Demonstrating the connection between food, 
agriculture, community and a sustainable environment; (2) Expanding 
access to affordable fresh and local foods; and (3) Stimulating 
economic development.

    Question 4. The 2018 Farm Bill established the Clear Lakes 
Estuaries and Rivers initiative or the CLEAR30 pilot program. The 
program is devoted to practices that offer water quality protection and 
is limited to the Great Lakes and the Chesapeake Bay regions. Can you 
please explain the role of NRCS in providing land eligibility 
determinations, conservation planning, and practice implementation?
    Answer. The FSA is responsible for the land eligibility 
determination for all of Conservation Reserve Program (CRP) offers, 
including CLEAR30 offers. The NRCS conducts a field visit and provides 
to FSA a technical description of the CRP practice condition at the 
time of CLEAR30 enrollment. If the cover has been maintained and 
managed, then FSA will ask NRCS to write up a conservation plan for the 
CLEAR30 offer. If additional practices are needed, NRCS will provide 
technical assistance to the producer for practice implementation.
Questions Submitted by Hon. Chellie Pingree, a Representative in 
        Congress from Maine
    Question 1. I've been pushing for NRCS to adopt composting as a 
conservation practice for several years now. I was encouraged to see 
that you recently issued an interim conservation practice for soil 
carbon amendments, including compost and biochar.
    Can you give me an update on that interim practice? What feedback 
have you gotten from stakeholders so far? How many states have adopted 
it? When could we expect to see this as an approved practice 
nationwide?
    Answer. The practice is in the early stages of planning. While none 
have been installed yet, use of the interim practice standard will be 
available for EQIP incentive payments in the states that have adopted 
it in FY 2021. There has been a tremendous amount of positive feedback 
from stakeholders across the country, including Organic Farming 
Research Foundation, National Center for Appropriate Technology, 
National Sustainable Agriculture Coalition, and National Sugarbeet 
Association. In addition, West Sugar Association, Crystal Sugar 
Cooperative, US Biochar Initiative, and US Composting Council expressed 
interest.
    Interim conservation practice standard Soil Carbon Amendment (Code 
808) has been authorized for use in CA, CO, CT, DE, HI, ID, IL, IN, MA, 
MD/DC, MI, MT, NE, NH, NJ, NY, OR, UT, VT, and Caribbean Area (Puerto 
Rico and Virgin Islands). Interim standards are approved for states to 
use for 3 years. At the end of the 3 year trial, states can then 
recommend that the interim be converted to a national standard or 
archived based on experience with the interim standard. Any state can 
add the existing interim practice if it fits their need and provide 
evaluation of the interim practice.

    Question 2. The 2018 Farm Bill requires NRCS to offer conservation 
practice payments in advance to limited resource, socially-
disadvantaged, veteran, and beginning farmers when they enroll in EQIP.
    What outreach has NRCS done to make sure these producers are aware 
of this option? How many producers enrolling in EQIP have been able to 
take advantage of the advance payments?
    Answer. NRCS has taken this farm bill provision very seriously and 
has developed a campaign to ensure historically under-served (HU) 
producers (including limited resource, socially disadvantaged, veteran 
and beginning farmers and ranchers) are made aware of the advance 
payment option. NRCS has provided more than 110-contact hours (almost 
three full weeks) of training to State, Area, and Field Offices related 
to provision of the 2018 Farm Bill. Advanced Payments have been 
included in this training to inform states how internal information 
technology applications are being updated to incorporate this 
provision, which cost components of a conservation practice (e.g. 
materials, labor, equipment for installation) are eligible for advanced 
payments.
    Field Offices provide advanced payments recipients with a copy 
relevant fact sheets, and other conservation practice implementation 
requirements to help them ensure practice installation follows 
established standards and specifications. Historically under-served 
producers who elect to take advantage of this provision will have up to 
90 days to finalize conservation practice installation. Participants 
who elect to waiver this provision have this information documented in 
their conservation plan schedule of operations. With the training 
provided, field offices are conveying information to applicants who 
qualify for this provision on an individual basis.
    To ensure each HU producer program participant is aware of the 
advance payment option, NRCS has updated business tools to record the 
HU producer's election to receive an advance payment, on a contract 
item basis, at the time of obligation. This business tool update also 
applies to any future contract modifications. Additionally, if a HU 
producer elects not to receive an advance payment at the time of 
obligation, the HU producer can still request the advance payment prior 
to implementing the practice.
    Since passage of the 2018 Farm Bill, NRCS has 1,478 contracts that 
include obligations in the amount of $60.4 million. The agency 
anticipates these numbers will increase during the course of the 2018 
Farm Bill as more participants become aware of this provision and field 
offices become more proficient with communicating, executing, and 
certifying these business practices.
Response from Jonathan W. Coppess, J.D., Assistant Professor of Law and 
        Policy, Department of Agricultural and Consumer Economics, 
        University of Illinois
Questions Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question 1. Drawing on your experiences, how can economic 
downturns, like the one we are currently facing, impact decisions 
farmers are making regarding conservation practices? Do we generally 
anticipate farmers or producers to increase or decrease their usage of 
conservation practices during economic downturns? Would you say 
conservation programs today are resilient to the variable economic 
climates faced by farmers?
    Answer. Much depends on the individual farmer and farm management, 
as well as the severity of the downturn. In general, an economic 
downturn would be expected to significantly challenge decisions 
regarding conservation practice adoption and the management of 
conservation efforts. Farmers who have adopted conservation practices 
and incorporated them successfully in their farm management are 
unlikely to make drastic changes to reverse what has been adopted, but 
they may hold off on further adoption or expansion. Farmers who were 
looking to adopt are likely to hold off or reconsider. The challenge 
for conservation practices are that much of the benefit is incremental 
and spread out over a longer time horizon while the costs are immediate 
and annual; management complexity and additional risk are also 
immediate and ongoing. Similar to any investment in the farm, the 
farmer will need to weigh additional investments against the financial 
and other challenges in the downturn.
    One method for thinking through these issues is around the topic of 
competition and, in particular, competition as it plays out on the 
local level with matters like cash rent. A farmer investing in 
conservation efforts (both time and money) will have fewer resources to 
invest in additional rental acres or increased cash rent; conservation 
investments might have to take priority over other capital investments 
like equipment or storage. While this is unlikely to drive a farmer out 
of farming right away, it could slowly erode the farmer's competitive 
position or make it difficult to weather downturns and other 
challenges. Farmers are, however, very good at adapting and innovating 
such that the competition issue should not be overstated or 
misunderstood. It is likely a longer run issue where the farmer 
adopting conservation will experience an erosion in their competitive 
position. At the very least, the competition issue raises substantial 
questions for farmers and for policy and it is an area that would 
benefit from further analysis and evaluation.
    As for current conservation programs, I would argue that they 
represent important and valuable investments. For working lands 
programs, there are opportunities to improve their responsiveness to 
economic changes faced by farmers which will, in turn, make the 
policies and programs more relevant to more farmers. Looking to 
commodity programs and crop insurance, we have a long history 
highlighting the critical factor that crop prices play in policy design 
and the counter-cyclical elements of commodity policies. Crop 
insurance, for example, similarly gained popularity with the 
introduction of revenue policies that incorporated crop year price 
risk. From these lessons, there is much to learn for conservation 
policy and program design.

    Question 2. In your testimony you mentioned the bill from Reps. 
Bustos and Bost, H.R. 4988, the ``Conservation Assistance Loan Act of 
2018.'' Are there any other pieces of legislation that you would 
encourage this Subcommittee to consider to better ensure that 
conservation programs address farm-level competition and remain more 
relevant to decisions being made by farmers on a daily basis?
    Answer. With the caveat that I have not reviewed all bills or 
proposals, there are some notable examples of which I am currently 
aware. One example is ``The Farmer-Driven Conservation Outcomes Act'' 
introduced by Representatives Fudge and Thompson (H.R. 6182), as well 
as Senators Casey and Capito (S. 3429). Additionally, legislation that 
looks to increase and improve Federal investments in soil health will 
be important, especially those that seek innovative methods for helping 
farmers with the investments necessary. I note specifically your bill 
``The Healthy Soil, Resilient Farmers Act of 2020'' (H.R. 8057) and 
Senator Wyden's ``Healthy Soils Healthy Climate Act'' (S. 4850). These 
bills are valuable contributions to the discussion and further the 
thinking around conservation policies and programs.

    Question 3. In your opinion, do you believe our conservation 
programs provide enough certainty or support for farmers and producers 
who wish to engage in conservation over the long run? If not, what 
could be done to increase certainty for farmers and producers as it 
pertains to conservation?
    Answer. Much depends on the program; long-term contracts such as 
under CSP or CRP provide plenty of certainty. For working lands, I 
contend that the policies need to better incorporate risk issues like 
market prices to better perform in a counter-cyclical manner, helping 
the farmer in downturns when the costs for conservation investments are 
likely to be more significant. This might, somewhat ironically, appear 
to decrease certainty in terms of level of support each year but would 
be more relevant to farm risk issues and could improve certainty to 
farm management over the longer-term.

    Question 4. In your testimony you describe a model of working lands 
conservation programs that would better internalize yield and price 
risks into their design. Given the current economic downturn, could you 
describe how policies of this type might help ensure that conservation 
incentives are more resilient to economic shocks?
    Answer. Including price risk, for example, would peg the 
conservation assistance to market prices. In short, this would mean 
that conservation assistance would increase as prices decreased in a 
counter-cyclical manner much like title I commodity programs currently 
operate.

    Question 5. Are there any other changes you'd recommend we make to 
conservation programs that would both increase farmer participation and 
make them more resilient to uncertainty--whether economic, or related 
to the impacts of the climate crisis on crops, or otherwise?
    Answer. I hesitate to make recommendations in general. I would like 
to have more analysis and debate about the potential for a counter-
cyclical design in working lands policies. This would also apply to 
policies designed to address the climate crisis through the potential 
for capturing carbon in soils and fields.

    Question 6. As you know, conservation programs can help build farm 
resilience, boost profits, and stimulate local economies. Obviously, 
the COVID-19 crisis has presented farmers with a set of challenges 
unlike any they may have seen before. How can conservation programs be 
used as a tool to help farmers through the current public health 
crisis?
    Answer. Conservation programs represent important Federal, public 
investments in farming and food production. To the extent they help 
farmers manage through downturns like what we are experiencing with 
COVID-19, they are incredibly important tools. They not only help the 
farmer through the crisis but they are also investments in conserving, 
sustaining, improving and making more resilient our vital natural 
resources such as soil and water. A crisis can often risk these longer-
term and important efforts; short-term thinking in a crisis can create 
longer-term problems. Conservation can help avoid such problems and may 
offer further methods for supporting farmers and conserving natural 
resources that provide important returns on the taxpayer investment.

    Question 7. I often say that farmers are the original 
environmentalists and conservationists. However, too often, the work of 
our nation's growers and producers goes unnoticed in the context of 
combating the climate crisis through the management of natural carbon 
sinks. While there are outside markets for carbon offsets generated 
through healthy soil and other agriculturally based practices, these 
markets can be difficult to navigate and require farmers to follow 
rigid protocols that are not always designed with the farmer in mind. 
It's for this reason that I joined my colleague Rep. Bacon (R-NE) and 
Senators Braun (R-IN) and Stabenow (D-MI) in introducing H.R. 7393, the 
Growing Climate Solutions Act which would create a certification 
process for third-party verifiers of carbon offsets at USDA. The bill 
also creates a virtual one-stop shop to help connect farmers with these 
markets and provide information about carbon offset protocols that 
would be managed by USDA with the farmer in mind.
    Would passing something like the Growing Climate Solutions Act help 
farmers access carbon offsets? How might this additional revenue source 
change on-farm decisions regarding participation in USDA's working-
lands conservation programs?
    Answer. I think that the ``Growing Climate Solutions Act'' and 
other potential legislative vehicles could help advance on-farm efforts 
to address the climate crisis by moving forward the ability of farmers 
to receive revenue for their efforts. As mentioned before, farmers are 
incredible competitors and Federal policies that incentivize 
competition around addressing carbon and climate, as well as supporting 
farmers who innovate in that space will help unleash the competitive 
nature of farmers on this vast, complex problem. Even early steps 
present the potential for substantial changes and advances; investments 
magnified by competition across agriculture.

    Question 7a. It is important that the price of carbon offsets 
always reflect the benefits they offer to the climate. However, were 
USDA to add climate mitigation to its existing mandate for conservation 
programs or in the future were to establish a climate-specific program, 
how might we ensure that the category of on-farm risks, like price and 
yield, that you reference in your testimony are also internalized into 
the program without risking the integrity of a carbon price signal?
    Answer. I would argue that incorporating farm risk factors into any 
such efforts represent a critical question and area for further 
evaluation and analysis. I do not have answers but welcome the 
questions and efforts in this direction. I think one place to start 
would be the incredible work and thought along these lines that 
currently exists, and continues, at universities. I also think there 
are important lessons from the history and development of current 
policies that can be applicable, as well as provide cautionary lessons.

                                  <all>
</pre></body></html>
